<html>
<title> - GAMING ON OFF-RESERVATION RESTORED AND NEWLY-ACQUIRED LANDS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 
      GAMING ON OFF-RESERVATION RESTORED AND NEWLY-ACQUIRED LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 13, 2004

                               __________

                           Serial No. 108-101

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-995                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 13, 2004...........................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada, Prepared statement of.....................    13
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     3
    McCrery, Hon. Jim, a Representative in Congress from the 
      State of Louisiana.........................................     4
        Response to questions submitted for the record...........     5
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Bearskin, Leaford, Col. USAF, Ret., and Tribal Chief, 
      Wyandotte Nation, Wyandotte, Oklahoma......................    51
        Prepared statement of....................................    53
    Lohse, Leslie, Treasurer, Paskenta Band of Nomlaki Indians, 
      Orland, California.........................................    69
        Prepared statement of....................................    70
    Luger, J. Kurt, Executive Director, Great Plains Indian 
      Gaming Association, Bismarck, North Dakota.................    73
        Prepared statement of....................................    76
    Marquez, Deron, Chairman, San Manuel Band of Mission Indians, 
      Highland, California.......................................    66
        Prepared statement of....................................    67
    Martin, Aurene M., Principal Deputy Assistant Secretary-
      Indian Affairs, U.S. Department of the Interior............    17
        Prepared statement of....................................    19
        Response to questions submitted for the record...........    20
    Norris, Christine, Principal Chief, Jena Band of Choctaw 
      Indians, Jena, Louisiana...................................    44
        Prepared statement of....................................    47
    Stevens, Ernest L., Jr., Chairman, National Indian Gaming 
      Association................................................    36
        Prepared statement of....................................    39

Additional materials supplied:
    Johnson, Hon. Nancy L., The Honorable Christopher Shays and 
      The Honorable Rob Simmons, Joint statement submitted for 
      the record.................................................    89
    McCarthy, John, Executive Director, Minnesota Indian Gaming 
      Association, Statement submitted for the record............    90


   OVERSIGHT HEARING ON GAMING ON OFF-RESERVATION RESTORED AND NEWLY-
                            ACQUIRED LANDS.

                              ----------                              


                         Tuesday, July 13, 2004

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice at 10:05 a.m., in 
Room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo presiding.
    Present: Representatives Pombo, Young, Tauzin, Duncan, 
Jones, Gibbons, Walden, Hayworth, Osbourne, Flake, Rehberg, 
Kildee, Abercrombie, Pallone, Kind, Inslee, Tom Udall, Mark 
Udall, Baca, and Herseth.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Chairman Pombo. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on the 
issue of gaming on off-reservation restored and newly-acquired 
lands.
    Under Rule 4(g) of the Committee Rules, any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members keep their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    Today, it is my hope to receive testimony that sheds a 
clear light on how the Indian Gaming Regulatory Act applies to 
certain situations in which a tribe seeks to operate a gaming 
establishment on newly-acquired trust land. We are going to 
focus on situations where the trust lands are not within or 
adjacent to a tribe's existing reservation and on trust lands 
sought by tribes that have no reservation. On October 17, 1998, 
the Indian Gaming Regulatory Act was signed into law by 
President Ronald Reagan. This law has had a dramatic impact on 
Indian country by providing a regulatory framework within which 
tribes exercise their inherent sovereign authority to operate 
gaming establishments in States where gaming is permitted.
    Because of gaming, some of the most poverty stricken 
members of society have seen economic, social, cultural, and 
medical benefits never before imagined. This has meant new 
operations for jobs, housing, education, health care, and 
cultural preservation. On the other hand, it has been pointed 
out that in passing IGRA, Congress did not promise that gaming 
would be an economic boon for all tribes in all parts of the 
country. The date of enactment of IGRA, October 17, 1988, is 
important to remember. The Act generally prohibits gaming on 
lands placed into trust by the Secretary of Interior after this 
date.
    As with most laws, there are several exceptions to this 
rule. These exceptions have recently turned out to be very 
complex in application and sometimes confusing to the public. 
This is because different tribes have different legal and 
historical circumstances surrounding their applications to 
place newly-acquired lands into trust. Furthermore, a number of 
tribes are split as to the merits of gaming on newly-acquired 
lands, especially in cases where a tribe seeks to place land in 
trust in an area to which it has no aboriginal or legal ties.
    Finally, States and local governments have mixed views on 
this issue as well. Today's hearing should provide more clarity 
about how IGRA is being applied, giving members of the 
Committee an idea of how to address concerns raised by 
witnesses and by others who submit their comments for the 
hearing record.
    I would now like to recognize Mr. Kildee for his opening 
statement.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    Today it's my hope to receive testimony that sheds a clear light on 
how the Indian Gaming Regulatory Act applies to certain situations in 
which a tribe seeks to operate a gaming establishment on newly-acquired 
trust land. We're going to focus on situations where the trust lands 
are not within or adjacent to a tribe's existing reservation, and on 
trust lands sought by tribes that have no reservation.
    On October 17, 1988, the Indian Gaming Regulatory Act was signed 
into law by President Ronald Reagan. This law has had dramatic impacts 
in Indian Country by providing a regulatory framework within which 
tribes exercise their inherent sovereign authority to operate gaming 
establishments in states where gaming is permitted. Because of gaming, 
some of the most poverty-stricken members of society have seen 
economic, social, cultural, and medical benefits never before imagined. 
This has meant new opportunities for jobs, housing, education, health 
care, and cultural preservation.
    On the other hand, it has been pointed out that in passing IGRA, 
Congress did not promise that gaming will be an economic boon for all 
tribes in all parts of the country.
    The date of enactment of IGRA--October 17, 1988--is important to 
remember. The Act generally prohibits gaming on lands placed into trust 
by the Secretary of the Interior after this date. As with most laws, 
there are several exceptions to this rule. These exceptions have 
recently turned out to be very complex in application, and sometimes 
confusing to the public. This is so because different tribes have 
different legal and historical circumstances surrounding their 
applications to place newly-acquired lands into trust.
    Furthermore, a number of tribes are split as to the merits of 
gaming on newly-acquired lands, especially in cases where a tribe seeks 
to place land in trust in an area to which it has no aboriginal or 
legal ties. Finally, states and local governments have mixed views on 
this issue as well.
    Today's hearing should provide more clarity about how IGRA is being 
applied, giving members of the Committee an idea of how to address 
concerns raised by witnesses and by others who submit their comments 
for the hearing record.
                                 ______
                                 

   STATEMENT OF THE HON. DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman, and thank you very 
much for having this hearing. As one who helped write IGRA a 
few years ago, I know it is not a perfect bill, but I think it 
was a good bill following the Cabazon decision, and we do know 
that many tribes have achieved some economic stability because 
of this, and I am very happy that you are having this hearing 
and very happy for your deep interest in Indian matters, Mr. 
Chairman.
    Mr. Chairman, last month this committee held a hearing on 
the land settlement bills of the Bay Mills community and the 
Sioux St. Marie tribe, two tribes located in my State of 
Michigan. I expressed at that time my strong opposition to 
those bills because I believe that congressional approval of 
land settlement legislation should be approved carefully and 
should not include provisions that would serve to undermine the 
Indian Gaming Regulatory Act, IGRA, and would promote bad 
public policy regarding Indian land claim settlements. In 
addition, I voiced my concern that these bills would allow off-
reservation Indian gaming at lands several hundred miles away 
from the tribe's existing reservations where they have no 
historical ties.
    I am aware of proposals before this committee that, if 
approved, would circumvent the Department of Interior's 
administrative process for taking lands into trust for tribes 
and would avoid the process for approving the use of that land 
for off-reservation gaming purposes for land acquired after 
October 17, 1988. Mr. Chairman, I would much rather develop a 
thoughtful and participatory plan to deal with this issue than 
have this committee take action on legislation on a piecemeal 
basis.
    I look forward to hearing from the witnesses today so that 
we can begin a dialog, and again, I thank you for having this 
hearing.
    [The prepared statement of Mr. Kildee follows:]

Statement of The Honorable Dale E. Kildee, a Representative in Congress 
                       from the State of Michigan

    Mr. Chairman, last month this committee held a hearing on the land 
settlement bills of the Bay Mills community and the Sault Ste. Marie 
tribe, two tribes located in my state, the State of Michigan.
    I expressed my strong opposition to those bills because I believe 
that Congressional approval of land settlement legislation should be 
approached carefully and should not include provisions that would serve 
to undermine the Indian Gaming Regulatory Act (IGRA) and would promote 
bad public policy regarding Indian land claim settlements.
    In addition, I voiced my concern that these bills would allow off-
reservation Indian gaming on land several hundred miles away from the 
tribes existing reservations where they have no historical ties.
    I am aware of proposals before this committee that, if approved, 
would circumvent the Department of the Interior's administrative 
process for taking land into trust status for tribes and would avoid 
the process for approving the use of that land for off-reservation 
gaming purposes for land acquired after October 17, 1988.
    Mr. Chairman, I would much rather develop a thoughtful and 
particpatory plan to deal with this issue than have this committee take 
action on legislation on a piecemeal basis.
    I look forward to hearing from the witnesses today so that we can 
begin the dialogue on this issue. Thank you.
                                 ______
                                 
    Chairman Pombo. Thank you. I would now like to introduce 
our first witness, The Honorable Jim McCrery of Louisiana's 
Fourth District.
    Let me take the time to remind all of today's witnesses 
that under Committee Rules, oral statements are limited to 5 
minutes. Your entire written statement will appear in the 
record.
    Mr. McCrery, I want to welcome you to the Resources 
Committee. It is great to have you in here. If you are ready, 
you can begin.

STATEMENT OF THE HON. JIM McCRERY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. McCrery. Thank you, Mr. Chairman, and I want to thank 
the Committee for undertaking this mission to explore IGRA and 
the potential ramifications of IGRA if no changes are made in 
that underlying law. I come to you today out of fear that if no 
changes are made in the current law, we risk having a 
proliferation of gambling in this country that hasn't been 
explored properly or in depth, and I don't think that we would 
like the results. The reason I have this fear is because of a 
personal experience in Louisiana fairly recently dealing with a 
federally recognized tribe, the Jena Band of Choctaw. And let 
me say at the outset, I don't blame for 1 minute the Jena Band 
for trying to establish land in trust for the purpose of 
operating gaming facilities where they did. They were operating 
under what they believed to be the law and were acting in what 
they believed to be the interest of their tribal members.
    Having said that, though, I think that the law needs to be 
changed to make it clear that similarly situated tribes would 
not even try to take into trust land as far away from their 
traditional service area, land that by their own admission when 
they were applying to become a federally recognized tribe was 
not their historical lands. In fact, they said in their 
application for Federal recognition that the Choctaws that were 
in the region that I will talk about in a minute were not part 
of the Jena Band. The Jena Band came from Mississippi and 
therefore they were completely separate and ought to be 
recognized as a separate Federal tribe, and they were. But now, 
when it came time to try to bring land into trust for the 
purpose of operating gaming facilities, they said, Oh, no, we 
have historical ties to that area; the Choctaws were there. 
Yes, the Choctaws were there, but not the Jena Band of 
Choctaws.
    So if you look at the map that I have displayed here, it 
will give you a visual representation of the kinds of distances 
we are talking about. If you will see the three light-colored 
parishes or counties in the middle of the state, one of those 
parishes, the easternmost, has a black dot in the middle of it. 
That black dot is Jena and LaSalle Parish. That is where most 
of the members of the tribe live, and that three-parish area 
was designated as their administrative service area by BIA when 
the tribe was federally recognized.
    The Jena Band initially tried to take land into trust down 
on the very southwest corner of the State. You see a black dot 
in the very southwest corner. That is Vinton, Louisiana, right 
on the Texas border. Why did they want to go to Vinton? Because 
Texas has no gambling, has no casinos, and so it is a great 
market. There are existing casinos in that area operated by 
for-profit corporations, and so it is a logical place to want 
to establish a gaming operation. The problem is it is more than 
a hundred miles away from their traditional service area. The 
BIA eventually turned down that application, not necessarily 
because of the distance, but because of defects in the compact 
that was agreed to with the Governor.
    When that was turned down, they then turned their attention 
to another location about a hundred miles away in my 
congressional district, Logansport, Louisiana up in northwest 
corner of the State. Once again, you can see it is right on the 
Texas border, a great place for a casino because of Texas, the 
Dallas market and so forth, but it is a hundred miles away, 
almost a hundred miles away from their traditional service 
area.
    So it is clearly forum shopping. They are clearly looking 
for the best market for their casino without regard to their 
administrative service area, to their historical lands. That, 
to me, is wrong. If we allow that, if we continue to allow 
that--and by the way, the BIA recommendation was in the case of 
Logansport to approve it, and they did approve it. Thankfully, 
the Governor of the State, the new Governor, doesn't approve of 
it. So I don't think it is going to happen. So now I am told 
that the tribe is looking into their administrative area for 
locating a casino, and I think that is swell. Give them land in 
trust in their administrative service area. They can build a 
casino and get after it, but we ought not allow tribes all over 
the country to go wherever they want to build a casino.
    That is my point. I thank you for your attention.
    [Mr. McCrery's response to questions submitted for the 
record follows:]

  Response to questions submitted for the record by The Honorable Jim 
   McCrery, a Representative in Congress from the State of Louisiana

Question 1: When tribes seek to enter already established gaming areas, 
        doesn't that create an unlevel playing field since tribes are 
        not subject to state regulations; are not subject to the 
        restrictions placed on riverboat gaming; do not pay state 
        taxes, etc?
    Yes. Tribes may operate casinos without the burden of negotiating 
state regulatory processes and also benefit from their tax exempt 
status, whereby they are able to forgo paying state and federal gaming 
and income taxes. In Louisiana, for example, Indian casinos avoid 
paying a state tax of nearly 22 percent of the adjusted gross of all 
gaming revenues. This gives tribes the advantage of having more revenue 
to invest in the promotion and expansion of their operation.
    They are also exempt from other state regulations such as those 
that limit the size and scope of a casino operation. In Louisiana, the 
majority of state licensed casinos are located on riverboats that, by 
law, cannot be larger than 30,000 square feet. However, tribes may 
construct land based casinos with no restriction on how large a casino 
they may build. This ``unlevel'' playing field also affects local, 
parish, and state governments which rely on tax revenues from casinos 
for administering government programs.
Question 2: What is your position on ``reservation shopping'' and 
        ``off-reservation gaming?'' What should be the national policy?
    I believe that the approval of the Jena's off-reservation site sets 
a terrible national precedent. I do not believe that, in passing the 
Indian Gaming Regulatory Act (IGRA), Congress intended to unequivocally 
endorse off-reservation sites and I certainly do not believe that we 
intended the law to allow tribes to forum shop for the best location 
for a casino.
    If we are to revisit IGRA, I believe we should define more clearly 
the exceptions by which a tribe may build a casino on newly-acquired 
lands. I believe tribes should be limited to constructing casinos on 
lands within their traditional service area or on land where they have 
a proven historical connection. This should remain true for landless 
tribes who seeking to build a casino as part of their initial 
reservation.
Question 3: What is your view on the Jena's latest effort to establish 
        gaming in their home area?
    During a meeting with the tribe, I told the chief of the Jena Band 
that I would not oppose efforts to build a casino in their traditional 
service area.
                                 ______
                                 
    Chairman Pombo. Thank you.
    Mr. McCrery. I would be glad to answer any questions.
    Chairman Pombo. Just on the specifics of this, the area 
where they currently are, where their trust lands are, is that 
a sparsely populated area?
    Mr. McCrery. It is. It is a rural area. There is an urban 
area right in the center of the State in Rapides Parish, which 
is the biggest of the three parishes. Right in the center of 
that parish is Alexandria, Louisiana, which the city itself--I 
am estimating, but I believe the population of the city itself 
is 50 to 60 thousand people, and Rapides Parish is probably 
80,000, 90,000 people. So the LaSalle Parish is a very rural 
parish. Grant Parish is mostly pine trees, but Rapides Parish 
is an urban parish.
    Chairman Pombo. On the two areas that you have there where 
they attempted to have land taken into trust for a casino, 
would it have not made more sense if they were going to do this 
to go into an area that already had existing casinos?
    Mr. McCrery. Well, obviously that is why they were going 
there.
    Chairman Pombo. Yes.
    Mr. McCrery. Because it is a proven market. What I think we 
have to ask ourselves, though, is should we allow an Indian 
tribe with no historical roots in those areas, no tribal lands 
established in those areas, to just willy nilly go into 
competition with taxpaying for-profit entities that have been 
established there and proven the market. I don't think that is 
a good idea.
    Chairman Pombo. Thanks.
    Mr. Kildee, do you have any questions?
    Mr. Kildee. Just briefly.
    Whether it be Indian gaming or non-Indian gaming, both 
entities look at marketing, and one of the elements of 
marketing, of course, is access. Is there an interstate running 
through the light area there, those parishes? Is there an 
interstate highway running through there?
    Mr. McCrery. Yes, sir. Interstate 49 runs diagonally 
northwest to southeast through Rapides Parish.
    Mr. Kildee. OK. Because that would be more of a positive 
marketing thing if there is no interstate. Very often in his 
history of our country--and I share your concerns. I expressed 
those last week, and I think we are trying to see whether we 
should be settling these things here in this committee or use 
the power that the BIA has, and then ultimately, of course, we 
have to approve any extinction of claims, land claims, but we 
do know historically very often Indians were isolated and put 
in very remote places. Very often that does create problems 
because of their isolation, but the fact that there is an 
interstate here would indicate that there is access to their 
proposed casino.
    I just want to make that point and thank you very much for 
your testimony.
    Mr. McCrery. Thank you, Mr. Kildee. There is no question 
that marketing possibilities exist and transportation exists. 
From Shreveport to Alexandria is about a little over an hour, I 
would say an hour and 20 minutes by interstate. Likewise, from 
Baton Rouge to Alexandria is only an hour and a half by 
interstate, all interstate. So there are marketing 
possibilities there, but don't be misled. The reason they went 
to the northwest corner and the southwest corner is because the 
market is proven there and Texas is right there. You have the 
Houston market that comes over because they have nowhere else 
to go. They have no casinos in Texas. So they come to 
Louisiana. That is why we have casinos in Shreveport and 
Bossier City. That is why they have them in Lake Charles, 
because of the Texas market.
    There is no question that those markets are more favorable 
than central Louisiana. I don't deny that, but I question the 
policy of allowing Indian tribes to just go where the best 
market is regardless of where their reservation is, regardless 
of where their historic roots are, and just set up a casino. 
That, to me, doesn't make good policy sense. We don't allow 
for-profit taxpaying entities to go anywhere they want and set 
up casinos. They have to go to a State, first of all, that has 
legalized it. Indian tribes don't have to do that. On their 
reservation, they can establish a casino even in a State that 
does not allow gambling in the general economy.
    So I just question whether we want to endorse a policy that 
allows Indian tribes that are treated differently from every 
other gambling operation to go wherever they want to set up a 
casino.
    Mr. Kildee. Mr. Chairman, if I could.
    Chairman Pombo. Yes.
    Mr. Kildee. You mentioned that an Indian tribe could 
establish a casino willy nilly wherever they wanted even if the 
State did not permit gaming. That is not the case. What the 
Cabazon decision said is that if a State outlaws gaming or a 
form of gaming, then they can outlaw it all over, but if they 
only regulate it, then State regulations do not apply on 
sovereign territory. We have to be very careful not to minimize 
the true nature of the sovereignty, because it is sovereign 
territory.
    Now, Hawaii, for example, and Utah, they outlaw gaming, 
period, and therefore Indian gaming is not permitted there. So 
the Cabazon decision was very clear on that.
    Mr. McCrery. It is, but those cases are very rare. Most 
States do regulate some form of gambling, and again, I would 
point out that the two locations where they were trying to 
establish a casino were not on their reservation, were not on 
tribal lands. They were seeking to take land into trust more 
than a hundred miles away and almost a hundred miles away in 
the other instance from their administrative service area, 
which is clearly where their roots are. They said so in their 
application for recognition, and so I think it is tantamount to 
forum shopping and allowing Indian tribes to willy nilly set up 
shop wherever they want to if you don't do something to 
constrain that in the current law.
    Mr. Kildee. Just to get back to my original point about the 
Cabazon decision, we had a Governor of Rhode Island a few years 
ago who wanted to block and had succeeded in blocking an Indian 
tribe from gaming, saying that he felt that gaming was not 
healthy for Rhode Island, yet they have a lottery. I said, If 
you think it is not healthy, why don't you outlaw your own 
lottery? He said because we need the money. So Indians might 
need the money also.
    Mr. McCrery. And I hope that they are very successful in 
operating a casino in their administrative service area. I 
encourage them to move forward with that. I have no objection 
to that.
    Mr. Kildee. Thank you.
    Chairman Pombo. Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman. Let me welcome my 
colleague from the Ways and Means Committee, and, indeed, as I 
welcome the gentleman from Louisiana and look around the room, 
I see many who were with us on a night, if memory serves, my 
second term in Congress, my first on the Ways and Means 
Committee, dealing with the whole question of taxation of 
tribal enterprises and, of course, the Committee found, the 
majority of members on both sides of the aisle joining 
together, that Article I, Section 8 of the Constitution 
outweighed any type of report from the GAO.
    But one of the real concerns you again raise before this 
committee, Mr. McCrery, and it deals with exactly where are the 
proper general venues; if we accept the notion of sovereignty 
and we have recognition, where, in fact, are the proper venues 
for gaming enterprises. You touched on this and perhaps it is 
more appropriate in and we will go in depth with our second 
panel, but I just want to make sure I understand. The BIA 
issued a finding or rendered a decision that would allow this 
particular tribe to go, in your opinion, out of venue, that is 
to say to open a new venue apart from tribal lands. You 
obviously are not pleased with that decision. I just want to 
get on the record not so much their reasoning, because we will 
hear from the BIA in a second, but why you believe that 
reasoning is incorrect.
    Mr. McCrery. I believe it is incorrect because a hundred 
miles is too far to allow a tribe to go from their historical 
roots, from the area that was set up by the Federal Government 
as the administrative service area, which I presume the Federal 
Government believed would ultimately lead to lands taken into 
trust for a reservation in their administrative service area. 
There had to be some rationale for putting their administrative 
service area in central Louisiana, and I will say that in the 
BIA decision denying permission to go forward in the southwest 
Louisiana location, there was language in the denial letter 
from BIA expressing concern about the distance from their 
administrative service area. Unfortunately, that same concern 
didn't seem to matter much in the second one when they approved 
it in northwest Louisiana.
    And I will say, too, parenthetically here, I thought the 
BIA, frankly, gave short-shrift to concerns that were being 
expressed by the surrounding communities for the northwest 
Louisiana location. Now, clearly, the economic interest in 
Shreveport and Bossier City were opposed to the location of the 
Indian casino because of the tax revenues from the taxpaying 
casinos in Shreveport-Bossier. So they clearly had economic 
interests. They were trying to protect those economic 
interests. I admit that and they would too.
    But they were undertaking at the time the decision came 
down, which was issued right before Christmas Day, that would 
have shed more light on some of the questions that had been 
raised about the economic consequences of the location of the 
casino there, public infrastructure that was available, all 
questions that had been raised by local entities that had not 
been properly vetted in my view by the BIA, and these economic 
interests had hired an outfit from California to do a complete 
study and were going to give the results of that study to BIA 
for their study, and the BIA said we don't need that; we will 
just go ahead and approve it; we have sufficient evidence 
before us.
    So I did think the BIA gave rather short-shrift to those 
interests in that area, but basically, Mr. Hayworth, I believe 
that Indian tribes that want to establish casinos need to do it 
in the area where they have a reservation, where they have 
their historical roots, and again, you will hear from a panel, 
the next panel and the panel after, from the Jena Band. They 
will probably contend that they do have historical roots in 
that area, and they are entitled to their opinion. My research 
shows the opposite, and again, if you will take a look at their 
application for recognition, they disavowed any connection to 
the Choctaws that were actually in northwest Louisiana.
    So I just think it is too far. If we allow this, then we 
stand the danger of seeing Indian casinos pop up all over the 
country, and I don't think that will be good for the country.
    Mr. Hayworth. Well, Mr. McCrery, I thank you very much for 
the points you make and a chance to amplify again. I do look 
forward to the testimony on the additional panels, both with 
BIA and from the Jena Band and from the National Indian Gaming 
Association. So I think it is good that we are having a variety 
of opinions offered here today, and, Mr. Chairman, I thank you 
for bringing this up. I thank all of those who attend, because 
as we talked about on that fateful night so many years ago, it 
is important for everyone concerned to get on the record and 
give us some background.
    So in that spirit, again, I thank you, Mr. McCrery, and I 
thank you, Mr. Chairman.
    Mr. McCrery. Thank you.
    Chairman Pombo. Mr. Abercrombie.
    Mr. Abercrombie. Thank you.
    Mr. McCrery, just a couple of things. I find it real 
interesting that we are one of the States that outlaw gambling, 
much to the delight of my good friend from Nevada, because at 
least two hotels in Las Vegas make their money off everybody in 
Hawaii who flies in and leaves all the money that we get from 
tourism in Nevada.
    The idea here about taxpaying entities--and you don't 
really have to answer this. I want to make some observations. 
If you care to reply to it, it is OK. Is the argument against 
it that it is just not just off the reservation or the 
administrative area or whatever your reference is to, and 
perhaps those who are paying taxes; is the idea they are not 
paying taxes? Because it is a free enterprise system. If an 
Indian tribe wants to establish a casino somewhere and wants to 
pay the taxes, you wouldn't have an objection then, would you?
    Mr. McCrery. Not if they adhered to the existing laws in 
the State with respect to establishing a casino. No, I would 
have no objection.
    Mr. Abercrombie. Yes, because that is all under the compact 
and under the gaming law and so on. Is one of the principal 
objections then simply that one pays taxes and one doesn't?
    Mr. McCrery. It is a principal objection when we allow a 
non-taxpaying entity to use that advantage in the marketplace.
    Mr. Abercrombie. OK.
    Mr. McCrery. Without any constraints, yes.
    Mr. Abercrombie. Fair enough, because one of the 
arguments--
    Mr. McCrery. Especially with respect to gambling which is a 
very tightly regulated industry.
    Mr. Abercrombie. Sure. We have all kinds of regulations. 
This is one of the reasons that I am such an adamant supporter 
of the Jones Act, because all these cruise ship lines don't pay 
any taxes, but we don't seem to have any objection. We let them 
advertise all over the place. They compete with all the other 
tourist venues in the country that do pay taxes. They are 
foreign owned. They are foreign flagged. They have foreign 
employees. We have offshore manufacturers. We don't take tax 
these people. They are crawling all over the Congress right 
now. I guess it is your committee. They are probably beating on 
your door right now, wondering where you are, trying to get you 
to give them some kind of a break.
    We have foreign investment in this country. People come 
from elsewhere and invest in this country, but the cruise ships 
have always irritated me because they don't pay taxes, and we 
have the cruise ships operating in Hawaii now. They started on 
July 1st. They obey all of the health laws, environmental laws, 
labor laws, and they are paying taxes, and they are American 
flagged and American sailed right now.
    So I just wanted to make sure that if a tribe wants to 
invest in a casino and meets all of the other elements 
necessary under the law and are willing to pay taxes, then 
would it be your opinion that they should be treated, then, 
like any other investing entity?
    Mr. McCrery. Yes.
    Mr. Abercrombie. OK.
    Mr. McCrery. If Indian tribes want to form a corporation 
and develop a casino under the laws of the State, that is fine 
with me.
    Mr. Abercrombie. OK. Thanks. That means a lot.
    The other thing, Mr. Chairman, is just an observation, 
because I think that Representative McCrery makes a good point 
about historical roots and then Representative Kildee made that 
point that in terms of historical roots, many of the tribal 
entities were driven out of places that they were before. So 
historical roots sometimes can take two or three different 
spots, as it can for many of us in this room. My ancestors were 
driven out of Scotland by the English, and they were so smart, 
they went to Ireland, and that is why they ended up in Canada 
and then the United States.
    Mr. Kind. And you were so smart to end up in Hawaii.
    Mr. Abercrombie. And, of course, as you well know, I was 
about to say I was born, of course, in Buffalo, but I am short, 
not slow, and I got to Hawaii. So I think the key here probably 
is the question of investment and whether the investment can be 
seen as being fair competition. If it is, then I think anybody 
ought to be able to compete regardless of where their 
historical roots are.
    Thank you.
    Thanks, Mr. McCrery. I appreciate your candor.
    Mr. McCrery. Thank you.
    Chairman Pombo. Further questions?
    Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, I do want 
to thank you and the Ranking Member and members of this 
committee for holding this very important hearing. Obviously 
from Wisconsin with many of the nations located in my State, 
this is an issue that does come up with quite regularity, some 
initiated by the tribes themselves as far as off-gaming 
reservation opportunities, some being initiated by local 
communities who are dealing with high chronic unemployment, 
economic development issues, trying to stimulate the economic 
activity in their own area, and they are looking to some of the 
success that has occurred with some of the nations within 
Wisconsin to help generate some economic development plans.
    So this hearing, again, from multiple view points, I think 
can be very helpful for our committee as we wrestle with off-
gaming reservation issues, and there is a law in place, IGRA 
88, that sets forth the process or the procedure for moving 
from FITA trust and setting up these type of opportunities for 
sovereign nations that exist within our own country.
    Just for a point of clarification, I thank my colleague 
from Louisiana for his testimony here today, because this does 
offer a nice little case sample of a lot of the issues that are 
arising in many other states throughout the Nation. But just 
for a point of clarification, does Louisiana right now have 
their own state-run lottery?
    Mr. McCrery. Yes, we do.
    Mr. Kind. So you are one of the 40 States that do, and we 
are looking at the possible inclusion of two more States that 
are moving forward on it. Based on your testimony, it is also 
my understanding that your Governor had opposed the site 
proposal in southwestern Louisiana.
    Mr. McCrery. No.
    Mr. Kind. She didn't?
    Mr. McCrery. The old Governor.
    Mr. Kind. The old Governor?
    Mr. McCrery. The immediate past Governor, I should say.
    Mr. Kind. OK.
    Mr. McCrery. In fact, entered into a compact with the Jena 
Band to establish land in trust in Vinton. It was OK with him, 
the new Governor, but then when that compact was declared 
illegal by the BIA based on the agreement with the State to pay 
fees to the State and local governments, then they shifted 
their attention to northwest Louisiana. And in their defense, 
the Governor, the sitting Governor at that time, told them that 
he would not cooperate with them if they didn't go to some 
parish that had approved gambling, and the parishes in their 
administrative area had not approved gambling. So they were 
kind of under the gun to look someplace else, although I 
believe they could have pursued a different section of the 
Federal law to get a casino in that administrative area without 
the Government.
    Mr. Kind. The BIA has approved a northwest location now, 
hasn't it?
    Mr. McCrery. They did approve right before Christmas the 
Logansport location, and the current Governor, who just took 
over, is opposed to that.
    Mr. Kind. But the former Governor was in favor of that 
location?
    Mr. McCrery. Well, the former Governor said he wouldn't 
object as long as they went to a parish that had approved some 
form of gambling.
    Mr. Kind. What about community support in both locations? 
Could you refresh the Committee on whether there was local 
community support for those?
    Mr. McCrery. Yes. And bear in mind that Logansport and 
DeSoto Parish had not approved casino gambling. They had 
approved video poker, and so that qualified as some form of 
gambling. The Logansport area and DeSoto Parish--DeSoto Parish 
is a rural area, and its economy is not very good. They need 
jobs in that area. So they ended up being supportive, although 
I will say by a vote of six to five of the parish governing 
board, the police jury, we call it. They narrowly voted six to 
five in favor of endorsing this project.
    But I would say probably if you took a vote in DeSoto 
Parish, a majority of the people in DeSoto Parish would have 
said yes, we want the casino, because it meant jobs. 
Conversely, the areas just north of DeSoto Parish, which are 
much more populated, Caddo Parish and Bossier Parish, 
Shreveport and Bossier City, where we have five existing 
casinos on river boats--they don't sail. They just sit there. 
It is a long story.
    Mr. Kind. Just a couple more issues.
    Mr. McCrery. They opposed it, obviously.
    Mr. Kind. Just from the basis of your testimony, I get the 
sense that there is some dispute in regards to the historical 
claim of the Jena Band in regards to these locations.
    Mr. McCrery. Yes.
    Mr. Kind. We will probably hear some testimony in regards 
to that as well. What about any opposition of nearby tribes? 
Was there some conflict with other existing tribes in the area, 
or did that exist?
    Mr. McCrery. There was some, but I think generally the 
other tribes were supportive. I think there was maybe one tribe 
that had some objections, and they may have been left over from 
the Vinton choice, because that particular tribe that I am 
talking about has a casino inland, so to speak, from Texas, and 
the Jena Band's casino would have been direct competition for 
that Indian tribe's casino. So they objected, and I think there 
may have been some hard feelings left over from that. So they 
objected. But I think, generally, the other tribes were OK.
    Mr. Kind. OK. Mr. Chairman, I see my time has expired. I 
want to thank you again for holding this hearing today.
    Chairman Pombo. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and I was 
sorry to see my friend from Hawaii, formerly of Buffalo, 
formerly of Canada, formerly of Ireland, and formerly of 
Scotland, leave. I wanted to thank him for making Nevada as 
successful as it is.
    And coming from Nevada, Mr. Chairman, obviously I am very 
pro-gaming. It is our number one industry in the State, and I 
think like the rest of us here, none of us would oppose a 
tribal casino anywhere as long as it met the same standards. We 
would all welcome them to compete with the rest of us as well, 
and I think that is fair. But we years ago set up IGRA as a 
means to provide economic opportunity for business growth in 
the Native American community that I think is very important, 
and I think it would be a mistake, maybe even an irresponsible 
mistake, for us to set a precedent by passing legislation which 
would circumvent the Indian Gaming Regulatory Act right now to 
give an unfair advantage over one side versus the other.
    I do agree with Mr. McCrery that, you know, there are 
things that need to be looked at in this area, but I really 
don't have a question because my friend from Hawaii set the 
standard, and he said if the tribe is going to meet the same 
standards and the regulatory requirements, pay the same taxes, 
then we should all welcome it and encourage that type of 
business expansion, and I think that is correct as well.
    I would just like to ask unanimous consent, because I 
missed the early part of the hearing, Mr. Chairman, to submit a 
written opening statement for the record. With that, I will 
yield back the balance of my time.
    Mr. McCrery. Mr. Gibbons, let me respond.
    Chairman Pombo. If the gentleman would suspend, without 
objection, the opening statement will be included and all 
Members' opening statements will be included.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Mr. Chairman, first I would like to thank you for providing the 
Committee with yet another opportunity to address the very important 
issue of Native American gaming, and the potential ramifications this 
booming industry may have on lands issues nation-wide.
    I would like to take this opportunity to reiterate some of the more 
pressing points I made at the opening of the June 24th Hearing on a 
similar issue regarding my strong opposition to allowing Indian Tribes 
to ``reservation shop'' in order to set up illegitimate gaming 
operations.
    However, for the record, I should stress that I am not opposed to 
legitimate Native American gaming in general--I support every 
Americans' right to pursue success and prosperity in business--within 
the bounds of law and common decency.
    I have very serious concerns with allowing Indian tribes to abuse 
the privileges granted to them in Indian Gaming Regulatory Act by 
seeking private legislative favors in the form of land swaps so that 
they may establish casinos on non-ancestral lands.
    Mr. Chairman, the issue we are examining today is one that may have 
a tremendous impact on the State of Nevada and our number one employer: 
Gaming.
    If Congress takes the unprecedented path of passing bills designed 
to help tribes acquire non-ancestral lands solely for the purpose of 
gaming, my constituents and their livelihoods will certainly suffer.
    I harbor a deep concern with any bill designed to provide a certain 
unfair advantage to one business-seeking group or entity over all 
others who follow the letter of the law in the pursuit of their 
business opportunity.
    If Congress were to move forward with any reservation-shopping 
legislation, we would be giving a tremendous advantage to the Native 
American gaming community, leaving the non-Native American gaming 
entities, like those in Nevada, to operate in an unfair and biased 
business atmosphere.
    It would be terribly irresponsible for us to set the precedent of 
passing any legislation designed to circumvent the IGRA process and 
give one tribe an unfair advantage over all other tribes and non-Native 
American business interests.
    I believe that IGRA provides the Native American community with a 
tremendous opportunity for business growth and it would be in all of 
our best interests to stand firm and maintain the legislation and 
preserve its original intent.
    With that, Mr. Chairman, I will say that I look forward to hearing 
from our witnesses today and to engaging them in some questions at the 
appropriate time.
                                 ______
                                 
    Mr. Gibbons. Thank you, Mr. Chairman.
    Chairman Pombo. Certainly.
    Mr. McCrery. Let me just point out something that I haven't 
said yet, and it relates to Mr. Abercrombie's statement, Well, 
if they all conform to the same regulations and so forth. Under 
the Louisiana law, the casinos in southeast Louisiana and 
northwest Louisiana are under some size constraints and other 
constraints that the Jena Band's casino would not be under. 
They would not be limited in terms of their size. They would 
not be limited in terms of other facilities that they could 
have joining the casino, and the other for-profit entities 
operating as casinos in Louisiana are constrained by Louisiana 
law, and the thing that would put them at a particular 
competitive disadvantage is the size constraint. They can have 
only so many square feet of gambling space in their casinos. 
That would not apply to an Indian casino in Louisiana.
    Mr. Gibbons. Well, Mr. McCrery, I think there are other 
issues as well that come into play here, and I know that we see 
in Nevada many casinos have a very small margin of profit in 
many of these, and that it takes a larger operation in order to 
be even successful. So as you divide up the pie of people who 
are coming to that form of entertainment from around the 
country, the more you put competition in there, the smaller 
that profit margin gets, and to have an opportunity to compete 
without having to pay the same property taxes, the same 
business tax, same State tax on profits, etc., comply with the 
same regulation, have the same restrictions in terms of signage 
and setbacks and frontage and requirements gives an definite 
advantage over the other and makes it very difficult for those 
people who have large investments as well in some of these 
operations to meet those obligations.
    So I would agree that if everybody wants to compete on an 
even field, that is welcomed, but again, we established IGRA to 
provide economic opportunities which allow for them to have 
some of those exclusions, and I think it was a well-intended 
piece of legislation that should be met and continued today.
    Thank you, Mr. Chairman.
    Chairman Pombo. Mr. Pallone.
    Mr. Pallone. Mr. Chairman, I want to ask a question, but I 
just wanted to say, generally speaking, I agree with Mr. 
Gibbons that we should be following IGRA and its principles, 
and I think that the notion that somehow there is some kind of, 
you know, rush that we are going to have all these casinos in 
areas that are not on existing reservations is probably a 
little overblown. I don't think that there is any mad scramble 
to do a lot of this off-reservation activity.
    The problem that I see, though, is that, you know, I like 
to give credence to the State and the local municipality if 
they, in fact, favor gaming and we have had a lot of 
situations. As you know, Connecticut is probably the worst 
example where a tribe legitimately--I think of the Eastern 
Pequots as one example where a tribe legitimately deserves 
recognition. They meet all the criteria. The BIA has announced 
it, and this State is opposed to it because they don't want 
gaming. So it is hard. I think you have to look at these 
individually and not have sort of overall themes that this is 
not right or that is not right.
    So the one thing that bothered me, and this is the question 
I wanted to ask, you said a hundred miles is too far to go, 
because as some of my colleagues have mentioned, you know, we 
have tribes in eastern States, including my own, that were 
forced all the way to Oklahoma, halfway across the country. So 
to say that there should be a distance, I don't think you can 
say as an absolute that any particular distance is too far 
away. I think you have to look at the history.
    Let me give you an example, and this will be my question. 
If there was a tribe, for example--I mean, all the Oklahoma 
tribes pretty much or most of them had roots along the eastern 
seaboard. What if one of them decided that they wanted to go--I 
will use the State of Vermont. I think that was Algonquin, but 
let us say that there was a tribe out in the Midwest that 
decided they wanted to have a reservation in Vermont and they 
had all the historical indications to show that they were 
originally in Vermont, were forced out by U.S. Government 
policies. The Governor of Vermont, local municipality says we 
would like to have back and establish a reservation on their 
traditional homeland. I mean, would you have a problem with 
that?
    Mr. McCrery. No. There are existing guidelines for the 
Bureau of Indian Affairs to use for the establishment of 
reservations, for land in trust, for administrative service 
areas, and I think they should continue to use those guidelines 
and provide sovereignty in those areas where appropriate.
    Mr. Pallone. And I think that is my only point here, which 
is that we have to follow the IGRA guidelines. We have to 
certainly say that the tribe has historical roots to any land 
that they want to acquire, but if the local towns and the State 
are not opposed to it and it fits all that, then I don't see 
any reason why it shouldn't be allowed, and I think you agree.
    Mr. McCrery. I agree. All I am asking this committee to do 
is look at IGRA, examine it with an eye toward what I think is 
a potential problem. You may be right. There may be no rush to 
do this in other parts of the country. I don't know. It is not 
my committee's jurisdiction, and I haven't spent a lot of time 
on this other than this one instance, but I am here just to 
give you the benefit of the example in my State and in my 
district, and I think it is worth exploring, and that is why I 
think this hearing is a great idea, and if at the end of the 
hearing, the collective wisdom of this committee is IGRA works 
just fine the way it is, hey, I am happy.
    But I am concerned. I am expressing that concern today. I 
think this committee ought to listen to that concern and 
consider it and either make some changes--maybe it is just as 
simple as saying that distance from administrative service 
areas or traditional reservation or whatever should be one of 
the considerations that the BIA and the Department of Interior 
makes in making a decision. I don't know.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. McCrery. Thank you.
    Chairman Pombo. Further questions for the witness?
    Mr. Tauzin.
    Mr. Tauzin. Mr. Chairman, I would be remiss if I didn't 
welcome my--
    Mr. McCrery. And I would be remiss if I didn't welcome you. 
It is good to see you back.
    Mr. Tauzin. It is good to be back.
    Mr. McCrery. Yes.
    Mr. Tauzin. And it is good to be back with my dear 
colleagues on both sides of the aisle in the House room where I 
have worked for nearly a quarter of a century, and this has 
been a hard few months for me to be away. I watched you on 
television, by the way, from the hospital.
    Mr. McCrery. Oh, yes.
    Mr. Tauzin. And it was really ugly, I have to tell you.
    Seriously, Jim, I wanted to thank you for coming before our 
committee. You and I have a slightly different view on this and 
we have expressed it publicly and privately and have had many 
discussions about it, but I wanted to thank you for your 
service to our State and for your deep involvement in many 
issues that confront not only Louisiana, but the Nation, and 
your service on the Ways and Means Committee and your deep and 
abiding friendship on a personal level. I just wanted to 
express that publicly to you.
    Mr. McCrery. Well, thank you.
    Mr. Tauzin. And welcome you to the Committee.
    Mr. McCrery. I appreciate it.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Chairman Pombo. Thank you, Mr. McCrery.
    Mr. McCrery. Thank you.
    Chairman Pombo. Now I would like to call up our next 
witness, Aurene Martin, the Principal Deputy Assistant 
Secretary for Indian Affairs. She is accompanied by George T. 
Skibine, Director of Indian Gaming Management at the BIA.
    Is the Director with us?
    Ms. Martin. He is.
    Chairman Pombo. All right. Are you going to answer 
questions?
    Mr. Skibine. Maybe, yes.
    Chairman Pombo. Then sit up there.
    If I could have you both stand and raise your right hand.
    [Witnesses sworn.]
    Chairman Pombo. Thank you. Let the record show they both 
answered in the affirmative.
    Welcome back to the Committee.
    Ms. Martin, we can begin with you.

   STATEMENT OF AURENE M. MARTIN, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY FOR INDIAN AFFAIRS, DEPARTMENT OF INTERIOR; 
   ACCOMPANIED BY GEORGE T. SKIBINE, DIRECTOR, INDIAN GAMING 
              MANAGEMENT, BUREAU OF INDIAN AFFAIRS

    Ms. Martin. Good morning, Mr. Chairman and members of the 
Committee. My name is Aurene Martin, and I am the Principal 
Deputy Assistant Secretary for Indian Affairs at the Department 
of Interior. I would like to thank the Committee for the 
opportunity to present the views of the Department of Interior 
on our application of the Indian Gaming Regulatory Act to off-
reservation gaming acquisitions.
    Before I discuss the Indian Gaming Regulatory Act and its 
requirements, I would like to note that this issue has received 
considerable attention within the Department. We have discussed 
at length what the Department's obligations are under the Act 
and where the Secretary has discretion to make certain 
determinations. We do not take this responsibility lightly and, 
in fact, make decisions only after extensive deliberation and a 
careful look at the law.
    Contrary to popular belief, tribes cannot simply buy a 
parcel of land anywhere and set up a gaming establishment. They 
must meet a number of requirements before they can operate 
Class III gaming. They must acquire land in trust. They must 
meet one of the requirements or exceptions contained in IGRA 
for gaming on off-reservation lands, and the tribe must have a 
valid state tribal compact that authorizes them to game on 
those lands. It sounds easy, but any one of these processes can 
take years, and many tribes have been unable to meet all of 
these requirements and begin the operation of gaming.
    The Indian Gaming Regulatory Act generally provides that 
gaming can occur on all lands held in trust on behalf of a 
tribe prior to October 17, 1988. After that date, off-
reservation lands may only be used for Class III gaming where 
two actions occur: One, the Secretary makes what is known as 
the two-part determination, a determination that gaming on the 
parcel is in the best interest of the tribe and that it is not 
detrimental to the surrounding community; second, the Governor 
of that State must concur with the Secretary's determination or 
the two-part determination fails and gaming is not authorized.
    Within the Department, we have had extensive debate on our 
responsibility with regard to the two-part determination and 
what, if any, discretion the Secretary may have in making the 
determination. In part, this has been driven by our questions 
with regard to tribal applications for lands that are far from 
their current reservations and whether IGRA contemplated 
limiting the distance a tribe can go from their reservation. 
Ultimately, we determined that IGRA contemplated this type of 
gaming and intended to establish a balance in which States have 
the ability to control whether those types of facilities may be 
built. We have also determined that the Secretary's discretion 
in making the two-part determination is limited to the 
objective determinations she is required to make, that is if it 
is in the best interest of the tribe and whether it would be a 
detriment to the surrounding community.
    There are three additional exceptions to the prohibition on 
gaming on Indian lands acquired after October 17, 1988 and 
which are located off reservation. Tribes may game on off-
reservation lands after that date in the following instances: 
if the lands are acquired by the tribe as a settlement of a 
land claim, if the lands are acquired by the tribe that is 
newly recognized and they are to be deemed part of our initial 
reservation, and if the lands are restored to a tribe that was 
previously recognized but for some reason was later not 
recognized and their recognition has been restored.
    There have been a number of FITA trust acquisitions in 
which one of the exceptions apply. Again, the Department does 
not take its responsibility to determine whether a tribe's FITA 
trust acquisition meets one of the exceptions lightly and has 
made those determinations very conservatively. To date, the 
Department has not negotiated a land claim settlement which 
contemplated a land transfer for gaming purposes and its terms. 
The Department also feels that a tribe should have 
geographical, historical, and traditional ties within an 
initial reservation site, and with regard to restored lands, 
the Department believes that legislation should designate the 
location of those lands or that the lands in question must have 
geographical and historical connection to the tribe and a 
temporal relation to the restoration of the tribe's 
recognition.
    However, each of these determinations is made on a case-by-
case basis. As part of or discussion regarding the application 
of the off-reservation provisions of IGRA, the Department 
discussed the advisability of adopting a blanket policy with 
regard to those acquisitions. We ultimately determined that 
adopting a blanket policy would not be appropriate because each 
application is different and the situation of each tribe with 
respect to the local community and the State in which it is 
located is unique.
    I would like to note that IGRA does not authorize the 
Department to take lands in trust status. It merely outlines 
the situations in which lands may be used for gaming purposes. 
In every one of the situations listed above, the lands in 
question must also be acquired in trust pursuant to the 
regulatory process outlined in 25 CFR Part 151, our regulations 
for processing lands to become trust lands.
    In addition to setting out the process for review of a FITA 
trust application, the regulations require that the Department 
comply with NEPA and with the Department of Justice standards 
for title review; and finally, to open a Class III 
establishment, the tribe must have a valid Class III tribal 
state compact. This is a document executed by a tribe in a 
State to govern the operation of Class III gaming by the tribe. 
It outlines the role each will play in the gaming operation and 
its regulation. Once agreed to, the compact must be approved by 
the Department and published in the Federal Register to be 
valid. Any one of these processes can and often do take years 
to complete. The failure of a tribe to make it through any one 
of the processes will keep them from operating Class III 
gaming.
    The Department believes that IGRA sets out a balanced 
framework for the operation of Class III gaming. It allows a 
State and a tribe to come to agreement regarding whether Class 
III gaming may be operated within a State and further gives the 
States powers to absolutely deny a tribe the ability to operate 
gaming on lands acquired off reservation and subject to a two-
part determination after October 17, 1988.
    Again, I would like to thank the Committee for the 
opportunity to testify and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Martin follows:]

 Statement of Aurene M. Martin, Principal Deputy Assistant Secretary--
            Indian Affairs, U.S. Department of the Interior

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Aurene Martin, and I am the Principal Deputy Assistant Secretary for 
Indian Affairs at the Department of the Interior. I am pleased to be 
here today to discuss the role of the Department in implementing 
Section 20 of the Indian Gaming Regulatory Act of 1988 (IGRA).
    Before discussing our role in implementing Section 20 of IGRA, I 
want to address a common misconception regarding this statutory 
provision: Section 20 of IGRA does not provide authority to take land 
into trust for Indian tribes. Rather, it is a separate and independent 
requirement to be considered before gaming activities can be conducted 
on land taken into trust after October 17, 1988, the date IGRA was 
enacted into law. The basis for the administrative decision to place 
land into trust for the benefit of an Indian tribe is established 
either by a specific statute applying to a tribe, or by Section 5 of 
the Indian Reorganization Act of 1934 (IRA), which authorizes the 
Secretary to acquire land in trust for Indians ``within or without 
existing reservations.'' Under these authorities, the Secretary applies 
her discretion after consideration of the criteria for trust 
acquisitions in our ``151'' regulations (25 CFR Part 151). However, 
when the acquisition is intended for gaming, consideration of the 
requirements of Section 20 applies before the tribe can engage in 
gaming on the trust parcel.
    In enacting Section 20, Congress struck a balance between tribal 
sovereignty and states' rights. Specifically, Section 20(a) provides 
that if lands are acquired in trust after October 17, 1988, the lands 
may not be used for gaming, unless one of the following statutory 
exceptions applies:
    (1)  The lands are located within or contiguous to the boundaries 
of the tribe's reservation as it existed on October 17, 1988;
    (2)  The tribe has no reservation on October 17, 1988, and ``the 
lands are located...within the Indian tribe's last recognized 
reservation within the state or states where the tribe is presently 
located;''
    (3)  The ``lands are taken into trust as part of: (i) the 
settlement of a land claim; (ii) the initial reservation of an Indian 
tribe acknowledged by the Secretary under the Federal acknowledgment 
process; or (iii) the restoration of lands for an Indian tribe that is 
restored to Federal recognition.''
    (4)  There is also a specific exception for lands taken into trust 
in Oklahoma for Oklahoma tribes.
    Since 1988, the Secretary has approved 32 applications that have 
qualified under these various exceptions to the gaming prohibition 
contained in Section 20(a) of IGRA. I have attached to my testimony a 
document listing the various tribes that have qualified under the 
exceptions since October 17, 1988.
    The decision of whether land that is either already in trust, or 
that is proposed to be taken into trust for gaming, qualifies under any 
of the exceptions I just mentioned is made on a case-by-case basis. 
Through case-by-case adjudication, the Department has developed 
criteria to determine whether a parcel of land will qualify under one 
of the exceptions. For instance, to qualify under the ``initial 
reservation'' exception, the Department requires that the tribe have 
strong geographical, historical and traditional ties to the land. To 
qualify under the ``restoration of lands'' exception, the Department 
requires that either the land is either made available to a restored 
tribe as part of its restoration legislation or that there exist strong 
historical, geographical, and temporal indicia between the land and the 
restoration of the tribe. The Department's definition of restored land 
has been guided by fairly recent federal court decisions in Michigan, 
California, and Oregon.
    Finally, an Indian tribe may also conduct gaming activities on 
after-acquired trust land if it meets the requirements of Section 20(b) 
of IGRA, the so-called ``two-part determination'' exception. Under 
Section 20(b)(1)(A),
    (1)  gaming can occur on the land if the Secretary, after 
consultation with appropriate state and local officials, and officials 
of nearby tribes, determines that a gaming establishment on newly-
acquired land will be in the best interest of the tribe and its 
members, and would not be detrimental to the surrounding community, but
    (2)  only if the Governor of the state in which the gaming 
activities are to occur concurs in the Secretary's determination.
    Since 1988, state governors have concurred in only three positive 
two-part determinations for off-reservation gaming on trust lands: the 
Forest County Potawatomi gaming establishment in Milwaukee, Wisconsin; 
the Kalispel Tribe gaming establishment in Airway Heights, Washington; 
and the Keweenaw Bay Indian Community gaming establishment near 
Marquette, Michigan.
    Currently, there are eight applications for two-part determinations 
under Section 20(b)(1)(A) pending with the Bureau of Indian Affairs for 
sites in New York, Wisconsin, Michigan, and California. Many more 
applications are rumored to be in development but have not bee 
submitted to the Department, including potential applications from 
tribes located in one state to establish gaming facilities in another 
state. It is within the context of this emerging trend that Secretary 
Norton has raised the question of whether Section 20(b)(1)(A) provides 
her with sufficient discretion to approve or disapprove gaming on off-
reservation trust lands that are great distances from their 
reservations, so-called ``far-flung lands.''
    We have spent substantial effort examining the overall statutory 
scheme that Congress has formulated in the area of Indian self-
determination and economic development. This includes a careful 
examination of what Congress intended when it enacted Section 20 
(b)(1)(A). Our review suggests that Congress sought to establish a 
unique balance of interests. The statute plainly delineates the 
discretion of the Secretary, limiting her focus to two statutory 
prongs. Also, by requiring that the Governor of the affected state 
concur in the Secretary's determination, the statute acknowledges that 
in a difference of opinion between a sovereign tribe and an affected 
state, the state prevails. Further, at least on its face, Section 
20(b)(1)(A) does not contain any express limitation on the distance 
between the proposed gaming establishment and the tribe's reservation, 
nor is the presence of state boundaries between the proposed gaming 
establishment and the tribe's reservation a factor.
    Our review indicates that the role of the Secretary under section 
20(b)(1)(A) is limited to making objective findings of fact regarding 
the best interests of the tribe and its members, and any detriment to 
the surrounding community. Therefore, while the trust acquisition 
regulations provide broad discretion, Section 20(b)(1)(A) does not 
authorize the Secretary to consider other criteria in making her two-
part determination, thus limiting her decision-making discretion to 
that degree.
    This concludes my remarks. I will be happy to answer any questions 
the Committee may have. Thank you.
                                 ______
                                 
    [The Department of the Interior's response to questions 
submitted for the record follows:]

Response to questions submitted for the record by the Bureau of Indian 
                Affairs, U.S. Department of the Interior

QUESTION 1: In 1988, with in the passage of the Indian Gaming 
        Regulatory Act (IGRA), Congress sought to limit tribal Gaming 
        to existing tribes and reservations, and provided limited 
        exceptions for newly recognized and landless tribes. Congress 
        did not anticipate the major expansion in tribal gaming and 
        certainly did not envision the latest trend of tribes seeking 
        gaming ``off-reservation'' and distant from their reservation 
        or traditional service area. Please identify, for the 
        Committee, where ``off-reservation'' gaming exists today, and 
        where it is proposed today by Class II and Class III gaming.
    ANSWER: The following chart provides an overview of the approved 
``off-reservation'' gaming acquisitions since the enactment of the 
Indian Gaming Regulatory Act. This chart does not include restored 
lands or lands taken into trust as part of the initial reservation.

[GRAPHIC] [TIFF OMITTED] T4995.004


    The following chart provides an overview of the proposed ``off-
reservation'' gaming acquisitions. This chart does not include land in 
a traditional service area or on or adjacent to the Tribe's 
reservation.

[GRAPHIC] [TIFF OMITTED] T4995.005


QUESTION 2: What is the DOI's position on ``reservation shopping'' and 
        ``off-reservation gaming''?
    ANSWER: Secretary Norton has raised the question of whether Section 
20(b)(1)(A) provides her with sufficient discretion to approve or 
disapprove gaming on off-reservation trust lands that are great 
distances from their reservations, so-called ``far-flung lands.''
    Under 25 U.S.C. Sec. 2719(b)(1)(A), gaming can be conducted on 
newly-acquired off-reservation trust land if the Secretary, after 
consultation with the Indian tribe and appropriate state and local 
officials, including officials of nearby tribes, determines that a 
gaming establishment on the land would be in the best interest of the 
tribe and its members, and would not be detrimental to the surrounding 
community, but only if the Governor of the state concurs in the 
Secretary's determination.
    We have carefully examined what Congress intended when it enacted 
Section 20 (b)(1)(A). Our review suggests that Congress sought to 
establish a unique balance of interests. The statute plainly delineates 
the discretion of the Secretary, limiting her focus to two statutory 
prongs. Also, by requiring that the Governor of the affected state 
concur in the Secretary's determination, the statute acknowledges that 
in a difference of opinion between a sovereign tribe and an affected 
state, the state prevails. Further, at least on its face, Section 
20(b)(1)(A) does not contain any express limitation on the distance 
between the proposed gaming establishment and the tribe's reservation, 
nor is the presence of state boundaries between the proposed gaming 
establishment and the tribe's reservation a factor.
    Our review indicates that the role of the Secretary under section 
20(b)(1)(A) is limited to making objective findings of fact regarding 
the best interests of the tribe and its members, and any detriment to 
the surrounding community. Therefore, while the trust acquisition 
regulations provide broad discretion, Section 20(b)(1)(A) does not 
authorize the Secretary to consider other criteria in making her two-
part determination, thus limiting her decision-making discretion to 
that degree.

QUESTION 3: Please identify for the Committee how many tribes are 
        currently seeking recognition today?
    ANSWER: As of July 1, 2004, there are 236 groups seeking to be 
acknowledged as Indian tribes. Of the 236, 130 have only submitted 
letters of intent, 69 have submitted partial documentation, 10 are no 
longer in touch with the Department, 5 will need Congressional 
legislation to go through the process, and 22 groups are the 
Department's immediate workload. Of the 22 groups, 6 are under active 
consideration and 13 are on the ``Ready, Waiting for Active 
Consideration'' list. Three groups are in the post-final decision 
appeal process.

QUESTION 4: How many tribes are seeking tribal gaming now?
    ANSWER: There are 23 pending applications from federally recognized 
tribes to take land into trust for gaming purposes.

QUESTION 5: How many are seeking gaming on their reservation or 
        traditional service area and how many are seeking gaming off-
        reservation or on land distant from their traditional service 
        area?
    ANSWER: There are 13 federally recognized tribes seeking gaming on 
their reservation or traditional service area, and 10 Federally 
recognized tribes seeking gaming off-reservation or on land distant 
from their traditional service area.
                                 ______
                                 
    Chairman Pombo. Thank you, Ms. Martin. I have a whole bunch 
of questions I want to ask you, but I am going to try to limit 
it.
    What is the BIA's policy on the conversion of lands to 
trust status for the purpose of gaming when there is 
substantial local community opposition to proceeding with that? 
How do you handle that?
    One of the things in California that has really made this 
an issue in recent years is different tribes trying to bring 
land into trust in a community that is very much opposed to 
that, and that is having an impact on all of the Indian gaming 
operations in California. What is your overall policy when it 
comes to that?
    Ms. Martin. Well, it specifically depends on the situation 
that we are confronted with. In the off-reservation context, it 
makes a great deal of difference to us, especially with respect 
to the two-part determination. If a local community is opposed 
to it, then there is more of a chance that we may not go 
through with the two-part determination because there is more 
of a chance that the Governor will not consent to that two-part 
determination, but where one of the exceptions might apply or 
if it is on reservation, then there is more of a chance that we 
would look at what the tribe's needs are in that specific 
instance. Where it is on reservation, I think we have more of 
an inclination to approve a FITA trust transfer, because it is 
within the confines of the tribe's sovereign area.
    Chairman Pombo. If you could as a follow-up to this 
hearing, could you provide for my office a written update on 
the status on the Menominee Band of Milwaukee Plymouth proposal 
to convert lands to trust status? If you could just provide 
that to me in writing, specifically what is the current 
involvement of the Sacramento Region BIA office and what will 
the role of the Washington office be after the application is 
submitted. I would appreciate it if you could provide that for 
me.
    Ms. Martin. I would be happy to do that. I would like to 
note for you that all gaming acquisitions must be approved by 
the Assistant Secretary or the Assistant Secretary's designee. 
So that would have to come to us.
    Chairman Pombo. OK. Also, in your written testimony, you 
say that you have attached testimony, a document listing the 
various tribes that have qualified under the exception since 
October 17, 1988. You did not submit that, and if you could 
provide that for the record, that document for some reason 
didn't come with your testimony.
    Ms. Martin. I would be happy to do that.
    Chairman Pombo. Thank you.
    Further questions? Mr. Inslee, questions?
    Mr. Inslee. No.
    Mr. Young.
    Mr. Young. Is this thing on?
    Chairman Pombo. Yes.
    Mr. Young. I can never tell because I am the only guy in 
the world that doesn't have a red light, of all people.
    Chairman Pombo. I usually turn it on.
    Mr. Young. I figured you did.
    Ms. Martin, I only have a couple of small questions. You 
know I am very interested in a couple--by the way, I am the 
last author of this legislation. Mr. Udall and I worked on this 
for a purpose, and it has been a success. That was 1900, I 
think, just after Custer, if I am not mistaken, and we were 
trying to pay for the war at that time.
    But anyway, we thought and we were correct that this was an 
opportunity for those who lived in reservations to, in fact, 
establish an economic boost for not only the reservation but 
the future generations of the Indian tribes, and I am very 
proud of that legislation; but I have had a great deal of 
interest over the years following the tribes that have applied 
and how they have followed the rules, and that to me is 
crucially important, the rules and the definition of the BIA 
and interpretation of IGRA. And I have the tribe of the 
Wyandottes, for instance, and I have called you personally and 
then I have called Mr. Griles and I have called Ms. Norton, and 
every one of you have told me I will get back to you when we 
get more information.
    This has been 6 months, actually a year, because there is a 
great injustice that occurred in Kansas which I do not 
appreciate, because my interpretation, because of the decisions 
made by the BIA, they had every legal right to start the 
casino, which they did, and then by action of a preliminary 
finding, the Attorney General for the State of Kansas attacked, 
confiscated, arrested the product of the casino, and now we 
have had a new court decision that said he was totally out of 
line. I think this could have been avoided if there has been a 
sound decision made previous to the action of the Attorney 
General, and I just would encourage yourself and your attorney 
to be more up to speed about very hot issues, and that has not 
occurred.
    So somebody down there had better get their act together 
and respond, especially when the Vice Chairman and former 
Chairman of this Committee makes an inquiry, and that is all it 
was and it did not happen. Would you like to respond to that?
    Ms. Martin. Well, first of all, I would like to apologize 
for any lack of communication we have had with you. The 
situation with regard to the Wyandotte has been a very long 
time in the making, and the last time I did check on this, 
there was a determination that was pending before the National 
Indian Gaming Commission, which I believe was made and resulted 
in the action you have described.
    Mr. Young. No. It was a preliminary finding, and the action 
was taken by the Attorney General, and the court has ruled him 
totally out of line.
    Now, are you aware of that, Counsel?
    Mr. Skibine. I am not counsel, but--
    Mr. Young. Well, somebody better know the answer to that.
    Mr. Skibine. But we are aware of the Wyandotte situation. 
Essentially, when the BIA made a determination initially--well, 
it goes back several years. The BIA had made a determination 
that the tribe was--the acquisition of that parcel was 
contiguous to the tribe's reservation and therefore would 
qualify on their under IGRA as Indian lands, but then that 
determination was essentially overturned by a court decision.
    Mr. Young. And then the courts returned it.
    Mr. Skibine. Well, then what did was we--returned to us for 
determination whether the acquisition was mandatory, and we 
made a determination that the acquisition of this land was 
mandatory under an Act of Congress, but in making that 
determination, we did not make the determination the tribe 
could game on the land. We only made the determination that 
tribe--that we had to take the land in trust for that tribe 
under that Act of Congress, and in the Federal Register Notice 
that we published, we specifically stated that the BIA was not 
making a determination that the tribe could be--
    Mr. Young. And did not deny it.
    Mr. Skibine. We didn't make a decision.
    Mr. Young. There was no decision made.
    Mr. Skibine. There was no decision made on that.
    Mr. Young. This is where I still suggest, Ms. Martin, that 
you and your colleagues down there have to keep, especially 
when a Congressman makes the inquiry, up to speed on where we 
are going and what is going to happen, because what has 
happened I think is a terrible injustice. Under Section 20, 
they are totally eligible, and I just think someone has dropped 
the ball, and as an author of IGRA, because of other pressures, 
if they follow the rules and follow the steps forward set forth 
in--and it is, in fact, classified tribal lands and the courts 
have ruled that it is, then you have a responsibility to 
respond, and you did say that to the Chairman, that you would 
respond on the side of the tribe, not opposition to, especially 
pressure brought by other individuals and other tribes.
    See, I am one of these people that I told other people that 
do not like gambling, if you don't like gambling, I will 
eliminate it all, but one cannot be right for one and wrong for 
the other. It is universal, and that was the intent of IGRA. I 
just want to suggest that. You know, just because one tribe has 
gambling here and they oppose it because another tribe wants it 
over here, then eliminate them both, but don't allow one tribe 
to dominate another tribe and say, No, you can't have it, but 
we have ours and we don't want yours.
    Now, someone said the market is not there. Mr. Gibbons said 
the market is not there. I will be one of the first ones to 
agree. There ought to be a lot of studying in the gaming issue 
because it is very high overhead industry. Before you get 
involved in it, then they ought to make a decision, yes, it is 
economical or it is not. But I don't think it is right for the 
BIA to take sides with an existing operation against another 
side.
    Let the free market decide that. That is just a statement, 
not a question. Let the free market decide it. But I would 
suggest anybody in this room that is interested in gambling, 
check the overhead. It is not the money-maker people think it 
is. It is extremely expensive, high overhead, and the returns 
are not that great, but that is their decision under IGRA. It 
is not the decision of anyone else.
    I yield back the balance of my time.
    Chairman Pombo. Further questions?
    Mr. Tauzin. Mr. Chairman.
    Chairman Pombo. Mr. Tauzin.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Ms. Martin, later on today, we are going to hear from 
Principal Chief Norris of the Jena Band on Choctaws in 
Louisiana. My colleague was here to testify as to his 
perspective on that incredible journey they have been through 
with the Interior Department and the State of Louisiana.
    I wanted to make a couple of points and then ask you a 
couple of questions. First of all, you hear from them a pretty 
sad story in which this landless tribe trying to acquire land 
in trust in a community that wanted them, wanted their 
presence, has been blocked, essentially, and they are now in 
the situation that the only way they can possibly succeed in 
their application is to go back to the service area where the 
Government has correctly pointed out the community doesn't want 
their presence as a gaming facility, and they literally applied 
to your department with thousands of pages of documents 
indicating their historic presence in the community that wants 
their presence, and yet the Department has declined to take the 
land as part of the initial reservation for this tribe, to take 
it into trust that they might proceed.
    My position from day one has been exactly as Chairman 
Young's position, the author of the legislation. We are keenly 
aware that existing facilities in Louisiana, both Indian gaming 
facilities and private commercial gaming facilities were 
launching a huge federally funded operation here in Washington, 
D.C., which the press has commented on rather extensively 
lately, launching this huge heavily funded lobbying 
organization designed to block this particular tribe from 
establishing land in trust to be able to compete with the 
gaming facility and to earn some revenues for the tribe in a 
community that desperately wanted them, wanted the employment, 
wanted the facility there, has effectively now been blocked.
    Our position from day one was don't let it happen like 
that; let it be settled on its merits; consider the thousands 
of pages of historic documents indicating their physical and 
historic presence in the area they want to establish this land 
in trust and make a decision.
    Instead, you will hear today from the Jena Tribe, and I 
quote: ``While we provided these materials to the Department 
nearly two years ago, we are not aware that Interior has 
considered the merits of our request in any serious fashion. 
Instead, the Department declined to take the land in trust as 
part of the initial reservation as restored lands.'' Instead, 
the Department went through the two-part determination and left 
this tribe in a position where the Governors, both the last 
Governor and the incumbent Governor, have both failed to 
respond and therefore blocked the capacity of this tribe to 
locate in the area in which they have tried to get these lands 
restored, and they are left now to going back to an area where 
the communities don't want them.
    What I see here is what Chairman Young sees. I see a 
situation where we have authorized Indian gambling, rightly or 
wrongly. We have authorized commercial gambling in our State, 
rightly or wrongly. You can have a good debate over that, but 
we have done it. The incumbents organize. They hire expensive 
lobbyists and they block any competition, and so they keep a 
landless tribe like the Jena Choctaws from ever having a 
chance. They block them at every turn.
    The Department had a chance to consider their information 
and to solve this dilemma. Instead, as the tribe will testify 
today, they are not aware that ``Interior has considered the 
merits of our request in any serious fashion''. If that is 
correct, if that is a correct statement, then I am led to the 
conclusion that the politics of money and competition have 
defeated this tribe in its only chance to succeed, and if that 
is true, that is pretty sad. That is really pretty sad.
    So within the couple of seconds I have left, would you 
please comment, Ms. Martin? Is that what happened? Why hasn't 
the Department seriously considered the historic documentation? 
Why hasn't the Department responded to this tribe's request to 
have the land taken in trust as part of their initial 
reservation?
    Ms. Martin.
    Ms. Martin. When the Jena Band came to us about their 
acquisition near Logansport, they had a number of requests that 
they were making. They wanted the land to be considered initial 
reservation or, in the alternative, they wanted it to be 
considered for a two-part determination.
    Mr. Tauzin. Sure. Right.
    Ms. Martin. They, I thought ultimately, I thought--this was 
their decision. They ultimately decided that they would pursue 
the two-part determination after we had long discussions about 
the historical record.
    A two-part determination does not require us to go through 
the historical analysis. It merely requires that we make the 
finding with regard to the best interest of the tribe and the 
detriment to the surrounding community.
    Mr. Tauzin. If I can stop you there, did they decide to go 
to the two-part determination--my recollection is that they 
decided to go that route because it was pretty clear you 
weren't going to seriously consider an application to take it 
into trust as an initial reservation. Is that correct?
    Ms. Martin. We felt that the historical documentation that 
they had provided to us was tenuous.
    Mr. Tauzin. But you made no ruling.
    Ms. Martin. We did not.
    Mr. Tauzin. But you pretty well signalled them we are not 
going to do this for you. Right?
    Ms. Martin. We signalled that there would be a lot more 
work that would have to be done for us to make a historical 
determination.
    Mr. Tauzin. And are they correct in saying that you did not 
consider the merits of their request in any serious fashion? Is 
that correct?
    Ms. Martin. Well, they opted to go for the two-part 
determination.
    Mr. Tauzin. So you stopped considering it?
    Ms. Martin. We stopped considering it. They have not 
renewed their request to have us consider it.
    Mr. Tauzin. But again, here is the impression I got when 
you all were going through that, was that, you know, there was 
a pretty strong signal that, Look, you are not going to succeed 
here; you better go try something else; you better go talk to 
the Governor and work with the Governor, and we will work with 
the two-part determination; if the Governor is willing to 
negotiate a compact with you, then you can go forward. And the 
Governor's term was about to end, and I will tell you what my 
impression was. My impression was that the high-paid political 
lobbyists over here in Washington, D.C. representing the 
competitors to this tribe's application figured out that if 
they could just push this thing long enough, just stop it from 
happening long enough, that the incumbent Governor would be 
gone, the one who had agreed to negotiate a compact, and there 
would be a new Governor and then they could block it, they 
could block the two-part determination.
    And as you recall, the only request my office ever made was 
of you was don't let that happen, give them an answer on their 
request in time enough for the Governor to make the 
determination. You know when the answer came in? The answer 
came as the Governor was preparing to depart the mansion and 
the new Governor was coming in, and there was no time left to 
do the negotiations and work out a compact, which was, as you 
know, a very serious, contentious negotiation, requiring the 
Governor and the tribe to make agreements that didn't affect 
the other tribes in the State adversely.
    It looks to me, it just looks to me, that the competitors 
from a financial standpoint were able to drag this thing out 
long enough so that the only option for this tribe was a two-
part determination granted them at moment when the Governor was 
coming in who wouldn't consider them at all, and now they are 
left with an impossible situation--I want to go back to their 
service area--where the parishes have already voted not to 
cooperate with them. It is just an ugly mess and it smells to 
high heaven. It smells to me like high-paid lobbyists were able 
to delay this thing in a way that it ended up guaranteeing the 
failure of this landless tribe to do what other tribes are 
doing, and I am in the same position as Mr. Young. Once we 
authorize, once we say you can do this, we ought to treat all 
of them fairly. We ought not let the incumbent high-paid 
lobbyists around here work the system in a way--this bizarre 
Alice in Wonderland system in some cases, Mr. Young--to work it 
in a way that ends up with an unfair result.
    I think we have an unfair result here. That is my personal 
view. I kind of differ with my friend from Shreveport on this, 
but if it did come out unfairly, I just want you to know how 
disappointed I am at the process, and perhaps maybe there is 
some way to salvage this in a way that has more fairness to it; 
but again, it is not out of prejudice for the Jenas or 
prejudice against the Coushattas or anybody else in our State. 
It is simply to make sure that the system works fairly and that 
money doesn't drive the answer simply because money can work 
the process and delay it in a fashion that ends up with a 
negative result for a tribe. That is my problem, and I think 
that happened in this case, and I know you have a different 
view, and I accept that and I respect that. I just think that 
some people worked this very carefully and very creatively in a 
way that guaranteed this landless tribe would not succeed, and 
that is not, in my opinion, very fair.
    Thank you, ma'am.
    Chairman Pombo. The gentleman's time has expired.
    Mr. Duncan.
    Mr. Duncan. Ms. Martin, I had to be at another subcommittee 
meeting hearing, so I haven't heard all of the testimony, but 
Chairman Young has pointed out some problems and Chairman 
Tauzin just said that he thinks money and lobbyists are 
controlling too much of this process. You end up your testimony 
by saying: ``Our review indicates that the role of the 
Secretary under Section 20(b)1(a) is limited to making 
objective findings of fact regarding the best interest of the 
tribe and its members and any detriment to the surrounding 
community.''
    What I am wondering about, do you feel that your 
authority--do you have any regulatory authority if there are 
abuses? For instance, I have been given an article from ``Time 
Magazine'' from a year and a half ago that says most of the 
revenues are going to non-Indians and it tells about a group of 
Table Mountain Indians where some of the members of the tribe 
are getting an average of $350,000 each while some of the other 
members of the tribe are getting nothing. Are there any 
problems in this program right now that you see?
    Ms. Martin. Well, with respect the amount of money that 
goes outside of the tribe, the Indian Gaming Regulatory Act 
does place a limit on the amount of money a tribe can pay to a 
gaming contractor. It sets that limit. I think it is at 30 
percent of the tribe's net gaming revenues.
    With respect to how much money a tribal member might be 
paid under a per capita distribution, that is something that we 
do handle within the Department of Interior, and I would defer 
to Mr. Skibine to talk a little bit about that, the review of 
those plans, the RAPs.
    Mr. Skibine. You mean the Revenue Allocation Plans?
    Ms. Martin. Well, you were asking about the different 
amounts of money that tribal members might get.
    Mr. Duncan. All I am asking--I don't know as much about 
this as many of these other members do, and I am just 
wondering. We are starting to see some articles about abuses or 
problems within the whole system, and I am just wondering do 
you see any problems or abuses within the system, and if so, do 
you feel that your department or you have the authority to 
correct those abuses or those problems, or do you think the 
system is just working perfectly the way it is now. That is all 
I am asking.
    Mr. Skibine. Let me try to respond. With respect to 
articles that allege that contractors and management companies 
are getting too much money, I think this is an issue that is 
regulated by the National Indian Gaming Commission, and we are 
not here--we are not the National Indian Gaming Commission. So 
I think that if there was a witness from the NIGC, that would 
be the proper person to respond to that.
    With respect to taking land into trust and to Section 20 
determinations, I have handled these issues since 1995, and as 
a career employee, we have never ever seen improprieties in the 
submission by tribes for taking lands into trust or by seeking 
the views of the opposition. Our determinations are made on the 
record, and we have never been aware that there is a problem. 
As far as we are concerned, the process of making the Section 
20 determination does work well, and I think that if we look at 
our record since 1988 or since 1995 when I was there, I think 
it is documented that we have made all of these decisions on 
the record. Some of them have been positive for tribes. Some of 
them have been negative, but that is the way it goes based on 
the factors that we consider.
    So we do not think that with respect to the issues 
regarding taking land into trust that there really is a 
problem.
    Mr. Duncan. Well, let me ask another question.
    Mr. Skibine. Yes.
    Mr. Duncan. When you all read about all these megamillions 
going to lobbyists, were you surprised, and do you agree with 
Chairman Tauzin that money and lobbyists are too much in 
control of this whole system or this whole process?
    Ms. Martin, what do you say about that?
    Ms. Martin. Well, when we first heard about that, I was 
shocked at the amount of money was that was mentioned in the 
articles, completely shocked, but the way that IGRA is 
designed, a tribe is able to spend the money that they make 
through gaming on specific items that they deem are important 
to their governmental operations or to the best interest of 
their tribe.
    Mr. Duncan. You mentioned some limits within the law. Do 
you think we should put a limit on the amount of money that can 
be paid for lobbying activities?
    Ms. Martin. I don't know that that can be practically done. 
That would mean that we would have to go into every single 
tribe that operates gaming and take a look at exactly what they 
spend their money on and determine if that is appropriate or 
not, and I don't know that if that is a practical way to--
    Mr. Duncan. That would be a pretty easy thing to find out. 
The media seems to find it out pretty easily.
    My time is up. Thank you very much.
    Chairman Pombo. We can get into that issue at another time, 
but unless you want to start limiting the amount of money that 
corporations can spend on lobbying and everything else, I think 
you better leave this one alone.
    Mr. Young. Especially if any of you are looking to the 
future.
    Chairman Pombo. Are there further questions?
    Moving right along, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I don't plan to 
become a lobbyist after I leave here anyway.
    Let me ask a question, Ms. Martin, that under Section 20 of 
IGRA which requires some sort of consultation before land can 
be taken into trust in non-heritage or non-ancestral lands for 
another tribe, that consultation with other tribes, how much of 
that consultation is relied upon in your organization for a 
determination of whether or not to take that land into trust?
    Ms. Martin. We haven't been directly confronted with that 
kind of situation while I have been at the Department, but it 
is my understanding that we have in the past looked at that, 
and I would defer to Mr. Skibine who has handled one of those 
cases.
    Mr. Skibine. We do consultation with tribes that are 
located within 50 miles of the proposed site, and they provide 
submission and we look at it very carefully and it becomes part 
of the record. What we do not do is, for instance, if there is 
a tribe with a casino within 50 miles, in our view, competition 
alone is not going to be a determining factor as to whether to 
approve this application.
    Mr. Gibbons. So if one tribe established a casino on trust 
land in an area that was lucrative for casino operations in 
that area, then you would not oppose one or several other 
tribes moving in and creating their casinos on adjacent land to 
that tribe; there would be no justification in your mind to 
deny these other tribes the same opportunity that had been 
created for the previous tribe that was there?
    Mr. Skibine. We will look at the record. We will look, but 
in itself, if another tribe is located and said, Hey, we have a 
casino this area, therefore you have to disapprove this because 
it is going to competition, that alone will not be sufficient 
for us to agree.
    Mr. Gibbons. All right. By itself, it wouldn't be, but how 
much does it weigh in your consideration in granting that?
    Mr. Skibine. Well, there is no set percentage on how much 
it weighs. We just consider it and we carefully look at the 
arguments that they are making.
    Mr. Gibbons. Have you ever denied a tribe from taking land 
into trust on the basis of someone objecting to it because it 
would be competition?
    Mr. Skibine. Well, I think during the Hudson Dog Track 
issue in the previous Administration, the Administration 
disapproved a request from three tribes in Wisconsin to take 
land in trust in Hudson, Wisconsin, and in part, it was made 
because of the fact that, from what I recall, there were tribes 
in between that were objecting to this application based on 
competition.
    Mr. Gibbons. Ms. Martin, who in the National Indian Gaming 
Commission audits the payments and the operations of these 
casinos in order to determine how much of the money is being 
actually spent in either contractors or management firms? Who 
does the auditing of that operation?
    Ms. Martin. Well, the Commission operates and has several 
different--I am not intimately familiar with the Commission, 
but they do have different divisions and they do have, I 
believe, an audit division that does review those audits.
    Mr. Gibbons. So they can determine whether or not the 
amount that is being paid to these management firms is 
appropriate in terms of the profitability or the income that is 
coming into the casino?
    Ms. Martin. Yes, I believe.
    Mr. Gibbons. Now, if there is a contract in there, does the 
contract dictate or does the standards of profitability--in 
other words, who is making one money on this? What I am worried 
about is the opportunity for mischief to be created where these 
management firms are taking advantage of a tribe on one of the 
casinos? What makes that determination?
    Ms. Martin. Well, I think that IGRA sets out a basis or a 
limit on the amount of money that a contractor can collect.
    Mr. Gibbons. It caps it.
    Ms. Martin. It caps it.
    Mr. Gibbons. It caps it, but it doesn't tell you when there 
is less profit whether or not they are taking advantage of 
them.
    Ms. Martin. Well, I believe that the cap is on net revenues 
so that all of the funds above net revenues are profit for the 
tribe at least.
    Mr. Gibbons. Let me real quick-like ask a quick question. 
There has been press reports lately due to disputes over who is 
eligible for tribal membership, including reports of lengthy 
and extensive litigation over the issue of tribal memberships. 
Do you have any views on why individual Indians would engage in 
disputes over tribal membership, including the payment of high 
legal fees to obtain a tribal membership in one tribe that they 
may or may not yet be a member of? Why are they engaged in that 
sort of activity?
    Ms. Martin. Well, I don't know for every single person what 
their motivation might be. There are, I think, some particular 
cases where tribal members may receive per capita payments and 
a person may want to be eligible for one of those payments, and 
so they would seek membership because of that.
    Mr. Gibbons. OK. Why would they resist it would be the 
alternative.
    Ms. Martin. I would like to comment, though, on your 
question with regard to the location of a gaming facility and 
whether we would allow or disapprove of a FITA trust 
application within the area of another off-reservation 
facility. We haven't had to directly address that question in 
terms of FITA trust applications, but we have had a number of 
concerns with regard to gaming compacts that have come before 
us and expressed a geographic limitation on competition from 
other tribes coming in, and it is of great concern to us at the 
Department, but we do not feel that IGRA allows us to 
disapprove a compact in those circumstances.
    Mr. Gibbons. Well, IGRA doesn't provide for any limitation, 
geographic limitation, does it?
    Ms. Martin. It does not provide for a limitation, but it 
does not prohibit a limitation.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Chairman Pombo. Any further questions?
    Mr. Young.
    Mr. Young. By the way, Ms. Martin, I want to compliment you 
on your professionalism before this group. That is always a 
pleasure. So I want to compliment you, but I do have one 
question.
    On the Section 20 determination, does the Department of 
Interior or IGRA make that determination, or is it both?
    Ms. Martin. Well, IGRA delegates that determination to the 
Secretary, but it limits her consideration to two factors: the 
best interest of the tribe, which can be based on a number of 
factors, that is what we expect the economic benefit to be to 
the tribe, whether there will be employment opportunities 
afforded to the tribal members because of the operation, if 
there is going to be an increase in our other associated 
services such as health care or education. The other finding 
the Secretary has to make is whether it is a detriment to the 
local community, that is were there going to be environmental 
factors that make it a negative.
    Mr. Young. What you are saying is IGRA makes a 
recommendation to the Department of Interior. In conjunction, 
you make the determination, or do you make the determination 
individually?
    Ms. Martin. We make the determination based on IGRA.
    Mr. Young. You make the determination.
    OK. That is all I have.
    Chairman Pombo. Mr. Walden.
    Mr. Walden Thank you, Mr. Chairman.
    In my district, the Warm Springs Tribe is looking at 
acquiring some land and putting it into trust so that can they 
can petition the Governor and open a casino in a community that 
is about 17 miles in the land that they already have pre-IGRA 
in trust. That is land is on the side of hill in the Columbia 
Gorge National Scenic Area. They could, as I understand it, go 
ahead and construct a casino on land that is already within the 
scenic area that they have had in trust pre-IGRA.
    Ms. Martin. As long as they have a valid tribal State 
compact that authorizes them to game on such a location.
    Mr. Walden All right. So the Governor would still have to 
approve whether or not they could locate the land they already 
have in trust pre-IGRA?
    Ms. Martin. Unless they already have a tribal state compact 
that authorizes that, they would have to go to the Governor.
    Mr. Walden. OK. I know they do have gaming already on the 
reservation, but I don't know that it allows for more than one 
facility. In this situation, though, the concern is that the 
land they have acquired is in a neighboring community that 
actually is supportive of having this facility constructed as 
opposed to my hometown that wasn't. The land that they have 
pre-IGRA is my hometown and up on a hill. This is off in a port 
area. I guess I am just wondering what the process is in these 
circumstances. I am assuming that they petition you, as they 
have, I believe, and that then if it is benefit of the tribe, 
both economically and if the community is supportive, it sounds 
like from what I am hearing today, those are the big barriers. 
Is that right? They still have to get the Governor's approval. 
I realize that.
    Ms. Martin. Right. Those would be key factors in our making 
the two-part determination, but it would ultimately also have 
to be concurred in by the Governor, and then they would also 
have to have the compact.
    Mr. Walden All right. If people outside of this community 
where they are looking at acquiring the land have objections, 
what role is there for them to play?
    Ms. Martin. We would look at their comments, weigh them in 
the consideration, but if the immediate community that is 
affected really wants to have the gaming, I think that might 
be--we would take more consideration of that into effect, and, 
in fact, that is some of what happened with the Jena two-part 
determination. The immediate community wanted the casino while 
surrounding communities, actually communities that were quite a 
bit further away, objected to it. Ultimately, we looked at the 
local community that was immediately affected.
    Mr. Walden So the local community's input has greater 
weight than a neighboring community?
    Ms. Martin. Yes.
    Mr. Walden And you still use as the other criteria the 
affect on the tribe economically?
    Ms. Martin. Yes, we do.
    Mr. Walden Which would allow them to come in. Is there 
anything else that weighs in beyond those two points as major 
considerations?
    Ms. Martin. No. It is those two factors, and, in fact, the 
lengthy discussion we had with regard to whether we could 
consider distance was a result of our concerns with distance 
altogether. We looked at the legislative history of IGRA and 
what the letter of the law says, and we concluded that we could 
not look at other factors.
    Mr. Walden I see.
    All right. Thank you, Mr. Chairman.
    Thank you for your answers.
    Chairman Pombo. Thank you.
    No further questions.
    Mr. Pallone.
    Mr. Pallone. Mr. Chairman, I just am having difficulty 
because I have the fisheries hearing going on at the same time, 
and know I mentioned that to you, if we can avoid that in the 
future.
    I just wanted to ask--you know, I made a statement in the 
beginning that there doesn't seem to be an explosion of off-
reservation Indian gaming, but could you tell us how many 
applications for taking lands into trust for off-reservation 
gaming have actually been since 1988 and for how many 
applications have you actually made a determination?
    Ms. Martin. I believe that the total number of applications 
we received is somewhere around 43. We have made--well, we have 
made positive determinations in 31 of those cases, but there 
has been State concurrence.
    [Mr. Skibine confers with Ms. Martin. ]
    Ms. Martin. Well, State concurrence on off-reservation two-
part determinations, there have only been three since 1988.
    Mr. Pallone. OK. And then you also mention--I wasn't here. 
Again, I was at the fisheries hearing--with this two-part 
determination, I was told by my staff that you made some 
statement about how they don't look or they don't pay a lot of 
attention to historical roots, and I know that Congressman 
McCrery mentioned that, and that was one of the questions that 
I asked him as well. Is that true that they don't pay attention 
to that, and why is that the case, if it is?
    Ms. Martin. Well, with regard to the two-part 
determination, again, we went through a lengthy analysis of the 
legislative history and what the letter of the law says, and we 
concluded that as with distance, which is a concern, IGRA does 
not authorize or contemplate our looking at a tribe's 
historical ties with regard to a two-part determination. We do, 
however, look at those historical ties when we look at the 
exceptions, the land claim settlement, restored lands, or 
initial reservation proclamations.
    Mr. Pallone. So your decision not to look at it that much 
or not to pay too much attention is based on the statute 
itself?
    Ms. Martin. It is and the legislative history behind where 
we can't find guidance within the letter of the law.
    Mr. Pallone. OK. Thank you.
    Chairman Pombo. No further questions.
    I want to thank the witnesses for their testimony and 
remind you that there will be further questions that will be 
submitted in writing. If you could answer those in writing for 
the Committee, I would appreciate it.
    Ms. Martin. Sir, could I say one more thing, please?
    Chairman Pombo. Yes.
    Ms. Martin. I just wanted to--I see Chairman Tauzin is back 
in the room, and I just wanted to let you and the Committee 
know that I was the decisionmaker on the Jena Band two-part 
determination, and I can guarantee to you absolutely that there 
was no influence of high-priced lobbyists in my decision, 
either to make or not make the decision, and that, in fact, the 
other side has accused me of trying to help the tribe before 
the Governor went out of office.
    Mr. Tauzin. Would the gentleman yield?
    Chairman Pombo. Mr. Tauzin.
    Mr. Tauzin. Yes. I thank you for that statement. I want to 
clear the record too. I would never, as I said, ever suggest 
that there was influence on your office or that you yielded to 
influence. My concern was that this thing, the process, is so 
long, so complicated that people can--with the exercise of 
proper finances, they can help drag out a process, and my 
complaint from day one about the way this thing was going was 
not about how it would come out, because should have been a 
subjective decision made on the basis of the evidence before 
the Interior Department. That is all I ever asked for. My prime 
concern was that people were going to drag this process out and 
they were going to use whatever they could do in order to keep 
you guys from making a decision in time for the Governor to 
act, and I think they succeeded, and I was told last year 
whenever this was occurring that that was the game that these 
high-paid lobbyists were trying to perform.
    So I am not saying that you did anything or that the 
Department did anything untoward. I don't think you did. I 
think the process lends itself to the high-paid lobbyist using 
it for delay and slow-rolling the process in order to ensure 
that decisions can't be made in a timely fashion, and I think 
that happened in this case. So that is my complaint. It is not 
with any one of you. Certainly, as I said, I have the deepest 
respect for both you and the Department and for the work you 
do. My concern is that we have set up a system that 
unfortunately allows for people to misuse the system in a way 
that helps their competitive advantage, and that is wrong, and 
that is all I am saying.
    I thank you.
    Ms. Martin. Thank you, sir.
    Chairman Pombo. Thank you. I am going to dismiss this panel 
and call up our next panel, consisting of Ernie Stevens, who is 
the Chairman of National Indian Gaming Association, who is 
accompanied by Mark Van Norman; Principal Chief Christine 
Norris of the Jena Band of Choctaw Indians. She is accompanied 
by Heather Sibbison of the law firm of Patton Boggs; and Chief 
Leaford Bearskin of the Wyandotte Nation.
    Now that I have you all seated, if I could have you stand 
and raise your right hand.
    [Witnesses sworn.]
    Chairman Pombo. Thank you very much. Let the record show 
they all answered in the affirmative.
    Mr. Stevens, we are going to begin with you.
    Mr. Young. Mr. Chairman.
    Chairman Pombo. Mr. Young.
    Mr. Young. Mr. Chairman, if I may at this time have the 
privilege, because I mentioned to Ms. Martin my interest in the 
Wyandottes for the last 8 years, I would like to--he is being 
recognized, but I would like to recognize on my own behalf 
Chief Leaford Bearskin. He is the Chief of the Wyandotte Nation 
since 1983, and not only that, I am going to do this because 
there are only a few of us in this room that the maturity, and 
he has a little more years than I do, but he has served our 
Nation in many different ways, including 41 years in the U.S. 
Government. More than that, though, during World War II, he was 
the chief aircraft commander of the B-24 labrador [sic] bomber 
in New Guinea as part of the 90th Armament Group on the Fifth 
Air Force and flew 46 combat missions of heavy bombers. He 
served as squadron commander in Korea, and that is my time. He 
was later commander of Strategic Air Command at Headquarters in 
Nebraska and after retired as lieutenant colonel, from a 
sergeant to lieutenant colonel, which is phenomenal considering 
I went from a private E-1 to private E-1 three times. I hope 
your appreciate that.
    Mr. Tauzin. There has got to be a story there.
    Mr. Young. He has been the Chief of the Wyandotte tribal 
organization and has been recognized by many different groups 
about his leadership and his contribution to not only his 
tribes, but to the Nation and the State itself, and I 
personally will tell you I believe that this man has led the 
Wyandotte as should have been led, but more than that, I think 
they have been screwed over by the U.S. Government, and I think 
that is very inappropriate.
    And I will say again they qualify for Section 20. He is 
here to testify what happened to them, the affects upon the 
tribe itself and why I believe it was the wrong thing to do as 
the Government has enforced it and the State of Kansas has 
enforced it. So I would just like to acknowledge a great 
American.
    Chief, I am glad to have you here today, and it is a 
pleasure to have you representing not only your tribe, but this 
Nation as a whole, and thank you for your service to this great 
Nation as we all serve it. Thank you, Chief.
    Mr. Bearskin. Mr. Young, thank you very much. I would like 
you to talk to my board of directors and maybe I can get a 
raise.
    Mr. Young. Now you are talking my language.
    Mr. Tauzin. Mr. Young, did he fly a labrador or a 
liberator?
    Mr. Young. Liberator. I can't pronounce it.
    Mr. Tauzin. Mr. Bearskin, did you fly a labrador or a 
liberator?
    Mr. Bearskin. Liberator.
    Chairman Pombo. I tell you, sometimes I mess up on people's 
names, but the former Chairman set such a low standard that I 
can't do any worse.
    Mr. Stevens.

          STATEMENT OF ERNIE STEVENS, JR., CHAIRMAN, 
                  NATIONAL GAMING ASSOCIATION

    Mr. Stevens. Good morning, Mr. Chairman, and again, I as 
well am greatly honored to be next to a great chief and a great 
soldier. As you know, many of our soldiers from the beginning 
of any conflict in this country have stepped up in great 
numbers and mostly in terms of volunteers. And I just talked to 
my nephew yesterday, and he is stationed in an Army camp. He 
has been back. He was on the front line. On 9-11, he signed up 
to go defend his country and has been there, been through the 
toughest part of that conflict, and his platoon sergeant said 
they may be going back over soon.
    So with that, sir, I just wanted to say how impressed and 
how intimidated just a little bit I am to sit next to such a 
great soldier, like my father.
    Mr. Chairman, I would like to say good morning to you and 
the rest of the committee members. I know people are busy here. 
We will try to be as brief as we can and summarize my statement 
for the record. I have a detailed statement that I will submit 
for the record, and I will try to summarize that as quickly as 
I can.
    I am honored to be here this morning to share NIGA's views 
on the issues of tribal land acquisition for gaming purposes. 
This subject requires some historical overview to put the topic 
into perspective. There are also a few members of NIGA's 
executive board present as well today.
    As you know, Indian tribes were independent self-governing 
communities long before the arrival of European nations. Upon 
their arrival, the nations of England, France, and Spain all 
entered into treaties with tribes to maintain their peace, 
build wartime alliances, and establish a means of trade and 
commerce. When the U.S. was formed, it too entered into 
treaties with tribes for the same reasons. When the U.S. 
ratified the Constitution, it specifically acknowledged the 
importance of trade and tribal governments in the commerce 
clause which states that Congress shall have the power to 
regulate commerce with foreign nations and among several States 
and with the Indian tribes.
    Over the next 200 years, the United States continued to 
acknowledge the governmental status of Indian tribes through 
the hundreds of Federal laws and regulations and U.S. Supreme 
Court decisions. Despite these promises of peace and 
friendship, Federal policies in the 1800s devastated the Indian 
tribes and their economies. The United States Indian population 
plunged from 15 million in 1492 to only 250,000 in 1890.
    The first of these policies, removal, forced a number of 
these tribes to leave their homelands in the east and to travel 
to remote areas west of the Mississippi River. Tens of 
thousands of Indians died on the trails of tears on their way 
to Oklahoma and other reservations. Today, the removal policy 
would be denounced as ethnic cleansing. Our Indian nations 
still suffer from the damage and dislocation caused by the 
removal policy.
    After the removal policy proved a failure, the United 
States turned to the policy of allotment and assimilation. The 
Allotment Act violated the treaties which agreed to preserve 
tribal homelands by wrongly selling the reservation lands for 
settlement to non-Indians. By 1934, the policy of allotment 
alone caused the loss of over a hundred million acres of Indian 
lands. Couple that with Indian lands lost through the removal 
policy, the total grows well over to 300 million acres lost.
    In 1934, Congress acknowledged the allotment was a complete 
failure and altered its Indian policy through the enactment of 
the Indian Reorganization Act. Reorganization authorized the 
Secretary of Interior to acquire lands in trust for Indian 
tribes. In 1953, Congress again shifted its Indian policy, this 
time to termination which ended the Federal Government's 
recognition of certain tribes as governments along with the 
rights to their homelands. In the 1960s, President Kennedy and 
Johnson moved away from the termination policy. In 1970, 
President Nixon formally repudiated termination and announced a 
new policy supporting Indian self-determination which remains 
in tact today.
    Through the self-determination policy, the Federal 
Government established programs similar to those used to help 
support State and local governments. These programs seek to 
help tribes rebuild their communities and rebuild reservation 
economies. In addition, tribes began to look for a steady 
stream of tribal governmental revenue. With the rise of the 
State lotteries, many tribes looked to gaming as the answer for 
their budgetary concerns. State governments and commercial 
gaming operations challenged the rights of tribes to conduct 
gaming on their lands. These challenges culminated in the 
Supreme Court case California v. Cabazon Band of the Mission 
Indians in which the court upheld the right of tribes as 
governments to conduct gaming on their lands. The court 
reasoned that gaming is crucial to generating tribal 
governmental revenue and knows that gaming has become an 
essential means of employment.
    In 1988, one year after the Cabazon decision, Congress 
enacted the Indian Gaming Regulatory Act, or IGRA, to promote 
tribal economic development, tribal self-sufficiency, and 
strong tribal governments. In the 15 years since the enactment 
of IGRA, Indian gaming has become the native American success 
story. Tribal governments have used gaming to rebuild many 
communities that were all but forgotten. Gaming has helped to 
preserve our culture and is providing a hope for an entire 
generation of Indian youth. Schools, hospitals, roads, and good 
relationships with surrounding communities are just a few 
examples.
    IGRA generally requires that tribal gaming be conducted on 
Indian lands, but the Act also makes important exceptions that 
account for problems created by the United States historical 
policies of removal, allotment, and termination, as I 
previously noted. For example, many tribes have sought for more 
than a hundred years to restore their homelands wrongly taken 
through the removal and allotment policies. Accordingly, IGRA 
recognizes that tribes may conduct gaming on lands placed in 
trust as a part of a land claim settlement. In addition, the 
governmental status of a number of tribes was wrongly 
terminated either by Congress in direct acts of termination or 
through wrongful administrative termination by the Bureau of 
Indian Affairs. As a result, IGRA also recognized that newly 
acknowledged and restored tribes can conduct gaming on their 
initial reservations and restored lands.
    IGRA also contains a more general exception which permits 
tribes to apply to the Secretary of the Interior to use after-
acquired lands for land gaming purposes. This two-part process 
first requires the Secretary to consult with local governments 
and neighboring tribal governments to determine whether the use 
of lands for gaming would be in the best interest of the tribe 
and not detrimental to the surrounding community. We believe 
that it is important for the Secretary to consult with 
neighboring Indian tribes because the tribes have an interest 
in the development and impacts of new gaming operations in the 
area. Second, the Governor of the State must be consulted and 
must concur before the land can be taken into trust and used 
for gaming purposes. Congress intended the Governor to make 
that decision in good faith, considering the interests of all 
concerned parties. And as previous stated this morning, only 
three tribes have successfully navigated the process in over 15 
years under IGRA. That is the Fourth County Potawatomi Tribe in 
Milwaukee, Wisconsin, the Kalispel Tribe in Spokane, 
Washington, and the Keweenaw Bay Indian Community in Marquette, 
Michigan. These tribes have shown that the use of after-
acquired lands for Indian gaming under Section 20 is positive 
for the tribe involved, the local communities, and the State 
when this process is used properly.
    To briefly conclude, Mr. Chairman, we feel that the media 
sensation that Indian gaming is exploding is overblown. IGRA's 
exceptions are narrow. They recognize that tribal government 
lands were wrongly taken and acknowledge that tribes in these 
situations should be treated fairly. While the Section 20 two-
part determination process is not without its difficulties, we 
feel that as long as the process is followed and that the 
necessary parties are fully consulted, that those difficulties 
will be addressed. In our view, Section 20 should not be 
amended at this time.
    Mr. Chairman, that is the summary of my complete statement, 
and the only thing I really wanted to add is, you know, there 
was a little bit of discussion throughout the morning about 
taxes, and tribes, you know, are governments and I know you 
that we are not subject to tax, but tribes do pay Social 
Security taxes as employers. Tribal members are taxed. Vendors 
pay income tax, and overall Indian gaming generates over seven 
billion in Federal, State, and local revenues each year, in 
addition to that, approximately 70 million to charitable 
contributions. And what I said previously in my testimony about 
service agreements, we are on a very high percentage basis 
working cooperatively with our communities around us, and I 
think Section 20 also addresses that.
    So we feel that there are positive examples throughout this 
country about working cooperatively with the neighbors in these 
areas. So we think it is cumbersome, but we think it is a 
process that is appropriate, and we think that the three 
examples there are great examples, and to say that this is 
reservation shopping or it is blown out of proportion or there 
is an explosion of gaming is certainly, on behalf of the record 
as we see it and report it to you today, is certainly not an 
appropriate analogy.
    [The prepared statement of Mr. Stevens follows:]

            Statement of Ernest L. Stevens, Jr., Chairman, 
                   National Indian Gaming Association

                              INTRODUCTION

    Good morning Chairman Pombo, Ranking Member Rahall, and Members of 
the Committee. My name is Ernest Stevens, Jr., and I am Chairman of the 
National Indian Gaming Association and a member of the Oneida Nation of 
Wisconsin. The National Indian Gaming Association (NIGA) is an 
intertribal association of 184 federally recognized Indian Tribes 
united with the mission of protecting and preserving tribal sovereignty 
and the ability of Tribes to attain economic self-sufficiency through 
gaming and other economic endeavors. I am honored to be here this 
morning to share NIGA's views on the issue of tribal land acquisitions 
for gaming purposes.

Indian Tribes as Governments
    The complex issue of tribal land acquisitions for gaming purposes 
requires a historical overview of the status of Indian Tribes as 
governments and tribal landholdings to place the subject in proper 
perspective.
    Before Columbus, Indian tribes were independent sovereigns vested 
with full ownership and authority over their lands. European nations 
acknowledged Indian nations as sovereigns and entered into treaties to 
acquire lands, establish commerce, and preserve the peace. When the 
United States was established, it too recognized the sovereign status 
of Tribes through treaties for these same reasons. The U.S. during the 
late 1700s and early 1800s was vulnerable to recurring attack from 
England. Thus, the United States sought to maintain peace with tribal 
governments and sought them as allies. The new government also sought 
to build its economy, and recognized that securing an exclusive trade 
relationship with tribal governments would further that goal.
    The United States Constitution specifically acknowledges the 
importance of trade with tribal governments in the Commerce Clause, 
which states that ``Congress shall have power to regulate commerce with 
foreign nations, and among the several states, and with the Indian 
tribes.'' U.S. Const., Art. I, Sec. 8, cl. 3. For these reasons, the 
United States policy on Indian affairs in the formative years of the 
new Republic was one of respect and recognition that tribal governments 
were necessary allies to protecting the Union both politically and 
economically.
    During the Revolutionary War, the United States adopted the legal 
principles and practice of European nations and acknowledged the 
sovereign status of Indian tribes, with full ownership and authority 
over their lands. The 1778 Treaty with the Delaware Nation was the 
United States' first Indian treaty, and it provided:
          [A] perpetual peace and friendship shall henceforth take 
        place through all succeeding generations: and if either of the 
        parties are engaged in a just and necessary war with any other 
        nation or nations, that then each shall assist the other in due 
        proportion to their abilities, till their enemies are brought 
        to reasonable terms of accommodation.
          [W]hereas the United States are engaged in a just and 
        necessary war, in defense of life, liberty and independence, 
        against the King of England the Delaware nation stipulate[s] 
        and agree[s] to give a free and safe passage through their 
        country to the troops affording to said troops supplies of 
        corn, meat, [and] horses. And engage to join the troops of the 
        United States with a number of their best and most expert 
        warriors.
    My own tribe, the Oneida Nation, assisted General Washington and 
the United States by providing food for the troops during the cold 
winters in Valley Forge.
    In the Northwest Ordinance of 1787, the Continental Congress 
pledged that the United States would pursue a just policy toward Indian 
nations:
        The utmost good faith shall always be observed towards the 
        Indians, their land and property shall never be taken from them 
        without their consent; and in their property, rights, and 
        liberty, they never shall be invaded or disturbed.
    For over two hundred years, the United States Constitution, 
treaties, hundreds of federal laws, and U.S. Supreme Court decisions 
all acknowledge that Indian Tribes are governments. The 2000 Executive 
Order on Consultation and Coordination with Indian Tribal Governments, 
issued by President Clinton and later affirmed by President Bush, 
provides:
        Our Nation, under the law of the United States has recognized 
        the right of Indian tribes to self-government. As domestic 
        dependent nations, Indian tribes exercise inherent sovereign 
        powers over their members and their territory. The United 
        States work[s] with Indian tribes on a government-to-government 
        basis concerning Indian tribal self-government, tribal trust 
        resources, and Indian tribal treaty and other rights.
    Consultation between sovereigns is still the cornerstone of 
Federal-Tribal government-to-government relations today.

Historic Loss of Indian Lands
    Despite these promises of peace and friendship, federal policies 
throughout the 1800s caused significant damage to tribal communities 
and the Indian land base. The Indian population in the United States 
plunged from 15 million before Columbus to only 250,000 by the end of 
the Indian Wars in 1890. During this same time, Indian nations lost 
hundreds of millions of acres of their homelands and were pushed onto 
the most remote corners of the United States.

Removal Policy
    During the late 1820s, the United States established the ``Removal 
Policy'' and forced the Cherokees and other Tribes to walk a number of 
Trails of Tears. Tens of thousands died on their way to remote lands 
west of the Mississippi River. Many others stayed behind, and today the 
Cherokee Nation is represented by both the Cherokee Nation of Oklahoma 
and the Eastern Band of Cherokees in North Carolina. Many other Tribes 
were divided by the Removal Policy and are represented on both sides of 
the Mississippi. Today, the ``Removal Policy'' would be denounced as a 
form of ethnic cleansing. Indian nations continue to suffer from the 
damage and displacement caused by the Removal Policy.

Allotment and Assimilation
    In 1868, the United States continued to enter into treaties with 
Tribes for land exchanges which proclaimed, ``From this day forward all 
war between the parties to this agreement shall forever cease. The 
Government of the United States desires peace, and its honor is hereby 
pledged to keep it.'' The treaties promised that the United States 
would acknowledge that the reserved lands would serve as the 
``permanent home'' of the respective Indian nations.
    However, the United States adopted a policy of Allotment and 
Assimilation, which violated each of these treaties. The Allotment 
Policy also ignored Tribal government laws on land use, and parceled 
out tribal lands in 160-acre units to heads of individual tribal 
households. After heads of households received their allotments, the 
Government sold the remaining reservation lands to non-Indians. As a 
direct result of the Allotment policy, Indian land holdings plunged 
from 138 million acres in 1887 to 48 million acres by 1934. All told, 
Removal and Allotment caused the taking of well over 300 million acres 
of Indian homelands.

Indian Reorganization
    In 1934, in cooperation with Congress, President Roosevelt secured 
the enactment of the Indian Reorganization Act to promote ``local self-
government'' for Indian Tribes. Recognizing that tribal communities had 
been devastated by the loss of almost 100 million acres of land, the 
Act gave the Secretary of the Interior authority to reacquire lands in 
trust for Tribes and individual Indians. The Act was very well intended 
and remains law today, but has never been adequately funded.

Termination Policy
    In the 1950s, federal policy turned towards Termination. 
Termination essentially ended the federal government's recognition of 
certain Indian Tribes as governments and sought rapid assimilation of 
individual Indians, instructing them to disband and adopt a non-Indian 
way of life. These Tribes also lost their homelands again passing 
Indian lands into the hands of non-Indians. Tribes not directly 
terminated faced severe program budget cuts, and reservation economies 
were completely ignored.
    The cumulative effect of all of these policies destroyed tribal 
economies and the Indian land base. Indeed, in the 1960s, Indian 
communities faced the highest national rates of poverty, crime, poor 
health care access, education dropouts, and countless other social and 
economic problems. Reservation economies were in ruins.

The Era of Self-Determination and the Indian Gaming Regulatory Act
    The federal government again recognized the failure of its Indian 
policy, and again shifted its views. In the 1960s, Presidents Kennedy 
and Johnson included Indian Tribes in federal community development 
programs, in the War on Poverty, and in Civil Right legislation to 
strengthen tribal self-governance. In 1970, President Nixon formally 
announced the federal policy supporting Indian Self-Determination, and 
repudiated the Termination Policy. At the heart of the new policy was 
the federal government's commitment to foster reservation economic 
development and helping tribal governments to attain economic self-
sufficiency. The federal government began to make available to tribal 
governments a number of the programs that were used to help state and 
local governments. These programs provide Tribes with the ability to 
rebuild their communities, and have created new economic opportunities 
throughout Indian country.
    In addition, in the late 1960s, Tribes began to look for a steady 
stream of tribal governmental revenue separate from federal program or 
appropriation funds. At the time, the recent rise in State government 
lottery systems caused a number of Tribes to consider gaming as the 
answer for their budgetary concerns.
    State governments and commercial gaming operations challenged the 
rights of Tribes to conduct gaming on their lands. These challenges 
culminated in the Supreme Court case of California v. Cabazon Band of 
Mission Indians, 480 U.S. 202 (1987). The Court in Cabazon upheld the 
right of Tribes, as governments, to conduct gaming on their lands. The 
Court reasoned that Indian gaming is crucial to tribal self-
determination and self-governance because it provides tribal 
governments with a means to generate governmental revenue for essential 
services and functions. The Supreme Court also recognized that 
California Tribes were left on reservations that ``contain little or no 
natural resources which can be exploited,'' so the Court acknowledged 
that Indian gaming is also essential to provide tribal employment. In 
1988, one year after the Cabazon decision, Congress enacted the Indian 
Gaming Regulatory Act to promote ``tribal economic development, tribal 
self-sufficiency and strong tribal government.'' 25 U.S.C. Sec. 2702.
    In approximately 30 years (just over 15 years under IGRA), Indian 
gaming has become the Native American Success Story. Today, 
approximately 65% of the federally recognized Indian Tribes in the 
lower 48 states have chosen to use gaming to aid their communities. 
Indian gaming has helped many Tribes begin to rebuild communities that 
were all but forgotten. Because of Indian gaming, our Tribal 
governments are stronger, our people are healthier and our economies 
are beginning to grow. Indian country still has a long way to go. Too 
many of our people continue to live with disease and poverty. But 
Indian gaming has proven to be one of the best available tools for 
Tribal economic development.
    In 2003, Indian gaming generated 500,000 jobs nationwide and $16 
billion in gross tribal government revenues (net tribal gaming revenues 
are much smaller when accounting for payroll, operating costs, 
overhead, and debt service). Indian gaming is funding essential tribal 
government services, including schools, health clinics, police and fire 
protection, water and sewer services, and child and elderly care. And, 
Indian gaming generates over $7 billion in added revenue for the 
Federal, State and local governments. Despite the fact that Indian 
Tribes are governments, not subject to taxation, individual Indians pay 
federal income taxes, people who work at casinos pay taxes, those who 
do business with casinos pay taxes, and those who get paid by casinos 
pay taxes. As employers, Tribes also pay employment taxes to fund 
social security and participate as governments in the federal 
unemployment system. In short, Indian gaming is not only helping 
rebuild Indian communities, but it is also revitalizing nearby 
communities.

Treatment of After Acquired Lands Pursuant to IGRA
    IGRA establishes a general policy that Indian Tribes should only 
conduct gaming on lands held in trust by the United States prior to 
passage IGRA on October 17, 1988. 25 U.S.C. Sec. 2719. Congress also 
accounted for historical circumstances such as diminished reservations, 
terminated Tribes, and Indian land claims, and established reasonable 
exceptions to provide for the use of ``after acquired'' lands when 
necessary.
    In addition, Congress established a more general exception for the 
use of ``after acquired'' lands for gaming where the Secretary of the 
Interior after consultation with local governments and neighboring 
Indian tribes determines that Indian gaming on the lands is in the best 
interests of the Tribe and would not be detrimental to the surrounding 
community. The Governor of the State must then concur in the 
Secretary's decision. Of course, the Tribe must also successfully 
negotiate a compact with the State before conducting class III gaming 
on such lands.

Within Reservation and Contiguous Land
    Recognizing the excessive loss of Indian lands and sporadic 
checker-board landholdings due to Removal and Allotment, Congress 
through IGRA permits Tribes to conduct gaming on lands within or 
contiguous to existing reservations. 25 U.S.C. Sec. 2719(a)(1). These 
``contiguous'' land acquisitions are generally without controversy. For 
example, the White Earth Ojibwe reservation was heavily checker-boarded 
by the loss of trust lands under the Allotment Policy, and without much 
fanfare, the White Earth Band reacquired a 61-acre parcel of land 
within its existing reservation area for gaming in 1995.

Land Claim Settlements
    For similar reasons, IGRA permits gaming on Indian lands reaffirmed 
through a land settlement. 25 U.S.C. sec. 2719(b)(1)(B)(i). In our 
view, these trust acquisitions are simply a measure of justice for 
Tribes that have suffered historical wrongs. Where lands were 
wrongfully taken and are restored through land settlement, in essence, 
they relate back in time to the original holding of the lands by the 
Tribe.

Newly Acknowledged and Restored Tribes
    In addition, the governmental status of a number of Tribes was 
wrongly terminated, either by Congress in direct acts of termination or 
through wrongful Administrative termination by the Bureau of Indian 
Affairs and other agencies. As a result, IGRA also recognizes that 
newly acknowledged and restored Tribes can conduct gaming on their 
initial reservations and restored lands. Congress reasoned that these 
lands should be available for gaming because these Tribes have the same 
sovereign status as other federally recognized Indian Tribes. See 25 
U.S.C. Sec. 479a (Federally Recognized Indian Tribe List Act).
    For example, the Mohegan Tribe's land was taken into trust under 
the exception for the initial reservation for newly recognized tribes. 
25 U.S.C. Sec. 2719(b)(1)(B)(ii). Of course, the residents of 
Uncasville were well aware of the Tribe's historical status as a State-
recognized Indian tribe and the status of their lands as a state Indian 
reservation. The Grande Ronde Indian Community in Oregon was restored 
to recognition after termination, and in 1990, the Secretary acquired 
about five acres of land in trust pursuant to the exception for Tribes 
restored to recognition. 25 U.S.C. Sec. 2719(b)(1)(B)(iii).

Section 20 Two-Part Consultation Process
    Section 20 of the Indian Gaming Regulatory Act also provides that 
an Indian Tribe may apply to the Secretary to place land into trust for 
gaming purposes. This process has sometimes been criticized as divisive 
among tribal governments, and has led to media hype regarding the 
unbridled proliferation of tribal gaming operations. While the 
procedure is not without its difficulties, we feel that as long as the 
process in IGRA is followed and the necessary parties are consulted, 
that there is no need at this time to amend the Act.
    The two-part determination process is significant. Upon application 
by a Tribe the Secretary of the Interior begins a review to make a 
determination of whether the acquisition of the land in trust for 
gaming purposes would be in the best interests of the Indian tribe. The 
Secretary must also consult with the local area government and 
neighboring Indian tribes to ensure that such acquisition ``would not 
be detrimental to the surrounding community.'' 25 U.S.C. 
Sec. 2719(b)(1)(A).
    We believe it is important for the Secretary to consult with local 
governments and neighboring Indian Tribes because the local community 
and Tribes in the area have an interest in the development of new 
gaming venues in their area. Certainly, local governments may be 
impacted by additional calls on their resources. Generally, tribal 
governments have been generous in negotiating agreements with local 
governments to underwrite those services and mitigate the impacts of 
gaming.
    Neighboring Indian Tribes may also be impacted by new gaming 
venues, either through a market impact or concerns about overlapping 
aboriginal areas. Consultation can help to identify and address such 
concerns. It is important to remember that the Secretary of the 
Interior has a trust responsibility to the neighboring Tribes as well 
as to the applicant Tribe.
    If the Secretary makes a determination favorable to the applicant 
Tribe, then the process turns to the Governor of the State in which the 
land is located. The Governor is consulted to ensure that the overall 
interests the State are considered, and the process will not move 
forward unless the Governor concurs with the Secretary's determination. 
The Governor's concurrence serves as a condition precedent to the use 
of ``after acquired'' lands for Indian gaming. The Governor's 
concurrence authority should be exercised in ``good faith,'' just as 
Congress provided for in the tribal-state compact process.
    While we are aware of reports of a number of Tribes have applied 
for ``after acquired'' land to be placed in trust for gaming outside 
the historical exceptions, only three Indian Tribes have successfully 
navigated the Section 20 two-part process: the Forest County Potawatomi 
Tribe in Milwaukee, Wisconsin, in 1990; the Kalispel Tribe in Spokane, 
Washington, in 1997; and the Keweenaw Bay Indian Community in 
Marquette, Michigan, in 2000. In our view, these Tribes have shown 
that, when the two-part determination process is properly applied, the 
use of ``after acquired'' lands for Indian gaming is positive for the 
Tribes involved, the local communities, and the State.
    The Forest County Potawatomi Tribe, for example, invested $120 
million in its gaming facility and has been a leader in creating jobs 
in Milwaukee, with 7,000 jobs. The Tribe also dedicates $14 million 
annually to fund the Milwaukee Indian School, a school that is 
dedicated to educating all Indian children in the Milwaukee area. In 
Forest County, the Tribe has created an additional 667 jobs and 
generates approximately $11.5 million payroll. With its gaming revenue, 
the Tribe has created new community infrastructure, including a new $10 
million health and wellness center for both tribal members and tribal 
employees. The Forest County Potawatomi Tribe is also very generous 
with its resources, and has assisted both the Sokagon Chippewa Tribe 
and the Red Cliff Band of Chippewa in Wisconsin.
    The Kalispel Tribe has also been a community leader in creating 
jobs, with 1,500 new jobs at its facility. The Tribe also contributes 
over $500,000 a year to the City of Airway Heights to aid the City in 
its governmental services, and makes a number of contributions to other 
local charities.
    The Keweenaw Bay Indian Community (``KBIC'') has also achieved 
important success at its Marquette, Michigan facility. KBIC's casino is 
responsible for about 300-400 local area jobs (about 65% of which are 
held by non-Indians). The Tribe is one of the largest employers in the 
local economy. KBIC assists the local government with revenue for many 
government projects, including a new truck for the fire department, a 
new drug enforcement dog for the police department, and construction of 
a radio tower for the community ambulance service. KBIC is also 
generous in funding the YMCA, the school hockey program, youth events 
and other special events in the community.

                               CONCLUSION

    To summarize, the media attention is overblown there is no 
explosion of off-reservation Indian gaming. IGRA includes narrow 
exceptions for gaming on after-acquired lands that address the wrongful 
land takings caused by the Removal, Allotment, and Termination 
policies. While the Section 20 two-part determination procedure is not 
without its difficulties, we feel that as long as the process is 
followed, and that local governments and affected Indian Tribes are 
fully consulted, that these difficulties will be addressed. In over 15 
years, only three Tribes have successfully used the Section 20 two-part 
process. In our view, Section 20 should not be amended at this time. 
Mr. Chairman and Members of the Committee, this concludes my remarks. 
Once again, thank you for providing me this opportunity to testify.
                                 ______
                                 
    Chairman Pombo. Thank you.
    I will now recognize Principal Chief Norris.

        STATEMENT OF PRINCIPAL CHIEF CHRISTINE NORRIS, 
         JENA BAND OF CHOCTAW INDIANS, JENA, LOUISIANA

    Ms. Norris. Good morning, Chairman Pombo and members of the 
Committee. I thank you this morning for allowing me this 
opportunity to come before you. I ask your indulgence as this 
is my first experience in being in such an arena as this.
    My name is Christine Norris. I am tribal chief of the Jena 
Band of Choctaw Indians. You have heard this morning from 
Congressman McCrery who represents a population in Louisiana 
who are my competitors. I respectively realize that he speaks 
for these people, but I am also glad that you have the 
opportunity to hear from the tribe itself. At this point, this 
has not been done thus far. So I thank you for this 
opportunity.
    The policies and procedures of Section 20 of IGRA are of 
particular importance to my tribe. We are newly recognized and 
recently restored to Federal recognition. For us, there is no 
such thing as on-reservation gaming because we have no 
reservation. That is the point that I want to bring out and 
make you realize, that we are different from the other tribes 
in Louisiana as when we were federally recognized in 1995 
through the Federal acknowledgment process, we had no land. We 
are a landless tribe. That is the difference. The Coushattas, 
the Tunica-Biloxi, the Chitamacha tribes upon Federal 
recognition had land and thus that is where their casinos are.
    Through the years, the Bureau of Indian Affairs recognized 
the Jena Band as Indian people and provided modest services to 
the group there that was in Jena, Louisiana; however, it wasn't 
until 1995 that we reaffirmed our tribal status, although we 
had no land, no money, no reservation. Nonetheless, we 
identified properties within our three-parish service area. 
This is because this is where our people lived. I had to 
provide for these people health care, homes. We have a few 
parcels in trust now that we have requested that Interior 
designate them as our initial reservation. The total acreage 
only amounts to less than 105 acres. This is considerably less 
than the reservation land bases of the other three federally 
recognized tribes in Louisiana.
    Like many other tribes, my tribe made the sovereign 
decision to conduct a tribal gaming operation to generate funds 
to enhance our Federal Government programs. The Jena band 
consists of 241 tribal members, a very small receiving a very 
small budget from the Federal Government.
    We have brought some exhibits with us that will show you, 
on Exhibit A, our three parishes that form our service area. In 
these three parishes, Grant, LaSalle, and Rapides, all three of 
the parishes have voted out any form of gaming. While we 
continue to pursue the gaming avenue, our former Governor, 
Governor Foster, played a large role in suggesting that this 
tribe look at lands outside of its parish area. Governor Foster 
informed us that he would not negotiate a tribal state gaming 
compact with us for any facility located within our service 
area, and he even stated that he would oppose our efforts to 
acquire trust lands within the three-parish service area. This 
is what led the tribe in the very first place to look at the 
area of Vinton, Louisiana.
    We learned from our many mistakes there in Vinton. Number 
one, we did not have the community support in the political 
arena from the local politicians. After we sought to work with 
the State in the local and governments, we embarked on several 
years to identify alternate sites for a gaming facility, one 
located outside of our service area, but still within an area 
which our people had an historical connection. We are not 
saying the Jena Band lived in Logansport, Louisiana. What we 
are saying is we submitted historical data to show where 
Choctaw people lived there. We were of the Choctaw Nation. Only 
until the nineteenth century were these tribes broken out into 
various names of tribes. We were all Choctaw people.
    Our attempts to do so were met at every turn by casino 
interests looking to protect their own market. Not only did we 
have the competition of 16 land-based casinos in Louisiana, 
there were also three other Federal Indian tribes having 
casinos in Louisiana. Realizing the competition, this is a free 
market. This is what competition is all about and develops a 
healthy attitude among people. We were received with closed 
doors. At every turn that we went, we were met by opposition.
    In Logansport, Louisiana, it is only 62 miles, I want to 
point out, from the border of our service area. We attempted to 
locate a casino there. Learning from the mistakes in Vinton, we 
went to the people there. We reached out to see if this is an 
area that wanted us. The people--it is a rural area just like 
our parishes of Rapides, LaSalle, and Grant Parish--they 
endorsed us with open arms. The police jury did vote for us. We 
had the support of the mayors, the Chamber of Commerce. They 
attended trips with us to Washington before they testified to 
Interior on our behalf.
    On Exhibit B, on the maps, they are borrowed from a book 
written by several Indian history experts published before 
enactment of the Gaming Regulatory Act. These maps as well as 
thousands of pages of historic documents demonstrate the 
Choctaw connection to the area of Logansport and northwestern 
and central Louisiana. After lengthy consultation with the 
Department of Interior, we submitted an application by the two-
part determination process. This process requires the 
collection and submission of the factual information that is 
time consuming, that is vastly expensive, and imposes great 
hardships particularly on landless tribes. These burdens are 
even more severe in our case where casino interests were 
actively seeking to prevent us from infringing on their 
markets.
    In December of 2003, after reviewing the merits, Interior 
ignored the rhetoric and issued a positive two-part 
determination because it requires the Governor to concur in 
that determination, and because neither former Governor Foster 
nor current Governor Kathleen Blanco have responded to 
Interior's request for concurrence, it appears that the 
Logansport land will not be taken into trust.
    As a result, my tribe is forced to return to our home 
parishes and attempt to develop a facility in a community which 
clearly opposes our presence there. In these home parishes, we 
live with these people. We go to school with them. We work with 
them. We attend church with them. Again, we are constantly 
being turned back even in our own surrounding communities. We 
are made to be felt ashamed of bringing a casino to this area. 
Our people now are just beginning to hold their heads up high 
and be proud of who they are, but with the negative publicity 
that we receive, that Jena has been around the State forum 
shopping, continues to hold my people down. Even my son 
attended a church service last Sunday where the pastor said 
that he was writing to the Governor to oppose any further 
expansion of gambling in Louisiana. I tell him to hold his head 
up high and be proud of who he is and that he has the rights 
that are afforded other Indian tribes and other entities in 
this State. We are asking for that right to be given to us.
    We have lived here before gambling. We can continue to 
survive and will live after gambling is over with or continues 
to be here, but it needs to be done away with, is my feeling, 
if we are not allowed to participate in this activity also.
    Perhaps we were naive when we first considered Indian 
gaming the vehicle for economic development. We had no concept 
of the degree to which our efforts would become the focus of 
the extremely well-funded attacks from Las Vegas, not only from 
them, from tribes such as Coushattas, from the Mississippi 
Choctaw. We were not expecting this type of opposition. The 
opposition of well-heeded, well-established gaming concerns can 
make it incredibly difficult for newly recognized tribes to 
participate in the economic benefits for which have been made 
available to most other tribes. This very much has become a 
struggle between the haves and the have nots.
    It is my hope that our story of the long and difficult road 
upon which my tribe has been made to travel will give the 
Committee and the public a better sense of the realities facing 
landless tribes. It is imperative that the public debate about 
off-reservation gaming be conducted within the context of these 
realities and within the context of the historical facts which 
have left tribes like mine in significantly disadvantaged 
positions.
    We hurt. We cry. And yet we rejoice in the celebration of 
life that God has given us. As long as I have breath in me, I 
will continue to move my tribe forward to seek a better way of 
life for my people so that we may be strong, so that we may be 
proud, and we may be productive and give back to our creator 
and share with the others the many blessings such as the 
freedom that we enjoy today. That very freedom is what allows 
me the right and opportunity to seek the health and well-being 
and pursuit of happiness for my people.
    So my point here is I want you to realize that we were a 
landless tribe. We did not seek out off-reservation, so to 
speak, only because we took direction from our Governor. We 
tried to meet and work with our local state political body in 
securing a place to go for my people, and we will continue this 
pursuit.
    Thank you so much for allowing me this opportunity to meet 
with you and speak with you today.
    [The prepared statement of Ms. Norris follows:]

   Statement of Chief Christine Norris, Jena Band of Choctaw Indians

    Chairman Pombo and members of the Committee, I thank you for this 
opportunity to speak today on behalf of the Jena Band of Choctaw 
Indians of the State of Louisiana. I appear before you in my official 
capacity as the elected Chief of my Tribe.
    It is our understanding that the focus of today's hearing is on the 
policies and procedures which govern the federal government's 
acquisition of trust title for off-reservation lands pursuant to the 
requirements of Section 20 of the Indian Gaming Regulatory Act ( IGRA 
). As you know, Section 20 effectively prohibits gaming on off-
reservation lands acquired in trust after October 17, 1988, unless one 
of several exceptions is applicable. Three of the exceptions--initial 
reservation, restored lands for restored tribes, and land acquired in 
the settlement of a land claim, are intended to even the playing field 
for tribes that either had no land, or were dispossessed of their land, 
when IGRA was enacted in 1988. The fourth exception--the so-called 
``two-part determination''--is available to all tribes. The two-part 
determination is, in many ways, the most difficult of the exceptions to 
satisfy because it effectively requires the consent of the people who 
live in the local area, and it explicitly requires the consent of the 
governor.
    The policies and procedures of Section 20 are of particular 
importance to tribes like mine, which are newly recognized or recently 
restored to federal recognition. For us there is no such thing as ``on-
reservation'' gaming because we have no reservation. Unless we can meet 
one of Section 20's exceptions, we can never reach a level playing 
field with the vast majority of other tribes, which are free to game on 
their reservations without resort to the onerous and expensive fee-to-
trust process and without the impediments inherent in the Section 20 
limitations on gaming on after-acquired lands.
    Over the last few years, the rhetoric surrounding off-reservation 
fee-to-trust acquisitions has heightened to a fevered pitch. Like many 
others, my Tribe often has been accused of ``forum shopping'' for ``far 
flung'' lands. These accusations have been hurled at us not so much by 
persons who genuinely oppose gaming on moral or religious grounds, but 
rather by persons representing the interests of some of the sixteen 
non-Indian casinos and three Indian casinos already operating in the 
State of Louisiana. Indeed, in our experience, the folks who most often 
cry ``forum shopping'' are not concerned about federal Indian policy, 
tribal historical connections to certain lands, or even the moral or 
social propriety of gaming; rather, these folks are driven by a desire 
to protect the market share of existing gaming operations, both Indian 
and non-Indian.
    I can think of no other factual and legal situation which better 
illustrates the conundrum in which landless and nearly landless tribes 
find themselves than that of my Tribe. For this reason, in your general 
deliberations on the policy and legal questions inherent in the debate 
on off-reservation gaming, I respectfully urge you to consider our 
story and the difficulties we have faced. I urge you to remember that 
newly-recognized and newly-restored tribes have faced particularly 
difficult legal and financial hurdles not generally faced by landless 
tribes. I urge you not to make those barriers any more difficult.

Brief History of the Jena Band of Choctaw
    Through nine treaties executed between 1786 and 1830, the Choctaw 
Nation ceded approximately 23.4 million acres of land to the United 
States. Most Choctaw were removed to Oklahoma through the infamous 
Trail of Tears, but a few scattered groups remained in Mississippi and 
Louisiana. One of those groups eventually settled near the small town 
of Jena, Louisiana. We are direct descendants of those Choctaws. In the 
late 1800s the federal government again sought to remove remaining 
Choctaw to Oklahoma, promising abundant land for those who would 
remove. Acting on this promise, some of the Jena Band's ancestors 
walked along railroad tracks all the way to Oklahoma, only to learn 
that the Oklahoma membership rolls had been closed and that there were 
no lands left for allotment. Our ancestors returned to our traditional 
homelands in Louisiana, having no choice but to live as sharecroppers 
on the very lands they had occupied before they left for Oklahoma.
    For many years the Bureau of Indian Affairs provided modest 
services to our people, and at one point the Bureau even planned to 
move us to Mississippi in order to provide us with land. Due to a lack 
of federal funding, however, this was never accomplished. Despite the 
fact that we descended from a treaty-recognized tribe, and despite the 
fact that we had received Bureau services in the first half of the 
twentieth century, the Bureau failed to include us on its initial list 
of tribes first published in 1979. As a result, we were forced spend 
substantial time researching and applying for formal federal 
recognition through the Bureau's administrative process. It took 
sixteen years but we finally obtained federal acknowledgment in 1995.
    When the Jena Band obtained federal recognition in 1995, we had no 
trust lands and no reservation. Not one acre of land was set aside by 
the federal government as a reservation. We had no state reservation. 
We also had no money.

Our Efforts to Create a Reservation.
    Recognizing that we would need a tribal land base adequate to 
provide housing, governmental and cultural services to our people, we 
identified properties within our three-parish services area that could 
form the basis of our reservation. We then asked the Department of the 
Interior to acquire trust title to these properties and designate them 
as our initial reservation. (I note that the total acreage for all of 
the lands for which we have applied for trust status is less, on either 
a straight acreage basis or a per capita basis, than the reservation 
land bases of the three other federally-recognized tribes in 
Louisiana.)
    In addition, my Tribe determined that it wished to conduct a tribal 
gaming operation to generate the revenue needed to provide 
governmental, health and human services to our people. However, my 
Tribe's three-parish service area is located in a very conservative, 
very religious part of our state. Each one of the parishes which 
comprise our service area rejected the allowance of gaming of any kind, 
Indian or non-Indian, in a state-wide referendum vote in 1996. I would 
like to refer you to Exhibit A attached to my testimony, which is a map 
of the parishes of the State of Louisiana that shows where gaming has 
been allowed by public referendum and where it has not. You'll see that 
there are ``0'' gaming devices allowed in any of our three parishes 
(Rapides, Grant and LaSalle). For this reason, and for the reasons 
described below, we made every effort to locate a gaming site outside 
the three-parish service area.
    The one parcel which has not been taken into trust by the federal 
government is the one on which we had hoped to develop a class III 
gaming facility. Let me tell you briefly about that parcel.
    From the time of our initial discussions in mid-2000, our former 
governor, M.J. ``Mike'' Foster, informed us that he would not negotiate 
a tribal-state gaming compact with us for any facility located within 
our three-parish service area, and would oppose our efforts to acquire 
trust lands within the three-parish service area. Despite the fact that 
all three other federally-recognized tribes in Louisiana operate gaming 
facilities pursuant to such compacts, it was Governor Foster's 
contention that he would not force any type of gaming facility upon any 
parish that had expressed its opposition to gaming through the 1996 
state referenda. Further, our tribal members have lived all their lives 
with our neighbors. We were cognizant of our neighbors' views, and were 
hopeful that we might be able to find an alternative site outside our 
service area so as not to offend the sensibilities of those neighbors. 
For these reasons, and these reasons alone, we embarked on a several-
year effort to identify an alternative site for our gaming facility, 
one located outside our service area, but still located within an area 
with which our people had a historical connection. I respectfully refer 
you to the two maps provided at Exhibit B to my testimony. These maps 
are borrowed from a book written by several Indian history experts 
published before enactment of the Indian Gaming Regulatory Act. 
<SUP>1</SUP> These maps demonstrate the Choctaw connection to this area 
of Louisiana. (I note that we have provided thousands of pages of 
documentation to the Department of the Interior documenting our 
historical connection to that area of the State.)
---------------------------------------------------------------------------
    \1\ Fred B. Kniffen, Hiram F. Gregory & George A. Stokes, The 
Historic Tribes of Louisiana (1987).
---------------------------------------------------------------------------
    Perhaps most importantly, however, we sought to identify a site in 
an area in which the local people affirmatively wanted to host a tribal 
gaming facility. We found such a site in Logansport, Louisiana. 
Logansport is located in DeSoto Parish, which unfortunately suffers 
from one of the highest unemployment rates, and from some of the lowest 
family income averages, in the State. For these reasons, Mayor Dennis 
Freeman and the DeSoto Parish Police Jury (the elected governing body 
of DeSoto Parish) have gone on record, in writing, over and over and 
over again supporting the placement of the Jena Choctaw gaming facility 
in their area.
    We applied to the Department of the Interior to have this 
Logansport land taken into trust. Because the land is located in an 
area with which we have a strong historical connection, and because we 
included the trust application for this land as part of our coordinated 
package of lands with which we were trying to create our reservation 
land base, we first asked the Department to include the Logansport land 
in our ``initial reservation.'' The Department declined to do this.
    We then submitted thousands of pages of information documenting our 
historical connection to the land near Logansport, and documenting our 
legal case for a determination that we are a ``restored'' tribe and 
that the Logansport parcel constituted ``restored lands'' within the 
meaning of the Indian Gaming Regulatory Act. While we provided those 
materials to the Department nearly two years ago, we are not aware that 
Interior has considered the merits of our request in any serious 
fashion.
    Finally, out of some level of desperation, despite the fact that we 
are a landless tribe, we agreed to submit a request that the Department 
review our application under the significantly more onerous standards 
imposed under the ``two-part determination process'' set forth in 
Section 2719(b)(1)(a) of IGRA. That provision requires Interior to make 
a factual determination that acquiring trust title to the property for 
gaming is first, ``in the best interest of the tribe,'' and second 
``not detrimental to the surrounding community.'' The Committee should 
be aware that the collection and submission of the factual information 
necessary to allow for such a determination is enormously time 
consuming and expensive, and imposes great hardships, particularly on 
landless tribes. In December 2003, Interior issued a positive two-part 
determination. Because IGRA requires the governor to concur in that 
determination, and because neither former Governor Foster nor current 
Governor Kathleen Blanco have responded to Interior's request for a 
concurrence, it appears that the Logansport land will not be taken into 
trust.
    As a result, my Tribe is left with no alternative but to return to 
our three-parish service area to try to develop a gaming facility. We 
do this with heavy heart. We looked forward to working with a community 
desirous of our presence--a community with which we had worked closely 
for several years to develop a win-win partnership for all of our 
people. Instead, we are forced to return to our home parishes and 
develop a facility in a community which clearly opposes our presence 
there. It is difficult to believe that this is what the framers of IGRA 
intended.
    As of the date of this hearing, nine years after receiving federal 
recognition, we are still without a single parcel of land on which we 
may legally conduct gaming activities.

Conclusion
    Perhaps we were naive, but when we first considered Indian gaming 
the vehicle for economic development, we had no concept of the degree 
to which our efforts would become the focus of virulent and extremely 
well-funded attacks from both Las Vegas-based non-Indian casino 
operations and from other tribes, most notably the Coushatta and the 
Mississippi Choctaw. The opposition of well-heeled, well-established 
gaming concerns can make it incredibly difficult for newly-recognized 
tribes to participate in the economic benefits which have been made 
available to most other tribes. This very much has become a struggle 
between the haves and the have-nots.
    It is my hope that the story of the long and difficult road upon 
which my Tribe has been made to travel will give the Committee and the 
public a better sense of the realities facing landless and nearly 
landless tribes. We urge that the Committee help better inform the 
public about the legal and practical realities facing tribes like ours 
and about the significant obstacles inherent in acquiring off-
reservation land in trust. It is imperative that the public debate 
about off-reservation gaming be conducted within the context of these 
realities, and within the context of the historical facts which have 
left tribes like mine in significantly disadvantaged positions.
    I once again thank you for the opportunity to tell the Jena Band of 
Choctaw Indians' story today. I would be most happy to answer any 
questions you may have.

[GRAPHIC] [TIFF OMITTED] T4995.001

[GRAPHIC] [TIFF OMITTED] T4995.002

[GRAPHIC] [TIFF OMITTED] T4995.003

                                 ______
                                 
    Chairman Pombo. Thank you.
    Chief Bearskin.

 STATEMENT OF CHIEF LEAFORD BEARSKIN, TRIBAL CHIEF, WYANDOTTE 
 NATION, WYANDOTTE, OKLAHOMA; ACCOMPANIED BY DAVID McCULLOUGH, 
                            ATTORNEY

    Mr. Bearskin. Chairman Pombo and members of the Resource 
Committee, I thank you for inviting me here today. I consider 
it a great honor and a privilege.
    My name is Leaford Bearskin. I am the elected chief of the 
Wyandotte Nation. I have been the chief for almost 22 years 
after being elected in 1983. I understand that the purpose of 
my testimony today is to discuss gaming off reservation in 
restored and newly-acquired lands. My tribe, the Wyandotte 
Nation, opened a casino in Wyandotte County in Kansas on August 
28, 2003 after a long and bitter legal study. Although there 
are probably others who are more qualified than I to speak 
about Indian gaming, perhaps none share the scope of magnitude, 
fears, and frustrations that I and my people have encountered.
    On April 2, 2004, after 214 days, we opened our doors and 
created 48 full-time jobs in Kansas City, Kansas. The Attorney 
General of Kansas ordered 23 armed troopers to raid our 
facility and threaten patrons and workers alike. These men 
seized all our assets and arrested our manager, Ellis Enyart. 
Phill Kline, the highest-ranking law enforcement officer in 
Kansas later explained his actions as enforcing the laws of the 
State of Kansas.
    We ask how could this happen. It turns out that the 
Attorney General's actions, namely that of invading our 
sovereign lands, were precipitated by a legal opinion drafted 
by a part-time attorney working for NIGC. This opinion, in 
short, stated that our reservation located in Wyandotte County, 
Kansas on land that my ancestors named was, quote, not Indian 
land because it was not lands acquired in settlement of a land 
claim.
    I believe that the U.S. Government should follow the law 
and not let bureaucrats interpret the laws contrary to what 
Congress has passed. The law that the Wyandotte Nation is 
following was passed by Congress, not an attorney at the NIGC 
who arbitrarily decided that she had the power to harm my 
nation as she did so.
    Over the years, the Wyandottes have signed 19 treaties with 
the U.S. Government. Of these, we have a perfect record. There 
are 19 that have been broken, but not by us. I believe there 
are illegal and political attempts to break another agreement, 
not a treaty, but a law, Public Law 98-602 passed in 1984. I 
was there when it happened, and I think some of you were too. 
It was a land claim settlement bill. I want to emphasize that.
    We have land in trust in Kansas City. This land was taken 
into trust for the Wyandotte Nation following every law, every 
statute, every standard given by the United States for us to 
follow based on a law passed by this body through this 
committee in 1984. Some people think that laws only apply to 
the Wyandottes if they can be used against us. The legal twists 
and turns in this case have been so numerous and in some cases 
so ridiculous that it is hard for me. I cannot begin to explain 
them in detail, but rest assured, we have followed the law to 
the letter in everything we have done.
    Right now, this law is being distorted and used against the 
Wyandotte Nation. We believe this is not right, but 
historically this has always been the case. Whenever an Indian 
nation has something that someone else perceives to be of 
value, it is usually taken away using legal and political 
means. This statement is indisputable. The horrific history of 
this Nation in regards to the way my people, the Wyandotte 
Nation, and the rest of the Indian nations have been treated is 
very real and very well documented.
    In the other chamber of this body, there is a resolution 
apologizing to the American Indian for the way we have been 
treated by the U.S. Government. I appreciate this very, very 
much. I ask that the United States follow the laws that it made 
and stop the harassment of my people through illegal means by 
some of the leaders of the State of Kansas. We have followed 
the law. We are being harassed and attacked by the leaders in 
the State of Kansas simply because they think they can get away 
with it. We feel we are right, and we will continue to fight 
this out because we are right and because our rights are being 
trampled by a State Attorney General who decided that without 
following the law, he could attack my nation and close down my 
casino on our trust land.
    I hope and pray that my testimony here today will stir this 
committee to action to protect and defend those of us that are 
playing by the rules and aspiring for the right of economic 
freedom and prosperity.
    There are things that I know. I know that the Congress of 
the United States passed Law 98-602 on October 30, 1984. It was 
a land claim settlement bill. I want to emphasize that again. I 
know because I was there. I think some of you were there. We as 
a nation have struggled now for almost 20 years, ever since the 
Congress passed Public Law 98-602 in October of 1984. That law 
was passed by the Congress to settle the decades of old land 
claims for lands that were taken from my ancestors illegally. 
Over 8 years ago, the Secretary of the Interior signed a deed 
of trust for lands that the Wyandotte purchased in accordance 
with Law 98-602 in July 1996. According to the Bureau of Indian 
of Affairs, that land could be used by the Wyandotte for 
economic development purposes.
    As we sit here today, every conceivable effort has been 
made by competing interests, politicians, and even legal 
authorities to deprive the Wyandotte of their legal rights. In 
short, these people have used every means to deprive my people 
of a chance--no, not a chance, but of the right to economic 
prosperity that Congress declared we had over 20 years ago.
    I am not here for a handout. I am asking for a hand up. All 
I ask is that this country, the United States of America, live 
up to their word, their word written in Public Law 98-602, and 
allow the Wyandotte Nation to move forward with our economic 
development. Specifically, I ask this committee to re-affirm 
that Public Law 98-602 was a land claim settlement, and if we 
do that, we will take care of all the rest ourselves. I think 
enough is enough.
    Thank you very much.
    [The prepared statement of Mr. Bearskin follows:]

            Statement of Leaford Bearskin, Col. USAF, Ret., 
                        Chief, Wyandotte Nation

    Chairman Pombo and Members of the Resources Committee. Thank you 
for inviting me to testify here this morning. It is a great honor and 
privilege.
    My name is Leaford Bearskin. I am the elected Chief of the 
Wyandotte Nation. I have been the Chief for almost twenty-one years, 
having been first elected in 1983.
    I understand that the purpose of my testimony today is to discuss 
gaming on off-reservation, restored, and newly-acquired lands.
    My Tribe, the Wyandotte Nation, opened a Casino in Wyandotte 
County, on August 28, 2003, after a long and bitter legal struggle.
    Although there are probably others who are more qualified than I to 
speak about Indian Gaming, perhaps none share the scope of magnitude, 
fears or frustrations that I and my people have encountered.
    On April 2, 2004, 204 days after we opened our doors and created 48 
full time jobs, the Attorney General of Kansas ordered 23 armed 
troopers to raid our facility, threaten patrons and workers alike. His 
men seized all of our assets and arrested our Manager, Ellis Enyart.
    Phill Kline, the highest-ranking law enforcement officer in Kansas, 
later explained his actions as ``enforcing the Laws of the State of 
Kansas''.
    How can this happen, you may ask? It turns out that the Attorney 
General's actions, namely that of invading our sovereign lands, were 
precipitated by a legal ``opinion'' drafted by a part time attorney 
working for the NIGC. This ``opinion'' in short stated that our 
reservation, located in Wyandotte County, Kansas, on land that my 
ancestors named, was ``quote'' not Indian Land because it was not land 
acquired ``in settlement of a land claim''.
    I believe that the United States Government should follow the law 
and not let bureaucrats interpret the laws contrary to what congress 
has passed. The law that the Wyandotte Nation is following was passed 
by Congress, not an attorney at the NIGC who arbitrarily decided she 
had the power to harm my nation and then did so.
    Over the years, the Wyandottes have signed 19 Treaties with the 
government, and of these, we have a perfect record, there are 19 that 
have been broken, and none of them by the Wyandotte Nation.
    I believe there are legal and political attempts to break another 
agreement, not a treaty, but a law, Public Law 98-602 passed October 
30, 1984. I was here when this passed, and so were many of you. It was 
a land claim settlement bill.
    We have land in trust in Kansas City. This land was taken into 
trust for the Wyandotte Nation following every law, every statute, and 
every standard given by the United States for us to follow based on a 
law passed by this body, through this committee in 1984, Public Law 98-
602.
    But it seems that laws only apply to the Wyandottes if they can be 
used against us.
    The legal twists and turns in this case have been so numerous, and 
in some cases so ridiculous that it is hard for me to try and explain 
them in detail, but rest assured we have followed the law to the 
letter.
    Right now, the law is being distorted and used against the 
Wyandotte Nation, and this is not right, but historically, that has 
always been the case.
    Whenever an Indian has something that someone else perceives to be 
of value, it is usually taken away using legal and political means. 
This statement is indisputable, and the horrific history of this nation 
in regards to the way my people, the Wyandotte people, and the rest of 
the Indian Nations have been treated is very real, and very well 
documented.
    In the other chamber of this body, there is a resolution 
apologizing to the American Indian for the way we have been treated by 
the United States government.
    I appreciate the gesture, but I would just as soon that this nation 
follow the laws that it made, and stop the harassment of my people 
through illegal means by some of the leaders of the State of Kansas.
    We have followed the law, and are being harassed and attacked by 
the leaders of the State of Kansas, simply because they think they can 
get away with it.
    We are right, and we will continue to fight this out, because we 
are right and because our rights are being trampled by a state attorney 
general who decided that without following the law, he could attack my 
Nation and close down our casino located on trust land.
    I also hope that my testimony here today will stir this committee 
to action, to protect and defend those of us that are playing by the 
rules, and aspiring for the right of economic freedom and prosperity.
    All I know is that the Congress of the United States passed Public 
Law 98-602 on October 30, 1984.
    It was a land claim settlement bill.
    I know, because I was there.
    So were some of you!
    We as a nation have struggled now for almost twenty years, ever 
since the Congress of the United States passed Public Law 98-602 in 
October of 1984. That law was passed by the Congress to settle a 
decades old land claim for lands that were taken from my ancestors 
illegally.
    Over eight years ago, the secretary of the Interior, signed a deed 
of trust for lands that the Wyandotte purchased in accordance with Law 
98-602 in July 1996. According to the Bureau of Indian Affairs that 
land could be used by the Wyandotte for economic development purposes.
    As we sit here today, every conceivable effort has been made by 
competing interests, Politicians, and even Legal Authorities to deprive 
the Wyandotte of their legal rights. In short, these people have used 
every means to deprive my people of a chance, no, of the right, to 
economic prosperity that congress declared we had over twenty years 
ago.
    I'm not here for a hand out. All I ask is that this country, the 
United States of America live up to their word, the word written in 
Public Law 98-602, and allow the Wyandotte Nation to move forward with 
their economic development.
    Specifically, I ask this committee to reaffirm that Public Law 98-
602 was a land claim settlement bill.
    Enough is enough!
    Thank you.
                                 ______
                                 
    Chairman Pombo. Thank you very much.
    I would also like to acknowledge that the chief is 
accompanied by David McCullough, who is an attorney. He was 
sworn in, so he is available for questions.
    I am going to recognize Mr. Tauzin first.
    Mr. Tauzin. Chief, let me first extend to you, as my 
colleague did, my warmest appreciation on behalf of a grateful 
Nation for your service to our country and for your 
extraordinary career. We thank you for that, sir.
    I want to turn to Principal Chief Norris and to follow up 
on the conversation that I had with Ms. Martin. Let me first 
acknowledge to you, Chief, that my culture, the Acadian Cajun 
culture of Louisiana, shares some of your experiences. We were 
blended people in Nova Scotia, and in the French Indian War the 
Brits were involved in, they ended up acquiring the land, the 
sovereignty over Nova Scotia and ended up deciding that we were 
not a trustworthy people since we were of French descent, and 
they gathered us up at a little church in Beau Pre and without 
warning put us on ships, put my ancestors on, separated 
husbands and wives and kids on purpose, put them on ships and 
dumped them on foreign lands. Some of them were sold into 
slavery. Some were dumped into the islands of the Caribbean. 
Most were dumped on the shore of Maryland and Massachusetts 
with no prospects.
    Longfellow wrote a beautiful epic poem, ``Evangeline'', 
telling the story of my people and how these two lovers who 
came to the church at Beau Pre to be married that day were 
separated were and spent their lives trying to find one 
another. It is a beautiful fictitious story, but nevertheless 
it tracks a real story of the Acadian people whose land was 
taken from them and never compensated and relocated and 
struggled to find a home in Louisiana.
    So I share some of your feelings about the history of our 
government and the way it has treated Indian tribes in our 
country and the way in which land issues have been resolved, 
and I sympathize deeply with some of your arguments. I 
particularly was impressed with the presence of the Choctaws in 
Louisiana. When I saw the historic presentation you were making 
to the Bureau of Indian Affairs, it occurred to me that it was 
terribly incomplete. There was much more information you could 
have gathered. For example, one of the communities that my 
grandmother was born in, Leontine Delotte, was a place called 
Choctaw, Louisiana in Ward Six next to Chackbay where I was 
born. Achaphalia is, I think, a Choctaw word itself. So many 
words in the language of the community of our State is Choctaw 
Indian origin.
    So I was deeply impressed with the presentation, frankly, 
you were making, and as you know, I did my best to ensure that 
you got a fair process. I think you got slow-rolled, and I 
think, as I said, the process worked against you and you didn't 
get a fair chance, and I am sad about that as I am sad about 
many of the interactions of our government with Indian 
populations over the history of our country and the results 
that sometimes end up I think unfairly treating your 
populations.
    And so I thank you for all of your testimony today. I don't 
know how this is going to work out for you, Chief Norris. 
Again, when we met and you presented your case, I made no 
commitments to you on whether you should win or lose, but 
simply that you got a fair process, and I am not sure you got 
it, and I feel deeply hurt and disappointed that that happened. 
Perhaps it can be rescued at some point and your landless tribe 
can be made whole and you can have a fair chance to do what any 
other Indian tribes are doing in our State, and that is 
competing in this area that has meant such great resources to 
my friends of the Chitamachas and the Coushattas and others in 
the State who have benefited.
    I have watched the Chitamachas, what their tribe has been 
able to do for their families because of the revenues derived 
from their casino. When I first got elected, there was no 
casino. There was a 600-acre plot. I went to the first 
graduation ceremonies. There were two kids graduating out of 
kindergarten into first grade and one going from eight to 
twelve, but it was a wonderful ceremony. I remember the tribe 
was there to celebrate these young people.
    I saw the poverty of those families, and I see the 
difference now. I see the senior centers. I see the health care 
center, the fire department that has been built, the rec 
centers, the cultural center that has been established to teach 
the young children of the tribe the history and the culture of 
their people. I have seen what an amazing advantage the casino 
has been to giving these poor families a share of the American 
dream. I wish you would have had that opportunity like the 
Chitamachas, and 1 day I hope you have that chance.
    And I can only do something that I think you deserve, and 
that is offer you an apology that the process didn't work out 
as fairly as I think it should have. You should have been given 
a chance at success, and I don't think you have.
    And I yield back the balance of my time.
    Mr. Bearskin. Thank you, sir.
    Mr. Tauzin. I recognize Mr. Pallone for a round of 
questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I am just trying to make sense of, you know, how this all 
fits into the overall issue of IGRA and off-reservation-
acquired land. It seems to me that Mr. Stevens is saying that 
essentially IGRA should be allowed to continue the way it is 
and supports the status quo and thinks that the system works 
well, and the other two tribal leaders are suggesting in both 
their cases that maybe it doesn't because you see that somehow 
you should be an exception on don't fall within IGRA exactly 
the way it might be interpreted.
    But I still don't understand. In other words, in the case 
of the Jena Band, you have been following the IGRA process, but 
ran into a problem because of the Governor, because of the 
change in the administration, and now the Governor doesn't 
support it; is that the main problem that you face right now? 
You said you actually met the two-part test. Right?
    Ms. Norris. Yes. Yes. In December of last year, the 
Interior issued a statement in concurrence with the Governor of 
Louisiana who at that time was Governor Mike Foster, that they 
would take the land into Logansport into trust for gaming for 
the Jena Band.
    Mr. Pallone. But now there is a change of administration.
    Ms. Norris. Yes. He passed it along to the new 
administration, which is Kathleen Blanco, the Governor of 
Louisiana.
    Mr. Pallone. Now, would you suggest--I am just trying to 
move it along because I want to ask the other Chairman a 
question too. Would you suggest that there be a change in IGRA, 
or you just feel that right now you have become blocked because 
of the change of administration?
    Ms. Norris. Once again, I believe another door has been 
closed to us. There are barriers that have hindered this tribe 
into pursuing gaming and moving further. We are at a roadblock 
because we have not heard from Interior. We have not heard from 
the Governor, only in a responsive letter dated June 1, 2004. 
So I am still left out in limbo as to what is going to be 
happening with this particular tribe.
    Mr. Pallone. So what would you suggest be done by the 
Committee or by Congress at this point to address your problem?
    Ms. Norris. To address my problem, I am looking for some 
responsibility to be taken in this case, whether it is from 
Interior, whether it is from the State, in issuing a 
concurrence or a nonconcurrence, but I am left just hanging 
there, and I think there needs to be a responsibility to our 
tribe, to our people, to bring resolution to this. I am asking 
for help in endorsing from your committee that some type of 
action be taken in our case so we can move forward to whatever 
we have to do next to resolve this issue.
    Mr. Pallone. OK. And then--
    Mr. Tauzin. Would my friend yield a second?
    Mr. Pallone. Yes. I do want to get to the other guy.
    Mr. Tauzin. I will just take a second.
    Mr. Pallone. Sure.
    Mr. Tauzin. One of the problems that we see in IGRA that is 
presented by the Jena Tribe is the fact that you have landed 
tribes and landless tribes. They happen to be a landless tribe, 
and so the way they are treated under the law is different from 
the way a landed tribe goes through the process, and they seem 
to be caught in this cycle of limbo where nobody gives them an 
answer. And that is their problem.
    Mr. Pallone. No. I understand, and I started in the 
beginning here saying although I generally agree with NIGA's 
position that we don't want to change IGRA, there may be cases 
where there is a problem, and I think you two are the hard 
cases, so to speak.
    As far as Chief Bearskin is concerned, now have you applied 
or ever proceeded through the IGRA process in trying to address 
your concerns?
    Mr. Bearskin. Yes, we have done that. We have complied with 
all the laws and stuff that we have to to get where we are 
going.
    Mr. Pallone. So the problem is that you claim you fall 
under the exception to IGRA, and the AG in Kansas disagrees. So 
what are you going to do now? What do you want us to do?
    Mr. Bearskin. We want you to reaffirm that the 98-602 says 
what it says and that our land was a land claim settlement.
    Mr. Pallone. And are you in court now or is this proceeding 
through IGRA or in the courts in any way, your claim?
    Mr. Bearskin. I think my attorney can better answer that 
than I can, sir, if you will.
    Mr. Pallone. Sure.
    Mr. McCullough. The answer is, yes, we are in court now. We 
are in State courts on the seizure that was made by the State 
of Kansas, and we are also in Federal Court asserting several 
challenges.
    Mr. Pallone. But are you looking for any particular 
legislation action by Congress to address this, or you are just 
going to proceed through the courts?
    Mr. McCullough. What we are looking for is we are actually 
focusing on the exceptions under the IGRA, as was correctly 
pointed out. The land that we have in trust was not taken in 
trust specifically through an IGRA process. The land was taken 
in trust because there was a special law for the Wyandotte, 98-
602 referred to by the chief several times, that in 1984 set 
aside $100,000 for the tribe to purchase land, and within that 
language of that particular bill was that the land--it was 
mandated that the Secretary take that land into trust, and we 
have gone through that process and the Secretary at the 
completion of that process took the land into trust in 1996. As 
I believe Mr. Skibine referred to earlier, at the time the 
exception we were relying upon, was that it was contiguous to 
reservation land. The Wyandotte has a tract of land in Kansas 
City, Kansas. The 10th Circuit at the completion of litigation 
over that issue determined that the particular tract of land 
did not qualify for reservation land under IGRA and therefore 
that exception did not apply.
    The Wyandotte then went back to the NIGC and put forth 
claims under essentially the three remaining exceptions, but 
specifically it was a land claim, the position of Wyandotte, 
that Public Law 98-602 which was the allocation of funds for 
Congress as a result of their claims was, in effect, a land 
claim. So we are here under the exceptions and the 
interpretations under those exceptions.
    Mr. Pallone. And you are still pursuing that in the courts 
at the same time?
    Mr. McCullough. We are.
    Mr. Pallone. OK.
    Thank you Mr. Chairman.
    Mr. Stevens. Chairman Pombo and Congress Pallone, I stand 
here as Chairman of the National Indian Gaming Association 
supporting the rights of these tribes. I just want to ask--
joining me today is our executive director, Mr. Mark Van 
Norman. If he could just give a brief overview of the intent of 
our testimony regarding that particular topic.
    Mr. Van Norman. Thank you, Mr. Chairman and Congress 
Pallone and Congressman Tauzin.
    What we intended by our testimony was to say that the 
Indian Gaming Regulatory Act provides provisions to right 
historical wrongs. The point of having the land claim 
settlement provision is for the tribes that have had a land 
claim settlement can use their lands the same way that other 
tribes can use their lands, and the point is that relates back 
in time to their original holding of the lands. That is a 
simple matter of justice for them to use their lands.
    Similarly, when you have tribes that have been through the 
removal process, passed over by the United States, and are 
restored to recognition, it is entirely appropriate and just a 
matter of simple justice for the tribes to have an initial 
reservation that they can use as other Indian lands are used. 
So we think that the act, properly applied, would take care of 
these positions, situations. We are not saying that the BIA has 
properly applied it in every case, but we think that the 
statute would make a provision for that and that the BIA should 
take a look at these cases and act appropriately.
    That is what we are saying.
    Mr. Pallone. OK. Thank you.
    Ms. Norris. Congressman Pallone and Chairman, if I may, to 
clarify my answer to your question on behalf of the Jena Band, 
I would like to ask Heather Sibbison to offer up comments on 
your question. That is what we are here for today, to give you 
a little bit better understanding of our situation.
    Ms. Sibbison. Actually, I would just essentially reiterate 
Mark's point, which is basically there are two kinds of 
exceptions to the rule that you can't game on land acquired 
after 1988. There is the regular exception, which is a two-part 
determination, and that requires that you put this package of 
goodies together, you get the government on board, you get the 
locals on board, and there is a pretty standard set of data, 
some information you have to be able to provide, and you have 
to be able to show certain things to be able to be successful 
to go through that exception.
    Then there is sort of the second package of exceptions 
which are really intended to put tribes that were either not 
recognized in 1988 on equal footing with tribes that were 
recognized in 1988, because by definition those tribes do not 
have reservations on which to conduct on-reservation gaming 
operations; and similarly, as Mark is saying, the settlement of 
the land claim exception is intended to put a tribe back on the 
position it would be in if it hadn't lost its land before 1988, 
usually through an illegal transaction based on the non-
intercourse act. So that the second group of exceptions is 
intended to put tribes that were disadvantaged because they 
weren't in the right--just by historical accident weren't in 
the right place on October 17, 1988, back to where they should 
be.
    In a sense and almost in defense of the Department, I think 
part of what is happening is that there are no real guidelines 
as to how to interpret those three exceptions, how to decide 
what is appropriate to be in this reservation, what are the 
standards by which you should decide whether a tribe is a 
restored tribe and whether the lands are being restored to it, 
and that the problem with the public policy debate and the 
rhetoric on off-reservation gaming is there really are no 
discernible standards. And so from the Department's standpoint, 
it puts the Department in a very awkward position by which, 
frankly, I think that they are stymied. It is hard for them to 
make decisions because they are afraid they are going to make 
the wrong decision. Congressman Tauzin is right. They end up 
just not making a decision.
    And in the Jena Band's case, you are right. The reason, in 
my opinion, the Department was much more comfortable going 
through a two-part determination, which is not really 
appropriate for this tribe--it is a landless tribe--they are 
more comfortable because there is a precedent for it. The 
Department knows what to look for, knows that the Governor is 
on board, knows that the locals are on board. They have done it 
before. The Department would have to correct me, but I think on 
initial reservation, there is only ever been one or two, if 
ever. There have been very few restored lands, and the problem 
is everyone is just having a hard time figuring out where they 
fit, and it puts the tribes in a particularly awkward position 
because you can't go to a statute or regulation and say, OK, I 
fit here for sure. And you have to spend a lot of time and 
money trying to convince the Department that you should fit in 
that exception, and it is hard for the Department to know 
whether you do or not because there are no guidelines, and then 
this feeds back into Congressman Tauzin's point about 
lobbyists, which is the public debate is so fevered on this 
issue now that it is hard to get to the merits and it does put 
the Department in an awkward position where it is scary to get 
to the merits unless there are clear standards because of the 
public debate and the public debate is being fueled by 
unfortunate elements and which then gets back to Mark's point, 
which is that I think the statute structurally is OK. It has 
built into it flexibility for these tribes that were not sort 
of up and running in 1988, for whatever reason, but there have 
to be regs or guidelines or more thought from you guys to 
Interior, telling them what you expect them to do, because I 
think they don't know what to do, and it has put the tribes in 
a very awkward position.
    Mr. Bearskin. Mr. Chairman, if I may, I would like 
permission for my attorney to make one more statement for us, 
if you would, please.
    Chairman Pombo. Yes.
    Mr. McCullough. Mr. Chairman, I want to be clear as a 
follow-up in the response that I made a few minutes ago, that I 
believe the specific question was were we looking for some 
change in IGRA by this, was that our proposal, and the answer 
is no. We believe there needs to be more clarification as to 
how the exceptions are applied; however, in the case of the 
Wyandotte, what we believe is that Public Law 98-602, enacted 
in 1984, was in settlement of a land claim. The National Indian 
Gaming Commission has found that it was not by applying the 
standards that they applied. What we are asking for this 
committee to do is to reiterate what was done in 1984, that 
this land was set aside for the Wyandotte in settlement of a 
land claim and therefore, under IGRA, is it is a land claim 
settlement which falls under the exception.
    Thank you.
    Chairman Pombo. OK. Mr. Stevens, you know as well as anyone 
the pressures and the controversies that this committee is 
dealing with when it comes to this issue.
    Mr. Stevens. Sure.
    Chairman Pombo. And we have talked in the past about trying 
to clarify this issue through legislation and trying to deal 
with it, which is exactly what the intent of Congress is, 
because a lot of times when Congress passes a law, as it gets 
interpreted through a number of different administrations, we 
end up with situations that may or may not really be within 
what Congress originally intended. And we have looked at a 
number of different ways of trying to clarify this. Obviously, 
if we try to move forward, there will be a lot of consultation 
and a lot of talk between this committee and you and your 
membership in trying to deal with how you clarify this. One of 
the big issues that we deal with is landless tribes and how do 
they ultimately fit into this picture and how do we move 
forward.
    But one question I have for you is if you have differences 
of opinion amongst your membership as to whether or not 
something should or should not be approved, do you take a 
position on that?
    Mr. Stevens. Absolutely not, sir. We represent 
approximately 180 tribes, and it is our standing policy that we 
do not involve others with issues between tribes. As a matter 
of fact, the National Congress of American Indians has a 
standing resolution, which is our colleagues here in D.C., and 
I wrote the resolution several years ago. So we stand away from 
issues where there are tribes that have differences.
    Chairman Pombo. So if there is a difference of opinion 
amongst the tribes, then you just stay out of it, you don't 
take an opinion on that issue?
    Mr. Stevens. That is right.
    Chairman Pombo. When it comes to landless tribes, should 
those tribes be required to acquire land for gaming purposes 
inside their lands claim area or within the area where the 
tribe resides? Where do you guys generally come down on that?
    [Mr. Stevens confers with Mr. Van Norman.]
    Mr. Stevens. I'm sorry. I just want to make sure I am on 
legal standing with my partner here on this business. In 
general, we continue to assert historically, an historical 
basis.
    Chairman Pombo. Now, do you believe that if you have a 
tribe that has historical lands and they are in very isolated 
area, that they should be allowed to seek lands in an area that 
is more heavily populated or better suited for gaming purposes?
    Mr. Stevens. I think it applies to the Section 20 process. 
I think that it is a natural, I think, to look for a good area, 
but I think we constantly assert the historical rights of 
tribes, and that is why I gave probably a little more 
historical overview than people really wanted to hear today; 
but for us, to the tribes, it means a lot considering what we 
have been through throughout the years from European contact 
until now.
    Mr. Van Norman. Mr. Chairman, could I just amplify that a 
little bit?
    Chairman Pombo. Yes, Mark.
    Mr. Van Norman. We do think it is important that there be a 
thorough consultation through the Section 20 process that takes 
into account the interests of neighboring tribes, and we 
thought that that is an important part of the process because, 
you know, those tribes, the Federal Government also has a trust 
responsibility to those tribes.
    Chairman Pombo. Well, I have some different ideas that the 
Committee has been working on to try to deal with this, which 
is one of the reasons we wanted to do this hearing, so we could 
kind of figure out what are some of the challenges we are up 
against in trying to move forward with this, but I appreciate 
the testimony of this panel.
    Mr. Baca, did you have any questions?
    Mr. Baca. Yes, I did do. Thank you very much, Mr. Chairman. 
I have a question for Mr. Stevens.
    In your testimony, you state that the Secretary of Interior 
has a trust responsibility to neighboring tribes as well as 
tribes who apply for gaming away from the reservations. Do you 
believe that this trust responsibility has been kept?
    Mr. Stevens. Well, you know, I struggle with the words 
``trust responsibility'' as it pertaining to tribes overall and 
certainly historically. You know, I don't really want to look 
back over it and would like to look forward and try to assert 
that we need them to hold on and--I'm sorry--need to stand by 
that trust responsibility from here into the future. So for me 
to look back and point out, there are probably several points 
in the past that I could assert concern about trust 
responsibility, but I would look more to the future for these 
tribes that are in the process.
    Mr. Baca. And that is following the Section 20 process too 
as well, right, which is part of what the responsibility of the 
trust fund is, to make sure that they are compliant with the 
policies that are currently in place. Is that correct?
    Mr. Stevens. Yes.
    Mr. Baca. And just as a follow-up, do you believe that the 
consultation process between the Secretary and the neighboring 
tribes can be improved? If so, how?
    Mr. Stevens. I'm not sure if I understand your question.
    Mr. Baca. It is just a follow-up to the original one, 
question. First of all, the first question was do you believe 
the trust fund's responsibility has been kept. You answered 
that. As a follow-up to that, how do you believe that the 
consultation process between the Secretary and the neighboring 
tribes can be improved?
    Mr. Stevens. How do I believe it can be improved?
    Mr. Baca. Um-hum.
    Mr. Stevens. I just think it is just straightforward 
communication between all the principals involved.
    Mr. Baca. Do you or anyone have a problem, I think to 
follow up on what the Chairman indicated in reference to one 
tribe--and I think all of us believe in historical land and 
rights of tribes within their own areas, but do you believe 
that tribe should have the right because they look at a gold 
mine or a probability of a highway or a freeway, that they 
should be allowed to come, let's say in California, for 
example, from a northern portion of California to southern 
California even though it is not near their reservation or have 
no reservation or have no identify in that area, but yet there 
are other tribes that are close by that do have a closer 
identity?
    Mr. Stevens. No, sir. Again, we continue to assert 
historical tribal homelands.
    Mr. Baca. And that means that basically what you are saying 
is a tribe that is within that area who asserted that area and 
lived in that area then should have that right versus a tribe 
who does not that wants to come from another portion for the 
sake of gaming or other purpose?
    Mr. Stevens. Yes. I think it is pretty safe to say that 
when we are asserting historically, that we are not condoning a 
tribe coming from some other place and going to no place that 
they have ever been in their history just for the purposes of 
going where there is a large freeway and a large market.
    Mr. Baca. And that would create disharmony amongst the 
current legislation that is in place. Correct?
    Mr. Stevens. I think it would.
    Mr. Baca. And it would create chaos and disharmony in terms 
of a concept of sovereignty and protection of sovereignty too 
as well. Is that correct?
    Mr. Stevens. Yes, I think so, and I just want to make sure, 
Congressman, you understand--and I said this to Chairman 
Pombo--that even though we stand away when there are issues, 
the National Indian Gaming Association, you know, we will meet 
in the next two days. We have a mid-year meeting in August. We 
continue to work cooperatively. So on these issues, we are 
talking about them and we are working on these issues. We just 
don't get into specifics. So I don't want to in any way, shape, 
or form tell you that I don't want nothing to do with this. I 
am here to advocate for resolution, for the rights of these 
tribes and all Indian tribes. So we are not like standing away 
and saying we are hands off. We want to help, but on the 
specific issues, we have to stand clear, but we consider this 
very much a concern of ours.
    Mr. Baca. Thank you very much.
    Mr. Tauzin. Mr. Chairman.
    Chairman Pombo. Mr. Tauzin.
    Mr. Tauzin. Mr. Stevens, you heard Ms. Sibbison, her 
comments that at least from the Jena perspective what they saw 
was a Federal Government agency who felt of kind of caught 
between their duty to operate in the best interest of the 
existing tribes who had casinos and at the same time work 
through the question of this landless tribe who is filing an 
application based upon historic connection, and her evaluation 
of the problem that the department is that it doesn't have good 
objective criteria to determine historic connection and that 
without much more clarity and much more certainty in defining 
that criteria, the department is afraid that it is going to 
violate one duty or the other; it is caught in between.
    Do you concur with that analysis and would you support 
Jena's request that either the Congress or the Department work 
out some clear regulations, some clarity, some objectivity in 
the historic connection review so that your position that 
historic connection can be a real and objective standard for 
determination of these landless tribes as to where they might 
go?
    Mr. Stevens. Certainly we support resolution to that. You 
know, again, we assert the rights of these tribes, and I would 
like to ask Mark to give you a little bit more legal review on 
it.
    Mr. Tauzin. Please. Do you agree with Ms. Sibbison's 
analysis or do you agree with it or would you support our 
request, perhaps, for the agency to adopt objective criteria 
for determining historic connection?
    Mr. Van Norman. I think I agree with Ms. Sibbison's 
analysis that there are two parts to the statute.
    Mr. Tauzin. Obviously.
    Mr. Van Norman. One is for the historical injustices and to 
address land settlements and newly recognized tribes, and the 
other is a Section 20 process which is more of a consultation 
process with the local government and neighboring communities, 
and then the way we see it, the Governor has an obligation to 
act in good faith and take into account the interests of all 
parties concerned. We don't think that the statute needs to be 
amended at this time.
    Mr. Tauzin. She didn't recommend that. All she recommended 
was that there be more clarity at the Department. The 
Department is not afraid to make a mistake, that it knows 
literally how to evaluate historic connection claims.
    Mr. Van Norman. I think one of the problems with the 
Department is they don't have deadlines that they act upon.
    Mr. Tauzin. Exactly.
    Mr. Van Norman. And they take too long to get things done.
    Mr. Tauzin. Exactly.
    Mr. Van Norman. And I think if the Department were to adopt 
internal deadlines, that that would help these situations.
    Mr. Tauzin. That is an additional good recommendation, Ms. 
Sibbison. So what we are hearing from you is that maybe the 
Department needs, number one, deadlines in which to give 
somebody an answer so you are not stuck in limbo and, second, 
some clarity in knowing how to evaluate these applications.
    I just want to amplify what Ms. Sibbison said. What I 
learned in watching this process is that is exactly what 
happened, that because there was difficulty in reviewing all of 
this historic information and knowing how much more research 
the tribe had to do to satisfy what might be the requirements 
of the law and because the Department obviously is concerned 
that it is balancing its duties here, that if it violates one 
side or the other, it is going to find itself in court, so it 
is slow to give an answer. Even if it had a deadline, it would 
probably try to skip a deadline.
    So the impression I am getting and the recommendations I am 
hearing, Mr. Chairman, is that the Department needs some 
clarity in the criteria and maybe some deadlines to work under 
so that these tribes who are making these applications know 
exactly what they have to do if they are going to try to move 
to another piece of land, what is exactly required of them; and 
second, that the department has some confidence in making a 
determination on time that they are not going to get sued by 
both sides because there is too much ambiguity in the process.
    I am not against lobbying. I am not against lobbyists. I am 
not saying that. But the ambiguity feeds this lobbying fever 
and it puts heat on the Department not to make a decision, 
which is exactly what happened in our case, and maybe we could 
have fairness and justice in many of these historic claims if 
we just had clarity, more certainty in the process, and maybe a 
deadline or two for the Department to work under.
    Is that a fair evaluation?
    Mr. Van Norman. I think we would be in favor of deadlines.
    Mr. Tauzin. But you never told me whether you would be in 
favor of us asking for them to be more--regulations to clarify 
historic connection. Do you favor that or not?
    Mr. Van Norman. Well, we would have to take a look at them. 
One of the things that you will find--
    Mr. Tauzin. Why? Why wouldn't you support that?
    Mr. Van Norman. Well, you know, there is a wide variety of 
circumstances that will come up, and you will see--
    Mr. Tauzin. That is the problem. There are so many 
circumstances, the Department doesn't know which circumstances 
count and which don't, whether a tribe spending the night in an 
area is historic presence or whether they had a village there. 
The point I am making is why wouldn't you support the 
Department coming up with much more certainty and much clearer 
standards for settling these very difficult areas? Why wouldn't 
you support that?
    Ms. Sibbison. Let me clarify too, I actually meant sort of 
across the board, not just historical connection.
    Mr. Tauzin. Yes.
    Ms. Sibbison. The degree to which local--what is going on 
locally--
    Mr. Tauzin. The whole scene.
    Ms. Sibbison. The whole thing, because I agree with Mark 
that they really do need to be looked at on a case-by-case 
basis and you know need to look at all the puzzle pieces 
together to figure out what the right thing to do is.
    Mr. Tauzin. But you are not saying anything different, I 
don't think. That is why I think we have agreement here.
    Ms. Sibbison. Yes.
    Mr. Tauzin. And if we have agreement, it might be very good 
for all of you to make a request on our committee to help make 
that happen, because we can. We can help make that happen, not 
changing the law, by simply helping the Department to side some 
kind of agreement, some arrangements whereby all the parties 
feel like they are going to get an objective rather than a 
subjective decision out of the Department.
    Thank you.
    Mr. Bearskin. Chairman Pombo, can I make a statement about 
that?
    Chairman Pombo. Yes, sir.
    Mr. Bearskin. We are now working with the third Governor of 
Kansas. Before we get anything done, we may be working on the 
fourth one. I believe in deadlines, yes, sir.
    Mr. Stevens. I just want to assert, Congressman and 
Chairman, that these concerns will be brought forward to the 
tribal leadership and we will continue to discuss this and try 
to bring forward some proactive recommendations.
    Mr. Tauzin. Thank you.
    Mr. Stevens. Yes, sir.
    Chairman Pombo. I am going to dismiss this panel, but I 
would remind you that members of the Committee may have 
additional questions that they will submit to you in writing. 
If you would answer those in writing, the hearing record will 
be held open to give you a chance to respond to those.
    Thank you.
    I would like to now call up our final panel of witnesses, 
who are: Deron Marquez, Chairman of the San Manuel Bank of 
Mission Indians; Leslie Lohse, Treasurer of the Paskenta Band 
of Nomlaki Indians; and Kurt Luger, Executive Director of the 
Great Plains Indian Gaming Association.
    Before you sit down, I am going to have you all stand up 
for a minute. If I could have you all stand and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Pombo. Let the record show they all answered in 
the affirmative.
    Thank you very much. To begin with, I want to apologize for 
the length of the hearing. I know you all have been waiting, 
but it is something that, obviously, the members have a lot of 
interest in.
    Mr. Marquez, we are going to begin with you.

             STATEMENT OF DERON MARQUEZ, CHAIRMAN, 
               SAN MANUEL BAND OF MISSION INDIANS

    Mr. Marquez. Good morning, Chairman Pombo and Rank Member 
Rahall. My name is Deron Marquez, Chairman of the San Manuel 
Band Mission Indians based in southern California. I appreciate 
the invitation to testify before you.
    The subject of acquiring landing to establish tribal 
casinos away from existing tribal homelands is a great concern 
of ours, that this sort of land acquisitions threatens not only 
San Manuel and its interest in particular and its ancestral 
homelands, but also the very existence of tribal government 
gaming in the future. For centuries, San Manuel people occupied 
the San Bernardino and San Gabriel Mountains and their southern 
foothills, the Mojave Desert and Napa Valley and out to Barstow 
and areas as far east as Twentynine Palms and Yucaipa Valley. 
Today, the San Manuel reservation is located in a small area, 
850 acres located near San Bernardino and Highlands in 
California.
    In 1986, San Manuel first established gaming on our 
reservation as a tool for generating revenues for our tribe. 
Since that time, we have heard elders from our tribe and many 
others say that tribal gaming will 1 day go away, that this 
source of subsistence will 1 day be part of our history rather 
our present. And what then will we have to sustain others? Our 
answer at San Manuel has been to diversify our economy and 
tribal holdings, but I fear that once again our elders will be 
right, acquisition of land for gaming purposes far away from 
existing reservation homelands and the enormous sacrifices that 
tribal communities must make to do so may be the beginning of 
the ends of our tribal government gaming and sovereignty as we 
know it today.
    Tribal government gaming has proven to be a useful tool for 
tribes to become more self-sufficient and more able to provide 
opportunities for tribal members to live more abundant lives. 
Gaming has provided resources for tribes to more effectively 
protect their sovereignty rights where they have come under 
increasing threat. It has provided tribes with the opportunity 
to focus on revitalizing tribal languages and cultures where 
poverty made survival the first obligation for many Indians. It 
has given tribes opportunity to reacquire lands that were sold 
or taken from them in more desperate days and make them a part 
of tribal territory once again.
    Without a doubt, acquiring land is key for some tribal 
communities to continue to rebuild themselves. There is much 
work to be done for most tribal communities to ensure that 
their homelands are protected and suitable into the future, but 
the efforts to acquire lands far from existing reservations 
brings added scrutiny from the general public and now the 
Congress to land acquisitions and makes such reacquisition 
efforts more difficult, and not long ago, reacquiring land to 
build new schools or homes for tribal members did not receive 
the level of suspicion it does today. Seeking to have land 
taken into trust now takes longer than ever to accomplish. Now 
the highest levels of Congress have taken notice of this 
practice and rightfully so.
    Casino deal acquisitions are not a new idea, but one that 
has been refined by clever casino developers. A new pattern is 
non-Indian casino developers matching tribes with economic 
depressed non-Indian communities in efforts to pull together a 
casino deal. Often times, the tribe's existing reservation and 
the non-Indian community are miles and miles apart. With such 
deals, there can be hidden costs of non-Indian communities 
seeking short-term economic relief who are ill-equipped to 
adequately assess the entities and individuals they are 
partnering with.
    This is a hard lesson learned by some Indian tribes. There 
is now such a casino deal in the works in San Manuel ancestral 
land in the California Cities of Asperia and Barstow. The 
proposed land acquisition of Asperia is more than a hundred 
miles from the existing reservation of the Timbisha Shoshone 
Tribe, and although with a legislative slight of hand, this 
deal is more moving forward as an initial reservation rather 
than after-acquired lands under the Indian Gaming Regulatory 
Act, therefore the Department of Interior is not required to 
consult with San Manuel even though this land is within our 
ancestral territory and is much closer to our reservation than 
the existing Timbisha Shoshone Reservation. Furthermore, it may 
not require the concurrence of the Governor to be completed.
    Similarly, the Barstow deal would allow the Las Coyotes 
Band to build a casino over a 160 miles from its reservation, 
again, encroaching on our ancestral lands and others.
    These proposed casino deals and ones similar to them have 
the added effect of creating enormous tension between tribes 
who have claims to these lands as ancestor homelands as well. 
The long-term cost to tribes for this activity may also be 
substantial. Tribal government is a tool not a toy. Tribal 
sovereignty should be exercised responsibly for history shows 
that Congress and the courts give little patience where such 
powerful rights are abused.
    That concludes my testimony. I will be pleased to answer 
questions when it is time.
    [The prepared statement of Mr. Marquez follows:]

                 Statement of Chairman Deron Marquez, 
                   San Manuel Band of Mission Indians

    Good morning, Chairman Pombo and Ranking Member Rahall. My name is 
Deron Marquez, Chairman of the San Manuel Band of Mission Indians based 
in Southern California. I appreciate the invitation to testify before 
this Committee on the subject of acquiring lands to establish tribal 
casinos away from existing tribal homelands. I have great concerns that 
these sort of land acquisitions threaten not only San Manuel and its 
interest in protecting its ancestral homelands but also the very 
existence of tribal government gaming in the future.
    For centuries, our Serrano people occupied the San Bernardino and 
San Gabriel Mountains and their southern foothills, the Mojave Desert 
near Apple Valley and out to Barstow, and areas as far east as Twenty-
nine Palms and Yucaipa Valley. Today, the San Manuel Reservation is 
located on a much smaller area, 850 acres located near San Bernardino 
and Highland, California. In 1986, San Manuel first established gaming 
on our reservation as a tool for generating revenues for our Tribe. 
Since that time, we have heard elders from our tribe and many other 
tribes say that tribal gaming will one day go away. This source of 
sustenance will one day be a part of our history rather than our 
present. And what then will we have to sustain ourselves? Our answer at 
San Manuel has been to diversify our economy and tribal holdings. But I 
fear that once again our elders will be right. Acquisition of land for 
gaming purposes far from existing reservation homelands--and the 
enormous sacrifices that tribal communities must make to do so--may be 
the beginning of the end of tribal government gaming.
    Tribal government gaming has proven to be a useful tool for tribes 
to become more self-sufficient and more able to provide opportunities 
for tribal members to live more abundant lives. Gaming has provided 
resources for tribes to more effectively protect their sovereign rights 
where they have come under increasing threat. It has provided tribes 
with the opportunity to focus on revitalizing tribal languages and 
cultures where poverty made survival the first obligation for many 
Indians. It has given tribes opportunity to reacquire lands that were 
sold or taken from them in more desperate days and make them a part of 
tribal territory once again.
    Without a doubt, reacquiring land is key for some tribal 
communities to continue to rebuild themselves. There is much work to be 
done for most tribal communities to ensure that their homelands are 
protected and sustainable into the future. But the efforts to acquire 
lands far from existing reservations brings added scrutiny from the 
general public and now the Congress to land acquisition, and makes such 
reacquisition efforts more difficult. Not long ago, reacquiring land to 
build new schools or homes for tribal members did not receive the level 
of suspicion it does today. Seeking to have land taken into trust now 
takes longer than ever to accomplish. Now the highest levels of 
Congress have taken notice of this practice and rightfully so.
    Casino deal land acquisitions are not a new idea but one that has 
been refined by clever casino developers. A new pattern is non-Indian 
casino developers matching tribes with economically depressed, non-
Indian communities in efforts to pull together a casino deal. 
Oftentimes, the tribe's existing reservation and the non-Indian 
community are miles and miles apart. With such deals, there can be 
hidden costs to non-Indian communities seeking short term economic 
relief who are ill-equipped to adequately assess the entities and 
individuals they are partnering with. This is a hard lesson learned by 
some Indian tribes.
    There is now such a casino deal in the works in San Manuel 
ancestral lands in the California Cities of Hesperia and Barstow.
    The proposed land acquisition in Hesperia is more than 100 miles 
from the existing reservation of the Timbisha Shoshone Tribe. And 
through a legislative slight of hand, this deal is moving forward as an 
``initial reservation'' rather than an ``after acquired'' lands under 
the Indian Gaming Regulatory Act, therefore the Department of the 
interior is not required to consult with San Manuel, even though this 
land is within our ancestral territory and is much closer to our 
reservation than the existing Timbisha Shoshone Reservation. 
Furthermore, it may not require the concurrence of the Governor to be 
completed.
    Similarly, the Barstow deal would allow the Los Coyotes Band to 
build a casino over 160 miles from its reservation. Again, encroaching 
on the ancestral lands of others.
    These proposed casino deals and ones similar to them have the added 
effect of creating enormous tension between tribes who have claims to 
these lands as their ancestral homelands as well.
    The long-term costs to tribes for this activity may also be 
substantial. Tribal government is a tool, not a toy. Tribal sovereignty 
should be exercised responsibility, for history shows that the Congress 
and the courts give little patience where such powerful rights are 
abused.
    That concludes my testimony. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    Chairman Pombo. Thank you very much, Chairman.
    Ms. Lohse.

             STATEMENT OF LESLIE LOHSE, TREASURER, 
                PASKENTA BAND OF NOMLAKI INDIANS

    Ms. Lohse. Yes. Thank you, Chairman Pombo, for inviting us 
here today.
    As Treasurer of the Paskenta Band of Nomlaki Indians and 
NCAI Pacific Region Area Vice President and the BIA Policy 
Committee Chair, those leadership roles have allowed me a vast 
opportunity to experience tribal government and gaming related 
issues. We know that nationwide, obviously, after hearing all 
of this this morning and knowing what has been going on, that 
gaming on off-reservation and restored and newly-acquired lands 
is a national issue, but locally for us, it is Tahema County.
    Tahema County supervisors have had to twice reject a tribe, 
the Greenville Maidu, of Plumas County's proposals to do gaming 
in Tahema County noting that they have previously tried to go 
down into southern California, Oxnard, California Bay Area, 
California. The Tahema County supervisors understand, as we 
understand, the Hardwick case which clearly identifies 
Greenville's historical lands to be in Plumas County which 
where it states 275 acres is located three miles east of 
Greenville, Plumas County, California. So you must remember we 
talked about and recognition. They were re-recognized as Maidu, 
not as a tribe of Wintun or Nomlaki, which we have shown 
through anthropological letters and maps that designate clearly 
Tahema County as Wintun Nomlaki territory, not Maidu.
    So as the Tahema County supervisors and we reject 
Greenville and their investors, the Wilmots as they are 
identified in their records, their attempt to negatively impact 
our homelands, this relocation is identified and driven by the 
tribe's out-of-state profiteer who purchased land in Tahema 
County. Their legal counsel, Judy Albietz, in her own statement 
reflects that the developer approached the tribe with this 
project. No consideration was given to Greenville's historical 
area because that was not where the investor purchased the 
land, and then they hired an out-of-state revisionist historian 
to rewrite our history to try and link a tribe, the Greenville 
Maidu, with the investor-purchased land. In fact, the only 
connection with that area is the fact that the Maidu member, 
one of them at one time, married a Wintun Nomlaki or a Wintun 
from the area.
    This is a disturbing and exploitive picture of tribal 
governments. As the Chairman said, this continues to bring 
object about terms like ``reservation shopping'', questions 
about who we native Americans are and where we are truly from. 
It undermines the unrecognized tribes's attempts to regain 
their recognition.
    I heard this morning about fairness, that IGRA was going to 
provide fairness. Is that fair? Higher scrutiny is given to our 
desire to protect our sacred sites and our cultural resources. 
Is that fair? Negative impacts due to the deals for this these 
off-reservation gaming virtually bring in state taxation. I 
heard that this morning. Is that fair? State and local 
jurisdiction over our tribal lands, that is not fair. The 
backlash and pressure on us who are currently compacted to make 
the same deals offered by those going off reservation, that is 
a negative impact economically as well as tribally and 
culturally.
    All of these concessions are made that will forever affect 
our tribe. While the Wilmots of the world make their profits 
from Indian gaming and move on, we are left with that fair 
share that we have to provide to the States.
    IGRA has worked for many years. These types of attempts to 
gain far-stretched off-reservation acquisitions have made 
review of IGRA even an issue. I don't believe that IGRA 
supports these types of land claims. I know the BIA does 
struggle with the legal and political realities of off-
reservation land acquisitions. My concern, though, is the 
statement by Mr. Skibine that said that tribes's opinions and 
local tribes, their opinions about what is happening, does not 
impact as greatly as local communities. I differ with that. We 
have heard conflicting reports about the limits that IGRA does 
not expand but restricts the gaming by disallowing newly 
acquired far from current or prior reservations to do gaming. I 
think the key still remains, the State, local, Federal and 
local tribal concurrence.
    We support any reasonable effort by other tribes to improve 
their economic situation and we would be open to the Greenville 
Maidu in their attempt to make a gaming facility on their own 
ancestral territory, but as they proceed today, we will stand 
firm to this type of off-reservation gaming acquisition as do 
the Tahema County supervisors, and this type of acquisition 
only further perpetuates the terms ``off-reservation gaming is 
reservation shopping'', the questions about who we are as 
Native Americans and where we are from and the notion that we 
are merely special interest groups given an unfair opportunity 
to do gaming on land, and it is a shame that we can only take 
pride in being Indians and tribal nations if we are doing 
gaming, as I heard earlier.
    Again, overall, IGRA has worked over the years when applied 
properly, and State and local and Federal concurrence is 
supported and included. We support your continued efforts to 
address IGRA and ensure the local community and local tribal 
involvement.
    Again, thank you very much for your time and I appreciate 
the opportunity. I know there are a lot of other pressing 
things on your agendas, but again, thank you.
    [The prepared statement of Ms. Lohse follows:]

                 Statement of Leslie Lohse, Treasurer, 
             Paskenta Band of Nomlaki Indians of California

    Chairman Pombo and members of the Committee, I would like to thank 
you for the opportunity to testify on the subject of Gaming on Off-
Reservation, Restored and Newly-acquired Lands. As Treasurer of the 
Paskenta Band of Nomlaki Indians of California, I am very involved with 
the issues of gaming, including but not limited to the economic 
development opportunity, tribal-state compacting, land into trust, and 
governmental jurisdiction. I am here today with full authority and 
direction from the Paskenta Band of Nomlaki Indians of California 
Tribal Council. We are very pleased to see the Committee has taken the 
time to address this very important issue, even though we know that 
your committee has numerous important tribal and non-tribal issues to 
address on a daily basis.
    As the National Congress of American Indians (NCAI) Pacific Region 
Area Vice-President and U.S. Bureau of Indian Affairs Central 
California Agency Policy Committee Chairperson, I have become 
increasingly aware and knowledgeable of the many struggles of Tribal 
Governments dealing with the issues related to gaming on off-
reservation, restored and newly-acquired lands. Although, for the 
record, I am here to represent only my Tribe, my statements will 
reflect my experience and acquired knowledge from being a 
representative of the above-mentioned organizations. Because of the 
precedents that could be set for Indian Country, I feel it is very 
important to deliver pertinent information that will assist the 
Committee with its findings.
    Many examples of the issues arising from off-reservation gaming are 
taking place throughout the United States, in California and within our 
own County of Tehama. As you may know, the 87-adult member Greenville 
Maidu Indians of Plumas County, California (their ancestral territory) 
is seeking to relocate to Tehama County, California (the aboriginal 
territory of the Paskenta Band) for the sole purpose of conducting 
gaming. This quest by the Greenville Maidu follows prior efforts to 
engage in commercial gaming on other off-reservation locations in 
Oxnard, California and the Bay Area (San Francisco-Oakland, 
California).
    For a second time, the Greenville Maidu have approached the Tehama 
County Supervisors with their proposal to develop a casino and 
ancillary facilities. Previously, the Tehama County Supervisors 
rejected the Greenville Maidu proposal, but were approached again by 
the Tribe with a new agreement. The Minutes of the Meeting of the Board 
of Supervisors of the County of Tehama, Tuesday, May 18, 2004, 
(Attachment A, see Pages 14 & 15) reflect the following statements made 
by Legal Counsel for the Greenville Tribe, Judith Albietz: Ms. Albietz, 
when asked why the tribe does not have land in Greenville and if a 
site-search was conducted and how this location was chosen, emphasized 
that ``the developer approached the Tribe with this project.'' Also, 
Ms. Albietz emphasized that ``the developer of the project, the 
Wilmots, will be a good partner with Tehama County.'' She further 
advised that ``there are very clear rules relative to this proposal, 
that there will be a seven-year management agreement, and that the 
facility will be run by the Wilmots.''
    The Greenville Maidu proposal presents a disturbing and exploitive 
picture of Tribal Governments throughout this great nation.
    To begin with, the Greenville Rancheria settlement is found in the 
Hardwick case. The stipulation and judgment in that matter provides 
that the exterior boundaries of the plaintiff tribes' individual 
reservations (rancherias) would be restored to pre-termination status. 
Therefore, the Greenville Rancheria's ``275 acres, is located 
approximately three miles east of Greenville, Plumas County, 
California.'' This indicates clearly that the United States and 
Greenville Rancheria recognize that the Greenville Maidu's proper land 
request should be limited to Plumas County, California, not Tehama 
County, California. But, the Wilmots have purchased property in Tehama 
County along Interstate 5. Therefore, the Wilmots want to relocate the 
Greenville Maidu to this new location. Such relocation will satisfy 
this out-of-state investor's appetite for profit. No consideration is 
being given to the Maidu's true ancestral territory or the land 
recognition indicated in the Hardwick case.
    Also, no consideration is being given to the fact that the proposed 
site is well within the ancestral territory of the Paskenta Band of 
Nomlaki Indians. As evidenced by Attachments B and C, the Paskenta 
people, classified as Nomlaki, also referred to as Wintun, Central 
Wintun, or Hill and River Wintun, resided ``in the Sacramento River 
Valley in present Tehama County, Cottonwood Creek forming the northern 
boundary, Stoney Creek forming the southern boundary, the foothill land 
to the west, extending to the summit of the Coast Range.'' We 
understand that the Wilmots have hired the services of an out-of-state 
genealogist to re-write the history of the Native Americans in 
California. Now, the Greenville Maidu claim that the ``Tribe's people 
have occupied areas along the Sacramento River,'' yet the ``Tribe's 
people'' is not defined and it is understood that the tie to Tehama 
County is through the marriage of a Greenville Maidu to a Wintun 
Indian. Therefore, the tie to the lands of Tehama is through the 
Wintun/Nomlaki, yet the revisionist historian would have history read 
that it is the Greenville Maidu Tribe which is culturally tied to our 
area.
    This disturbing stretch and re-write of our history by an out-of-
state revisionist historian and out-of-state profiteer undermines the 
core of every sovereign Indian nation. Such liberal re-writes bring 
questions from the non-Indian population about the validity of ``who we 
(Native Americans) are and where we are from-- and ensuing accusations 
of ``reservation shopping.'' We have many un-recognized Tribes waiting 
to be re-recognized, but such revisionist historical re-writes all but 
seal the fate of the many Indian nations that have true claims. As 
Chairperson of the Central Cal Agency Policy Committee and NCAI Area 
Vice-President, I have been approached by some of the unrecognized 
Tribes expressing their frustration and concern with the recognized 
Tribes taking such actions in order to pursue gaming.
    ``Reservation shopping'' has become the catch phrase in California 
as Tribes seek off-reservation land acquisitions to satisfy the gaming 
developers' wishes to garner larger profits from Indian gaming. We know 
that the Bureau of Indian Affairs struggles with the political and 
legal realities of this issue. We have read conflicting reports about 
whether the Indian Gaming Regulatory Act (IGRA) ``limits, not expands, 
the right to game'' by ``disallow[ing] gaming on newly-acquired lands 
far from the current prior reservation.'' Clearly, IGRA provides 
language that allows Tribes to game where ``such lands are located 
within or contiguous to the boundaries of the reservation of the Indian 
Tribe on October 1, 1988...'' 25 U.S.C. Sec. 2719 (a) (1), but the 
Greenville Maidu's improper claim that gaming on their currently 
proposed site is consistent with IGRA only further fuels negative 
issues arising from far-fetched pursuits to do off-reservation gaming.
    Such negative issues include, but are not limited to, virtual state 
taxation, state and local jurisdiction over tribal lands, negative 
economic impacts to other Tribal Governments and the cumulative loss of 
Indian Tribes' sovereign status. As with other Tribes across the nation 
that seek off-reservation gaming, the Greenville Maidu have offered up 
a substantial amount of money to the local community in order to buy 
their support. Also, they have offered up substantial local and state 
jurisdiction in order to buy support. The Greenville Maidu are 
currently without a Tribal-State Compact and will undoubtedly offer up 
even more money that will go into the State of California's general 
fund to address the State's current budget deficit. The backlash of 
such offerings is that the local and State governments begin to look 
upon us that are currently doing gaming in the same light. Thereby, we 
are pressured into making the same sort of deals in order to continue 
our gaming operation. Such undue pressure and Greenville's attempt to 
do off-reservation gaming in the Nomlaki homelands erodes our Tribe's 
economic stability. We do not believe the above-noted scenario was the 
intent of IGRA.
    Rather, we believe IGRA was written to support Tribal sovereignty, 
self-determination and growth. Instead, it is being used to degrade and 
detract from our Tribal Governments. As deals are cut, revisionist 
historians re-write our history, and profit-driven investors lure our 
Tribal Governments, our Tribal Nations we will continue to lose our 
identity. The next time we want to protect a sacred site or our 
cultural resources, greater scrutiny will be imposed upon us because of 
relocation(s) to off-reservation lands. Tribes are willingly signing 
and attesting to documents that will forever change our history and 
perhaps cause great damage to the future of Native Americans, all for 
the ``projected profits'' put before us by outside developers and 
investors.
    We understand that gaming provides an opportunity to gain revenue 
that may assist with the needs of Tribal Governments. But, as noted 
earlier in the statements by Greenville's legal counsel, Ms. Albietz, 
the Wilmots will run the operation and the Wilmots will be a good 
partner with the County. Based upon those statements we ask: Where is 
the Tribal Government? Where is the Tribal jurisdiction? Where is the 
protection of Tribal sovereignty? Concessions to the extent being 
offered up and the need to re-write history would not be necessary if 
the Greenville Maidu Tribe would stay within their own historical area. 
We know there is a viable market within Greenville's historical area, 
but the Wilmots have purchased property in the Paskenta territory. And, 
the concessions made will not affect the Wilmots down the line, because 
they will have made their profits from Indian gaming and move on. But, 
we as Indian Tribes will remain and suffer the backlash received due to 
the re-written history and the agreements drawn up that satisfy the 
developers' economic margins and needs.
    Mr. Chairman, I will be very clear that the Paskenta Band of 
Nomlaki Indians of California's primary concern is the erosion and 
degradation of our sovereign status as a Tribal Nation and our special 
relationship with the United States Government. Some will charge that 
our only concern is with competition, but we emphasize that competition 
from a Tribe having a legitimate land claim would be respected by our 
Tribe. Yet, what we see here is an attempt to do off-reservation gaming 
by a Tribe clearly driven by an out-of-state investor, and concessions 
and deals offered that will surely be disastrous to our Tribe's economy 
and sovereign status.
    We support the reasonable efforts of other Tribes to improve their 
economic situation, and will be similarly open to the Greenville Maidu 
in any attempt made within their own ancestral territory to do gaming. 
However, as the Greenville Maidu proceed today, we will stand firm 
along with the Tehama County Supervisors against this type of off-
reservation gaming acquisition. This type of acquisition only further 
perpetuates the term ``reservation shopping,'' the questions about 
``who we (Native Americans) are and where we are from,'' and the notion 
that we are merely ``special interest groups'' given an unfair 
opportunity to do gaming upon our tribal lands. Again, overall, IGRA 
has worked over the years when applied properly, and when state, local 
and federal concurrence and support is included. We support your 
continued efforts to address IGRA and to ensure local community and 
local tribal involvement.
    In closing, Mr. Chairman, I again would like to thank you and 
members of the Committee for the opportunity to testify on the subject 
of Gaming on Off-Reservation, Restored and Newly-acquired Lands. The 
Paskenta Band of Nomlaki Indians of California are very appreciative of 
you and your committee colleagues' time taken to review this issue, 
given the growing concerns and protection needs of this great United 
States of America. Thank you for your time, and I look forward to any 
questions you may have for me regarding this issue.

[NOTE: Exhibits attached to Ms. Lohse's statement have been retained in 
the Committee's official files.]
                                 ______
                                 
    Chairman Pombo. Thank you very much.
    Mr. Luger.

        STATEMENT OF J. KURT LUGER, EXECUTIVE DIRECTOR, 
             GREAT PLAINS INDIAN GAMING ASSOCIATION

    Mr. Luger. Good morning, Mr. Chairman and honorable Members 
of the Committee. I am a little upset now. Leslie stole my 
fire. She got it wrapped up pretty quick.
    To all my colleagues, I can hear my friends in the 
background whispering who is this guy, because I have a lot of 
friends, but I have my cowboy hat off. So I have new rules for 
this, only marrying, burying, and Congress. So I have a lot of 
respect for you.
    First off, I want to say who I am. I am Kurt Luger. I am 
the Executive Director of the Great Plains Indian Gaming 
Association. My office is in Bismarck, North Dakota. I am an 
enrolled member of the Cheyenne Sioux Tribe and either 
fortunately or unfortunately, I am Mark Van Norman's cousin.
    The other thing I want you to know is a little bit about 
who we are, real briefly. I represent 31 tribes from Montana to 
Kansas, nearly all the tribes that have gaming compacts. This 
issue is floating out there left and right. I heard some 
comments today that are a little shocking to me. I guess George 
Skibine kind of knocked me for a blow. I don't know how you can 
dream up out of the air a 50-mile radius, because I can justify 
it. Hell, in North Dakota, I drive 50 miles to go get gas to go 
another 50 miles to get groceries. It is insane.
    And so I guess what I am here to say--and I want to be 
brief. I was going to give you some background on our tribes, 
but I have that all into the written testimony. We have had 
plenty of pain and suffering across Indian country. I don't 
know that one tribe has received any more pain or less than 
others, but I do want to leave you with this thought: the 
Indian gaming where I come from is about jobs. We use the 
``revenue'' word too darn much. I was suffering in 75 percent 
unemployment in my region and all the social ills that come 
without a job: alcoholism, drug abuse, the domestic violence, 
everything else. Indian gaming has been a huge success in rural 
America, and I certainly don't subscribe to the ``Time 
Magazine'' seen article.
    I have 17 million acres of trust and nearly a quarter of a 
million Indians where I work, and one of the things that we 
feel strongly about and so far we have been able to do in my 
region, we don't pay revenue sharing. The States that we have 
been in, we have been able to convince that it would be 
detrimental to do so. The same with this off-reservation 
scenario. I think it is absolutely critical that those historic 
tribes that have operations on their reservation be given some 
deference. We have a situation now at home, the Band of 
Chippewa, after watching the news reports coming out of 
Minnesota this last session between Red Lake and White Earth 
and the rest of those folks wanting to put up a Twin Cities 
joint venture thing in Minneapolis, hell, before we knew it, we 
were paying for the Vikings and the Twins. That is how this 
stuff gets blown out of proportion.
    The one thing that I did want to say, obviously in our area 
it is jobs, but this type of discussion is dangerous to tribes. 
It pits tribes against tribes. I saw two Louisiana tribes here 
who feel very distinctly about one another, and I can't see 
that that is a healthy measure, and the one that isn't here 
seemed to be coming off as the bad guy that somehow I heard 
this world about lobbying heavy handed. What about them having 
a right to protect their own backyard? I am a cowboy, and I am 
telling you what. If somebody sticks a post hole in my 
backyard, I get a chance to say I don't want that post hole in 
there, and there is enough of this.
    Indian gaming was never promised to be a panacea to 
anybody. It was to be an upgrade for those that could take 
advantage of it and move their circumstances up. Now we find 
ourselves fighting about location and who has got more revenue 
in what market and things like that. It is getting confusing, 
and I am afraid that the American public is extremely confused 
about this. On our historical lands, Indian gaming is 
important. It is just one more arrow in the quiver and we treat 
it as such, and we have brought our argument to the States I 
have lived in. We don't pay revenue sharing. They understand. 
That is important to us.
    Just in North Dakota alone, that is 2,100 jobs in North 
Dakota, full time, pension and insurance, unheard for most 
tribal jobs. We have now one tribe that is looking at a 
scenario. Just by looking at it, we have been in the newspaper 
for about the last two months every day on every editorial 
page. They are 200 miles away from their reservation boundary. 
I have another tribe that is only 45 miles away, and these are 
the types of things that get brought to the table and we wonder 
how we get ourselves not unified.
    At the Great Plains Indian Gaming Association, we 
acknowledge the right of Indian tribes to apply to the 
Secretary to take land into trust for Indian gaming under 
Section 20 outside of its historic reservation, but we also 
acknowledge that some of these transactions have been 
controversial because those in nearby communities or members of 
neighboring Indian tribes may be impacted by the acquisitions. 
And I was a little bit taken back by Mr. Skibine and Ms. Martin 
today in saying that that tribal input didn't have very damn 
much weight, and that is what IGRA was about, to take and 
address the horrific unemployment situations on reservation in 
your homeland, and if you have good relationships with your 
neighbors and good communication with your neighbors, then 
nearly everything in Section 20 could be applied, but obviously 
there are places in Indian country that they are not being able 
to communicate or not being able to come to resolve, and it is 
ending up in these types of discussions.
    We feel it is very important for the Secretary to 
thoroughly consult with neighboring Indian tribes. I have $250 
million worth of infrastructure in North Dakota in those five 
tribes, $35 million a year payroll, $50 million a year purchase 
of in-State goods. If that off-reservation scenario hit in 
Grand Forks, all of them in isolated areas--you have to drive a 
couple of hours to get to each one of them--if one of those 
would go that way, one of two things are going happen: State-
authorized gaming is just going to get blown up to keep up with 
the competitive factor or, two, you are going to have four 
tribes not ever speaking to one tribe until hell freezes over, 
and that includes negotiations of the BIA and IHS, and that is 
why I say to my brothers here in this room gaming is not 
everything to us. That does not make us people. It is our 
homeland. It is our language. It is our perseverance. It is our 
ancestors, and if you can make it work for you, damn well good 
luck, but do not take this as the only opportunity and see a 
neighbor over there doing fairly well by it and take to that 
individual or that tribe. They are on their historic ground.
    Aboriginal claim? Hell, North and South Dakota is a total 
aboriginal claim. There isn't an acre in North and South Dakota 
that doesn't have an aboriginal claim to it, probably.
    So these things are pretty serious stuff. I have 2,000--
well, in my region, I have nearly 6,000 full-time employees 
that I am worried about, and I think that it is a must that the 
tribes have some input on this process under Section 20 so 
their negative is concluded with.
    In conclusion, I just want to say in our view at the Great 
Plains, the Secretary of the Interior must gather information 
through the consultation process necessary to protect existing 
Indian gaming on historic reservation lands because after all, 
the main purpose of the Act is to protect the historical rights 
to self-government on existing Indian lands. Under Section 20, 
in order to fulfill the Federal trust responsibility to protect 
Indian tribes, the Secretary of Interior must consult 
thoroughly with neighboring Indian tribes and to act to protect 
existing Indian gaming when considering any Section 20 
application for the use of after-acquired lands of Indian 
gaming. We believe that a thorough application of the existing 
law and clear focus on real and substantial consultation will 
ensure that the Section 20 process serves its purpose of 
generating a substantial local and tribal community consensus 
concerning the use of any after-land acquired for Indian 
gaming. This will avoid the need for an amendment to the Indian 
Gaming Regulatory Act.
    And in closing, I would just again thank you for your time, 
and I think that all of us in Indian country, we will be 
chewing this over amongst ourselves as well be, but I don't 
want those cross-comparisons to be made to my region. We don't 
pay revenue sharing. We are huge. We have long distances 
between us, and almost every little thing that one or the other 
does impacts us, and so I think it is important that tribes, 
the neighboring tribes--and I am not thrilled about this 50-
mile radius or hundred-mile radius. I don't imagine he could 
tell you where he pulled that out of the hat at. I have asked 
him twice, and he has never been able to give me an answer.
    And with that said, I would like to close my testimony and 
open up for any questions that you may have for me and I will 
be happy to answer them.
    [The prepared statement of Mr. Luger follows:]

            Statement of J. Kurt Luger, Executive Director, 
                 Great Plains Indian Gaming Association

Introduction
    Good morning. Chairman Pombo and Members of the Committee thank you 
for inviting me to testify today concerning Indian gaming on off-
reservation, restored, and newly-acquired lands.
    My name is J. Kurt Luger and I am a member of the Cheyenne River 
Sioux Tribe of South Dakota and my family resides on the Standing Rock 
Reservation near Ft. Yates, North Dakota. I serve as the Executive 
Director of the Great Plains Indian Gaming Association, which includes 
28 Indian nations from North and South Dakota, Nebraska, Iowa, and 
Kansas. We work closely with both the National Indian Gaming 
Association and other regional Indian gaming associations, including 
the Minnesota Indian Gaming Association. At Great Plains Indian Gaming 
Association, my job is to alert our Member Tribes to the challenges 
that we face in Indian gaming and to provide training and technical 
assistance to our tribal government officials, tribal gaming 
commissioners, gaming management and staff.
    At the outset, let me say that Indian gaming is working in rural 
areas of America. Indian tribes that faced 50, 60, and even 70% 
unemployment are now generating jobs not only for their own tribal 
members, but for neighboring non-Indians as well. I live and work in 
Bismarck, North Dakota so I will use the situation of the North Dakota 
Tribes as a representative example.

Indian Tribes in North Dakota
    In North Dakota, 5 tribal governments operate Indian gaming 
facilities: the Three Affiliated Tribes of Fort Berthold--Mandan, 
Hidatsa, and Arikara; the Spirit Lake Sioux Tribe, the Turtle Mountain 
Chippewa Tribe, the Standing Rock Sioux Tribe and the Sisseton-Wahpeton 
Sioux Tribe. Both the Standing Rock Sioux Tribe's reservation and the 
Sisseton-Wahpeton Sioux Tribe's reservation straddle the border with 
South Dakota.
    Three Affiliated Tribes. The Three Affiliated Tribes, Mandan, 
Hidatsa, and Arikara, operate as a unified tribal government. These 
Tribes have occupied the Missouri valley for hundreds and thousands of 
years, planted corn, squash, and beans on the fertile flood plains, and 
hunted buffalo and wild game. Living in stockaded villages, the Three 
Affiliated Tribes were devastated by smallpox epidemics in 1792, 1836, 
and 1837.
    Early on, the Three Affiliated Tribes established friendly 
relationships with the United States. They welcomed the Lewis and Clark 
expedition into their villages and assisted them on their journey. In 
1825, the Mandan, Hidatsa, and Arikara Tribes entered into Treaties of 

Friendship and Trade with the United States, which states:
        Henceforth, there shall be a firm and lasting peace between the 
        United States and the [Mandan, Hidatsa, and Arikara Tribes]... 
        The United States--receive the [Tribes] into their friendship 
        and under their protection.
The United States' treaty pledges of protection forms the basis for the 
Federal Indian trust responsibility. The traditional lands of the 
Mandan, Hidatsa, and Arikara encompassed an area of 12 million acres 
from eastern North Dakota to Montana and as far south as Nebraska and 
Wyoming. The Fort Laramie Treaty of 1851, congressional acts and 
executive orders reduced the Tribes' lands to 1,000,000 acres in 
western North Dakota.
    In the early 1950s, the Three Affiliated Tribes were asked to 
undertake a tremendous sacrifice by allowing the United States to dam 
the Missouri River and flood their reservation. The original tribal 
headquarters was flooded and families were moved away from the fertile 
Missouri River flood plain up on to the high prairie. When Lake 
Sakakawea was formed by the dam, the new lake divided the reservation 
into three parts. The Tribes suffered an enormous loss of natural 
resources, including the most fertile land on the reservation, their 
community was divided and the small village life that many had known 
along the Missouri River was gone. The tribal headquarters were 
relocated four miles away in New Town, North Dakota. Today, the tribal 
population is about 10,000 with about 5,000 living on the reservation.
    Spirit Lake Sioux Tribe. The Spirit Lake Sioux Tribe is composed of 
the Sisseton-Wahpeton and Yankton bands of the Dakota or Sioux Nation. 
Originally residing in Minnesota and eastern North Dakota, the Spirit 
Lake Sioux Reservation was established by the Treaty of 1867 with the 
United States. The Treaty of 1867 provides that: ``The--Sioux Indians, 
represented in council, will continue--friendly relations with the 
Government and people of the United States''.'' The Treaty recognizes 
the Spirit Lake Sioux Reservation as the ``permanent'' reservation of 
the Tribe.
    The Tribe has worked to develop jobs through manufacturing, 
providing Kevlar helmets and military vests to the Pentagon through 
Sioux Manufacturing Corporation, yet with a reservation population of 
over 6,000 people, the Tribe has struggled with 59% unemployment as the 
Defense Department budget was cut in the 1990s. The Spirit Lake 
Reservation encompasses 405 square miles north of the Sheyenne River in 
northeastern North Dakota.
    Turtle Mountain Chippewa Tribe. The Chippewa or Ojibwe people 
originally inhabited the Great Lakes Region and began to hunt and trade 
in North Dakota in the late 18th and early 19th Centuries. 
Historically, the Chippewa and the Dakota fought wars with each other, 
but they settled their differences through the Treaty of Sweet Corn in 
1858.
    In 1882, Congress set aside a 32 mile tract in Northeastern North 
Dakota for the Turtle Mountain Band of Chippewa 11 miles from the 
Canadian border. With the passing of the great buffalo herds, the 
Chippewa turned to agriculture and ranching, and faced many 
difficulties due to encroachment by settlers. Today, almost 20,000 
tribal members live on the 6 x 12 mile Turtle Mountain reservation, and 
Belcourt, North Dakota has become the 5th largest city in the state.
    Standing Rock Sioux Tribe. The Standing Rock Sioux Tribe is 
composed of Sitting Bull's Band, the Hunkpapa, and the Yanktonai, with 
some Black Foot Sioux on the South Dakota side. In the Fort Laramie 
Treaty of 1868, the United States pledged that: ``The Government of the 
United States desires peace and its honor is hereby pledged to keep 
it.'' The Treaty also provides that the Great Sioux Reservation was to 
serve as the ``permanent home'' of the Sioux Nation.
    Yet, in 1876, General Custer and the 7th Cavalry came out to Sioux 
country to force the Sioux tribes on to diminished reservations. In 
1889, the Federal Government once again called on the Sioux Nation to 
cede millions more acres of reservation lands, and the Standing Rock 
Sioux Reservation was established by the Act of March 2, 1889. Sitting 
Bull had opposed the land cession and in 1890, he was murdered by BIA 
police acting in concert with the U.S. Cavalry.
    The Standing Rock Sioux Reservation is composed of 2.3 million 
acres of land lying across the North and South Dakota border in the 
central area of the State. Like the Three Affiliated Tribes, the 
Standing Rock Sioux Tribe was asked to make a substantial sacrifice for 
flood control and ceded almost 56,000 acres of the best reservation 
land for Lake Sakakawea. Tribal members were removed from their 
traditional homes along the Missouri River flood plain and relocated 
well up above the river. Today, the population of resident tribal 
members is almost 10,000.
    Sisseton-Wahpeton Sioux Tribe. Located in Southeastern North Dakota 
and Northeastern South Dakota, the Sisseton-Wahpeton Sioux Tribe has a 
total enrollment of over 10,000 tribal members and a resident 
population of about 5,000 tribal members. The Tribe was originally 
located in Minnesota, but pressure from white settlers pushed the Tribe 
westward. The Treaty of 1858 with the United States established the 
Sisseton-Wahpeton Sioux Reservation, which today has approximately 
250,000 acres in North and South Dakota.

Indian Gaming in North Dakota
    Since the beginning of tribal gaming in North Dakota, the primary 
function has been to provide employment and economic development 
opportunities. Indian gaming has also provided vital funding for tribal 
government infrastructure, essential services including police and fire 
protection, education, and water and sewer services, and tribal 
programs, such as health care, elderly nutrition, and child care.
    There are five Indian gaming facilities in the state--Four Bears 
Casino & Lodge (Three Affiliated Tribes), Sky Dancer Casino & Lodge 
(Turtle Mountain), Spirit Lake Casino (Spirit Lake Sioux), Dakota Magic 
Casino (Sisseton-Wahpeton), and Prairie Knights Casino & Lodge 
(Standing Rock). Together, the gaming facilities employ almost 2,000 
North Dakota residents. About 70% of the employees are tribal members, 
and the balance are our non-Indian neighbors, and taking into account 
the multiplier effect of the $112 million of economic activity 
generated by Indian gaming in North Dakota, Indian gaming generates an 
additional 2,000 jobs statewide. Since 1997, the combined economic 
impact of Indian gaming and related activity has exceeded $1 billion 
statewide.

Tribal-State Relations
    All of the North Dakota tribes have worked to maintain positive 
government-to-government relationships with the State of North Dakota. 
Our Tribal-State compact acknowledges that:
        The Tribe and the State mutually recognize the positive 
        economic benefits that gaming may provide to the Tribe[s] and 
        to the region of the State adjacent to the Tribal lands, and 
        the Tribe and the State recognize the need to insure that the 
        health, safety and welfare of the public and the integrity of 
        the gaming industry of the Tribe and throughout North Dakota be 
        protected.

The Tribes in North Dakota have worked very hard to preserve a strong 
relationship with the State, and the State for, its part, has worked in 
good faith with the Tribes.
    In fact, the State Attorney General is vested with authority to 
regulate gaming under state law and works with the tribal governments 
through our compacts. Attorney General Wayne Stenjhem has complimented 
the tribal governments on our record of strong regulation and has 
cooperated with the tribal regulatory agencies to apprehend and 
prosecute those who attempt to cheat our casinos. The Attorney General 
has recognized that Indian gaming has created important jobs and 
generated vital revenue for tribal self-government and has made it 
clear that he is proud that the State of North Dakota has not asked for 
revenue sharing. State officials in North Dakota know that tribal 
governments have many unmet needs and it helps the whole state, when 
tribal governments have a way to create jobs and generate essential 
governmental revenue.

After Acquired Lands
    In general, the Indian Gaming Regulatory Act is intended to 
strengthen tribal self-government by safeguarding Indian gaming as a 
way to fund essential tribal government infrastructure, services and 
programs. The Act establishes a general policy that Indian gaming shall 
be conducted on trust land acquired prior to its passage in 1988. 
Because of the complex history of Federal takings of Indian lands, 
Section 20 of the Act provides several necessary exceptions:
    <bullet>  Lands Contiguous to Indian Reservations or Within the 
Last Reservation of a Tribe No Longer Has Reservation Borders;
    <bullet>  Lands Recovered Under Land Claims;
    <bullet>  Lands for Newly Recognized Tribes; and
    <bullet>  Lands Acquired Through Consultation with Local 
Governments and Neighboring Indian Tribes and a Two-Part Determination 
by The Secretary of the Interior with the Concurrence of the State 
Government.
    The first three exceptions for trust land within historic 
reservation boundaries, trust lands under land claims, and lands for 
newly-acquired lands fall into the category of addressing problems 
created by the United States' historic takings of Indian lands and 
injustices. The last exception, however, is a discretionary exception 
that requires the development of a broad consensus that such an 
acquisition is in the best interests of the Tribe and not adverse to 
the surrounding community.
    The Indian Tribes in North Dakota are engaged in gaming on Indian 
lands acquired prior to the Indian Gaming Regulatory Act, or in the 
case of the Sisseton-Wahpeton Sioux Tribe, on trust land acquired 
within the original boundaries of its reservation under the 1867 
Treaty.
    To date, there have been no off-reservation land acquisitions under 
the two-part Secretarial process. The Turtle Mountain Band of Chippewa 
has indicated that it is considering an off-reservation acquisition 
under the secretarial process set forth in Section 20.
    Section 20 explains that the limitation on Indian gaming to lands 
acquired prior to 1988 shall not apply when:
        The Secretary, after consultation with the Indian tribe and 
        appropriate State, and local officials, including officials of 
        other nearby Indian tribes, determines that a gaming 
        establishment on newly-acquired lands would be in the best 
        interest of the Indian tribe and its members, and would not be 
        detrimental to the surrounding community, but only if the 
        Governor of the State...concurs...
25 U.S.C. 2719(b)(1) (emphasis added).
    At the Great Plains Indian Gaming Association, we acknowledge the 
right of Indian tribes to apply to the Secretary to take land into 
trust for Indian gaming under Section 20 outside of its historic 
reservation. We also acknowledge that some of these transactions have 
been controversial because those in nearby communities or members of 
neighboring Indian tribes may be impacted by the acquisition. 
Therefore, we believe that the right of neighboring Indian tribes to 
consultation with the Secretary concerning such an application of after 
acquired lands is as important as the right of an individual Tribe to 
apply for it.
    Therefore, we believe that it is very important for the Secretary 
of the Interior to thoroughly consult with local governments and 
``neighboring'' Indian tribes. In fact, in North Dakota we all consider 
ourselves to be ``neighbors'' in the tribal community, and we believe 
that all Tribes should be consulted concerning any Section 20 after 
acquired land application in North Dakota or even near the North Dakota 
border in Minnesota, South Dakota or Montana. After all, while we live 
in areas that are large geographically, our population is small and we 
often draw our customer base from a substantial distance away. The same 
is true in other Great Plains states.
    In addition, if a Section 20 after acquired land application proves 
to be controversial, it is possible that it could damage relationships 
with local governments or even the State where we reside. Therefore, 
any hard and fast effort to define the term ``neighboring'' as 50 miles 
or 100 miles, must be rejected.
    In our view, the Secretary of the Interior must gather information 
through the consultation process necessary to protect existing Indian 
gaming on historic reservation lands because, after all, the main 
purpose of the Act is protect the historic tribal rights to self-
government on existing Indian lands.

Conclusion
    Under Section 20, in order to fulfill the Federal Trust 
Responsibility to protect Indian tribes, the Secretary of the Interior 
must consult thoroughly with neighboring Indian tribes and act to 
protect existing Indian gaming, when considering any Section 20 
application for the use of ``after acquired'' lands for Indian gaming. 
We believe that a thorough application of existing law and clear focus 
on real and substantial consultation will ensure that the Section 20 
process serves its purpose of generating a substantial local and tribal 
community consensus concerning the use of any after acquired land for 
Indian gaming. This will avoid the need for amendment of the Indian 
Gaming Regulatory Act.
    Again, thank you for the opportunity to testify today. 
Pilamayayelo.

                                  * * *

    As Chairman of the Great Plains Indian Gaming Association, I concur 
in Mr. Luger's testimony.

          Charles Murphy, Chairman, Standing Rock Sioux Tribe

                                 ______
                                 
    Chairman Pombo. Well, thank you, and I want to thank the 
entire panel for their testimony. It was very interesting for 
me and I am sure for the entire Committee.
    Mr. Luger, just to clarify for myself--
    Mr. Luger. Sure.
    Chairman Pombo.--do you feel that you there is a need to 
have off-reservation gaming, that there should be the ability 
to do that within the law?
    Mr. Luger. Yes.
    Chairman Pombo. You also feel that if this were to happen, 
that besides State and local community involvement, other 
tribes should also be heavily weighed in any of those 
decisions?
    Mr. Luger. Absolutely.
    Chairman Pombo. If we were to look at this from--you know, 
coming from California, we have our own set of issues out 
there, and I am assuming that some of the same things are 
happening in your area.
    Mr. Luger. You sent them east. They came.
    Chairman Pombo. That tends to happen. But in trying to get 
our arms around this, one of the things that Mr. Marquez--
Chairman Marquez talked about this. One of the things is that 
what is happening right now in California and in other parts of 
the country is in my opinion endangering all Indian gaming as 
well as sovereignty, because people are beginning to react to a 
lot of what is happening with people that are applying for off 
reservation.
    Do you feel that is it is in the interest of all tribes 
that we try to get in front of this thing before it goes much 
further?
    Mr. Luger. I think it would be--it is absolutely critical, 
and I will use NIGA as an example, that this dialog be taking 
place because it is growing. I mean, we are expected--look at 
California. My God. They had to ante up a billion dollars to 
the Gov over there. In my home country, we all had a heart 
attack that morning when we saw it in the news, and the bottom 
line is this, why is Indian country responsible for picking up 
the deficit problem in the State of California? We are be used 
for every little--nobody is questioning the leadership in the 
State of California during the hay day of the nineties, but, 
boy, they want that Class III money from Anthony Picot, and we 
are having a real problem with that, and it is coming into our 
neck of the woods. Kansas, Nebraska, Iowa, Montana just grew 
into that problem.
    And so you are correct in wanting to view this thing, 
because I see wagons kind of getting a runaway train.
    Chairman Pombo. Chairman Marquez, your testimony was very 
enlightening, and I know a lot of the issues that you are 
dealing with and some of the problems that you are trying to 
get in front of, but do you believe that we should allow off-
reservation gaming if we follow the criteria that we were just 
talking about, that the local community buys off, the State 
buys off, the tribes that are local there buy off on it or sign 
off on it, and it is a more open collaborative process than 
what we are currently doing?
    Mr. Marquez. I think under the Section 20, it allows for 
that process to take place. What we have unfolding here in 
front of us under the Timbisha Shoshone situation is a sidestep 
to the Section 20 where the Act allows the tribe with proper 
consultation with the Secretary of the Interior to acquire 
lands that they both agreed to purchase. I think we can all 
pretty much, especially in California, sit down and draw a 
bubble, if you will, of what our ancestral lands are, and I 
think it is a no-brainer to understand where your ancestral 
lands are, and that is in my mind, in my opinion, that is where 
you should be taking your off-reservation, quote-unquote.
    I think often times some of these tribes are driven by 
hungry investors and hungry attorneys to acquire land in more 
what I would deem profitable centers for their own benefit and 
not for the tribe's benefit, and I think it sets a horrible 
precedent, as Mr. Luger alluded to.
    Chairman Pombo. Would it not make more sense if a remote 
tribe was trying to locate a gaming operation in what was your 
historic area, for them to approach you and locate near your 
operation and try to work something out with you rather than 
spreading it all over the place the way that we see it 
happening in California right now?
    Mr. Marquez. If the question is proper consultation, I 
think there is always something to be said when two sovereigns 
can sit down and discuss whatever there is in front of them. I 
think what is more in question here, it is not about a casino. 
It is about an individual tribe coming into our ancestral land, 
acquiring land under trust for their purpose of X, Y, and Z, 
especially when our reservation is so limited and we don't have 
much land to perform and do various functions as far as provide 
housing. I think that, to me, is more critical than the fact 
that this is about gaming.
    As Mr. Luger said, we are much more than gaming, and this 
is about taking land into trust that is not theirs ancestrally. 
It is ours. I have a huge problem with that.
    Chairman Pombo. Well, we better get in front of that, 
because it is becoming all about gaming. That is what is 
happening, and I can tell you in my district, in my 
congressional district or immediately around it, I have five 
different groups that are looking at lands for possible 
casinos. That is driving public opinion and public perception, 
and if we are not careful, it is going to all end up about 
gaming, and everything else that you do and all of your other 
efforts in terms of your culture and your language and your 
sovereignty are going to be driven out because of this.
    And that is one of the reasons why I am so concerned about 
where we are going with all of this, and obviously in 
California, we have a lot going on right now, and I think the 
recent agreement with the Governor and a number of tribes in 
California helps to drive that because the public perception 
now is very different than it was just a few years ago in terms 
of what is going on.
    My time has expired, and I am going to recognize Mr. Baca.
    Mr. Baca. Thank you very much, Mr. Chairman. First of all, 
I want to commend you for having this hearing on this very 
critical issue that is impacting not only the State of 
California, but other areas too as well, and thank the 
panelists for appearing here today on this very important issue 
that we must address and hopefully that we can look at the 
process that is in place and look at finding some kind of 
resolution or consultation in dealing with the particular 
problem as we deal with off-reservations, if we look at off-
reservations gaming or purchase of land as well, especially 
geographical areas that are outside of the ancestry areas.
    My question, first of all, is to Chairman Marquez. Where 
are your ancestors' land located for San Manuel Band of Mission 
Indians?
    Mr. Marquez. Well, as I said in my testimony, it is the San 
Bernardino area, San Gabriel Mountains to the southern 
foothills as well as the Mojave Desert near Napa Valley as far 
out as Barstow and as far east as Twentynine Palms and Yucaipa 
Valley.
    Mr. Baca. Thank you. If these were lands were taken into 
trust by another tribe under the concept that we are trying to 
negotiate or talk about for the purpose of gaming, what effects 
would this have on San Manuel in terms of its economy and 
heritage?
    Mr. Marquez. If the question is about market share of the 
casino, I don't believe it would be an issue with the situation 
of where they are located. It is much deeper than that. I think 
the first problem we have is the fact that the land is our 
ancestral land as well as being close to our reservation as is. 
The second problem I believe comes into play is when they go 
into negotiations with the State, what concessions are going to 
be given up, and those concessions resonate just in the tribes 
in California, but they resonate across the country.
    I have already seen the spill-over from the $1 billion 
offering from those five tribes, and I have heard from 
countless tribal leadership across the country of their fears 
of their states coming to them asking for such the same, and 
that is just simply not what we are here for, as Mr. Luger 
alluded to. We are not here to bail out the State of California 
or any other state for their problems, and I think that is the 
second step that takes place. The third step is the public 
outcry that is going to take place about reservation shopping, 
and the fourth, I believe will be, as I alluded to in my 
testimony, there are a lot of people out there looking to jump 
into this mix. A lot of them are not suitable. I think there 
should be a process that before tribes who are non-gaming 
tribes engage in any investors must go through the NIGC to get 
properly backgrounded and found suitable before having 
conversations with these tribes.
    Mr. Baca. Thank you, because that does create a problem, 
because if they don't go through the appropriate channels, then 
they can be going through the Governor such as they have in the 
State of California for the purpose of bailing out for the 
State. That creates quite a problem in terms of disharmony 
amongst tribes, disrespect for one another. So now they are 
negotiating based on revenue or dollars or the ability, which 
means now that they are going to bail out the State, and the 
Governor then can sign a compact with a certain tribe outside 
of their ancestor area that creates a big problem for a lot of 
us in our areas. Is that correct?
    Mr. Marquez. That is correct, sir.
    Mr. Baca. So that would really, you know, put a tremendous 
burden on us. Then the Governor then would have the control in 
the State of California to say, Well, I am going to negotiate 
because these are the tribes that were willing to sign a 
compact, so we are going to allow them to start a gaming casino 
somewhere because we know that we are going to get revenue 
versus one tribe that has already signed a compact, and in that 
compact, that they already agreed to certain terms of an 
agreement, but yet they are holding them hostage with a gun at 
your head, saying that if you don't do this, this is what we 
are going to do. That is wrong, isn't it?
    Mr. Marquez. Well, it gets back to the Pete Wilson days 
where basically you had to take it or leave it, and the Pollock 
compact, obviously we chose not to take that, and that was back 
in the late nineties which gave rise to the current compacts of 
1999 under Davis. So it is the same process where they can hold 
a gun to your head and demand a whole plethora of items that 
the States are willing to take and the tribes are willing to 
give up, and then that is placed on the other tribes in the 
State of California across the country as well.
    Mr. Baca. And beyond that. I think it was stated it pits 
one tribe against another tribe and disharmony not only in 
terms of sovereignty, but ancestry, lands too as well. I think 
that is another problem that we have to deal with, because we 
are talking about heritage, customs, and traditions, and those 
values that would be impacted if we allow the off-reservation, 
and I don't think anyone here is totally against off-
reservation if it is done within a geographical area of that 
tribe, but when you are going from one area to another, it is 
just like having one country invade us and say, Well, I am 
going to take over your State. And that is basically what we 
have. You know, Iraq is going to come in here and says, All 
right, I am going to take over the San Bernardino area. I will 
use San Bernardino as an example.
    You know, are we going to allow Iraq to do that based on 
the power and money that they have? It is the same situation.
    Mr. Marquez. We also know that there are tribes, as you 
stated, in the past panel from northern California, from 
central California in our area, looking to acquire land, some 
as close as five miles away from our current reservation. They 
haven't formalized it yet, but we know that they are out there 
shopping and looking, and again, they are being backed by 
various groups such as Paragon Gaming, which was the group in 
Oxnard that the Treasurer alluded to. We know those people are 
out there.
    Mr. Baca. Especially for most of us who are from southern 
California, we know that the population which is approximately 
36 million people in the State of California and the majority 
of them being in the southern portion of California, the 
majority of them all go right through our area right into Las 
Vegas, use the I-10, the 215 right directly into that area. So 
they know very well that if they are allowed to do this, it is 
like a gold mine for them whether it is in Barstow--I have no 
objection in terms of Barstow, but if it was done, you know, 
through someone who had that ancestry in that area, basically 
because I come from Barstow, but having a tribe come from the 
northern portion to establish gaming in that area is a 
difficult problem that I have because they know the flow of 
traffic is there. They know that. They market it, and they know 
that it is very easy and accessible, and then that would take 
away from some of the other tribes too as well. I am not saying 
that you are against it, but only against from the form of 
having someone come into another portion that has nothing to do 
with that particular area.
    But what steps do you believe need to be taken by the 
Secretary of Interior or by Congress to discourage what some 
call the reservation shopping? And that is for any of the 
panelists too as well.
    Mr. Luger. I certainly have an opinion on it. First of all, 
the easiest thing to do is get them to do their job now. They 
should fully enforce the consultation policy, and, quite 
frankly, I saw confusion in the ranks when they were testifying 
up here earlier, and I have my own opinion on it. I don't think 
it is motivated by lobbyists. I think it is flat confusion, 
trying to do the right thing, but not knowing what to do, and 
we have all ran across that before with most bureaucracies, but 
in this case here, the signal that I--I read my history books, 
and you guys, anybody in here can go back and read what 
happened to Klymouth in Oregon. There is a time when tribes 
have to stand up and say, Hey, look, our credibility is on the 
line as well.
    How many more ``Time Magazine'' articles or Andy Rooney 
comments or things like that are we going to be able to endure 
with the public? Once John Q. Public loses their guilty 
conscience on the atrocities that we went through in the 1800s, 
we are in trouble, and I know that. I have been there before.
    And so this is one of those questions where the Secretary 
needs to give clear direction to her troops that the 
consultation policy must be fully enforced and that the tribes, 
not just the local communities, are comfortable with that. It 
is easy to say that one tribe was a bad guy because they worked 
against another not to get developed. Let us flip the coin 
around. The other tribe, what if they had $200 million worth of 
infrastructure on the ground and in their homeland? It seems to 
me like they have the right to say uncle.
    So the pitting looks to me like it is headed toward tribe 
to tribe, and actually it is Uncle Sam in the background again 
adding confusion.
    Mr. Baca. Let me follow up to that. Do you believe, then, 
that the current Section 20 IGRA process addresses the problem 
when it is difficult to determine where one tribe's ancestors 
land ends and another tribe's begins? That is Question No. 1, 
and that is for any of you to answer. And then as a follow-up, 
how do you believe that this disagreement can be resolved for 
the benefit of all tribes?
    Mr. Luger. Which disagreement are you specifying? The one 
that we heard this morning?
    Mr. Baca. The one that I heard earlier by Chairman Marquez 
in his testimony. Chairman Marquez states: ``was able to able 
to reclaim the ancestral lands''. Do you believe that this is 
fair to other tribes when their lands have the same area? So it 
is a follow-up to that. I didn't get a chance to ask that 
question to Chairman Marquez earlier.
    Mr. Marquez. I think there are definitely going to be areas 
where there is a setting where some areas were trade routes 
where various tribes utilized those areas. I think when you 
come to that crossroads, proper consultation should be had by 
all of those involved in that area, because we are well known 
to know that we have burial sites up in the area. There are 
villages up in the area. We know that the Chimawaves were also 
part of that trade route. We also know the Pyutes were part of 
that trade route.
    So there are other entities in that area that should be 
properly dialogued with before another tribe steps in and 
claims that land as theirs when it is really not. It is more 
than just one.
    Mr. Baca. Didn't we have a similar situation I don't know 
how many years back, but when we had the Martinez tribe in that 
area that was trying to claim a certain area, that we had 
problems with some of the other problems as well? Do you recall 
that?
    Mr. Marquez. The Torres Martinez Cabazon conflict?
    Mr. Baca. Yes.
    Mr. Marquez. I recall it. Do I remember it vividly? I do 
not.
    Mr. Baca. But that was similar in one sense when we were 
looking at it, but yet there was appropriate consultation that 
they were able to settle their differences.
    Mr. Marquez. After people started to raise the question 
about what was there proper consultation. I think early on in 
the process, there wasn't, but when people started to question 
the process and question the practice, I believe the two tribes 
finally got together and had what I would consider a proper 
dialog.
    Mr. Baca. OK. Thank you very much.
    Mr. Chairman, I know that my time has expired, but, you 
know, I hope that we continue to dialog and look at this, 
because this would set a horrible precedent if we allow this 
kind of exchange that goes on right now, and it would pit tribe 
against tribe. It would divide our Nation too as well, and then 
it would allow the highest bidder then to obtain the land 
versus ancestry based on that particular area. So I think, 
hopefully, we can take all of this into consideration before 
any final decision, and as stated before, there is a process, 
and hopefully if a decision is made wrong, that there is some 
kind of appeal process too as well.
    Ms. Lohse. Chairman, I would just like to add to what they 
are saying. I know that a lot of concern is with southern 
California in their more urban areas, but up in our rural area, 
it is a negative impact. I want to emphasize about the 
revisionist historians that rewrite our history and how that 
will impact us down the road.
    Indian gaming is not a Federal entitlement, so that needs 
to be put on the table and considered when we talk about this. 
I heard earlier about the re-recognition process and the tribe 
that was landless. We were landless, but we were re-recognized. 
There was clearly an identification of where we were from at 
that time. I would suggest that the Government look at those 
type of things, that type of language where it clearly 
identifies where that tribe is from.
    The other thing is that I heard the comment that there was 
no rush to gain off-reservation gaming. It may not seem like a 
rush to you, but to those of us that are being affected by it, 
it is clearly a rush upon us to protect our tribal lands, our 
culture, our history, and our traditions from those that would 
do that. I think Chairman Marquez intimated that there were 
tribes that were coming from northern California down to 
southern California. It may not have hit the radar yet, but it 
is there. It is happening.
    And so to say that there is no rush, I believe there is, 
and given the situation that California is in, in particular, 
and I can only speak to California, there is definitely a 
rumbling going on regarding those new compacts. They work for 
those--I will say they work for those tribes. Our concern is 
that they do not work for ours and that we will be held hostage 
to come to the table to a certain degree that would not work 
for us, but we can still work around that.
    The other side of it is this type of land acquisition is 
truly, truly becoming the bigger issue also because that will 
impact down the road any kind of negotiations that we might 
have.
    So again, Indian gaming is not a Federal entitlement. It 
was there as an opportunity, and I think I heard this morning 
let the market bear out; we either keep Indian gaming or we 
throw it all out. Well, I kind of differ with that opinion. The 
point is not let the market bear out, but let the truth bear 
out as to where these tribes are from and not let the market 
dictate where they can re-enter and claim restored land.
    Chairman Pombo. Mr. Pallone.
    Mr. Pallone. I will try to be brief because I know we are 
trying to wrap it up, but I agree. I wasn't here when Ms. Lohse 
testified, but I agree with you that, you know, you have to be 
concerned about how this dovetails with the whole issue of 
Federal recognition, because if another tribe is claiming an 
area that a tribe is trying to be recognized, it also claims, 
it makes it all that much more difficult for them to get 
Federal recognition, which is hard enough as it right now based 
on hearings that we have had in this committee.
    What I wanted to ask, you know, I am trying to put this in 
perspective with the previous panels, because I heard the Jena 
Band say that, you know, they didn't have--they were landless 
and that the process of acquiring land for reservation in trust 
was related to all this. Was this--what I wanted to ask 
Chairman Marquez is, this example that you used with the 
Timbisha Shoshone Tribe, are they federally recognized? Are 
they a tribe that is federally recognized or that has any land 
now?
    Mr. Marquez. They are recognized. I believe their lands 
base is in the Death Valley area.
    Mr. Pallone. So the analogy, then, with Jena and some of 
these others doesn't hold; they clearly have a land mass and 
they are just looking to acquire additional land closer to you?
    Mr. Marquez. I think there is an Act on the table that they 
are utilizing to acquire more lands. I am not quite astute in 
their Act of Congress, but they have some abilities to acquire 
land off their reservation.
    Mr. Pallone. But then if--you know, again, I missed it and 
I am just going by your written testimony, but if they are 
claiming that this is an initial reservation, how do they do 
that if they already have one? I am confused.
    Mr. Marquez. I am with you.
    Mr. Pallone. You have the same question? OK.
    Mr. Marquez. Yes.
    Mr. Pallone. Because it seems like such a huge loophole to 
get around if you already have--
    Mr. Marquez. You know, I think what it boils down to is you 
have tribes who are landless, tribes who have land, and then if 
we want to make a third category, we can say there are tribes 
who don't have usable land.
    Mr. Pallone. I see.
    Mr. Marquez. And that would be what we would fall into. So 
it is kind of--you know, it is just wrong when somebody can 
take land into trust and your ancestral land when you have--I 
mean, if I was to give an example of my reservation, which is 
840 acres, this room here would represent all the flat land we 
have on our reservation, and then the rest of this building 
would be the reservation. We couple that with the San Andreas 
Fault running through our flat land. It does not make for the 
most I guess suitable land to build on. So we have, you know, 
obstacles to overcome and we have overcome those obstacles. 
Then when you hear about a tribe who want to acquire land in 
your backyard for the purposes of Indian gaming or for 
whatever, I mean, in my mind, gaming is not the catalyst here. 
It is just a process for taking land out of trust that is not, 
you know, solely one hundred percent that tribe's. It is other 
tribes's areas as well, and we are part of that mix.
    Mr. Pallone. The problem that I see, though--again, I want 
to keep going on here, is that, you know, if you listen to the 
previous panel, on the one hand, Ernie said that he recognized 
legitimate claims of the Jena and the other Oklahoma tribe, but 
that they should fit within IGRA. You seem to be saying, 
Chairman, that the Shoshone tribe may be getting around IGRA, 
but yet you are not arguing that there be any change in the 
law, just that it be applied the way you think it should be. 
Right?
    Nobody is suggesting any suggesting any change in the law 
here.
    Mr. Marquez. I think Mr. Luger probably said it best, just 
follow the law, follow the process.
    Mr. Pallone. OK.
    Mr. Marquez. There is a process in place already, and when 
you start to sidestep Section 20 in this case, this is the 
dilemma we arrive in, and it is a paradox and, nonetheless, it 
has to be addressed.
    Mr. Pallone. OK.
    Mr. Luger. Mr. Chairman.
    Mr. Pallone. Go ahead. Sure.
    Mr. Luger. Just one quick comment, and I want to put a 
numerical perspective on this landless tribe situation, and I 
can stand to be corrected, but I am pretty sure there is less 
than a half of dozen of those, and there are 560-some 
recognized tribes with land. So, you know, the perception that 
while you have half of them out here that don't and the other 
half do is incorrect. I actually think the number is five.
    Ms. Lohse. And my understanding this morning is the Jena 
Tribe had said that they did have a hundred acres in trust that 
they didn't something else on.
    Mr. Pallone. That was confusing to me too.
    Ms. Lohse. So we are a little confused here in regard to 
that, and I think that is kind of the thing here of having the 
Timbisha Shoshone saying this is their first reservation when 
it is not a first reservation, and the tribe that we have up 
here is the same type of thing. They have a stipulation where 
they should go, but because they don't want to or they actually 
have lands there, but it doesn't fit the out-of-state 
investors' purchase, then we all have to shift.
    So I think we continue to say IGRA doesn't necessarily need 
to be revised, but applied properly, and that is our concern, 
is that it is not being applied properly because of, you know, 
not paying attention to what the tribe was recognized to and, 
again, not continuing to take Indian gaming as the lead for 
recognizing or restoring land.
    Mr. Pallone. OK. Thanks a lot.
    Thanks, Mr. Chairman.
    Chairman Pombo. Thank you. I want to thank this panel for 
your testimony. It is obviously an issue I believe we need to 
get out in front of, and I know that most of the people who 
testified today said they didn't see a reason to amend current 
law, and yet they had a whole list of problems with what was 
going on, and I am of the opinion right now that we may have to 
amend current law and get in front of this thing, because the 
pressure that this committee is under right now from a number 
of different people because of what is going on across the 
country, I think it is in all of our interests that we maintain 
as much control over this as we can because decisions are being 
made that affect all of us and you in particular.
    So I think we do seriously have to look at this and how we 
are going to deal with it.
    Chairman?
    Mr. Marquez. I just want to add, you know, we heard a lot 
about the Federal Government not performing or not practicing. 
I think we also need to take step back as tribal leadership and 
tribal governments and look at ourselves and ask ourselves are 
we performing the best practices for our people, and I think 
that is something we don't ask ourselves enough; and in this 
case, who is driving this? It is not the Federal Government.
    So I think we need to turn our eyes inward sometimes and 
look at ourselves. That is all I wanted to say, sir.
    Chairman Pombo. I think that is a very valid point.
    Mr. Luger. Mr. Chairman.
    Chairman Pombo. Yes.
    Mr. Luger. I just wanted to take the time to congratulate 
Tom Brierton. He came out to our region and took a good look 
out there, and the tribe has found a good friend in Mr. 
Brierton. I know he is on your staff, and I just wanted to 
recognize that because he was very well received out there.
    Chairman Pombo. Well, thank you. Both Tom and Chris and all 
the staff have, I think, done an admirable job. One of the 
things that we talked about early on was getting them out and 
visiting as many areas as they possibly could. I had a chance a 
few months back to go into South Dakota, and I understand what 
you mean by you drive 50 miles for gas and 50 miles beyond that 
for groceries, because I saw it.
    One thing you said earlier--I know I have to go, but one 
thing you said earlier was about sticking a post hole in your 
backyard. If we could get all of the Federal Government to stay 
out of your backyard, I would be lot happier, because I saw 
those prairie dog holes all over the place and I would like to 
get rid of some of those.
    Mr. Luger. Thank you.
    Chairman Pombo. But that is another issue that I think we 
can deal with.
    Mr. Luger. I just wanted to express your and your staff's 
interest in the Indian country, it is greatly appreciated.
    Chairman Pombo. Thank you.
    Ms. Lohse. Chairman, we would like to also thank you. We 
can't say enough about your staff. Chris has been very good. I 
didn't want to let him go unnoticed, and we were discussing you 
want us to pass a resolution to give him a raise and that kind 
of stuff, but--
    Chairman Pombo. There is too much pressure here.
    Mr. Marquez. Chris, you will be staying home for a while.
    Ms. Lohse. We very much appreciate it, and I know you were 
honored through NCAI about your work in the Indian country, but 
we do appreciate it, and we know there are a lot of things, and 
we are glad that you are willing to get out there in the front 
and get your arms around this, because then we know that we are 
being protected and looked after.
    Chairman Pombo. Thank you very much, and I want to thank 
all of the panels for your testimony today. I will remind this 
panel there will be additional questions. They will be 
submitted to you in writing. If you could answer them in 
writing, the hearing record will be held open for this purpose. 
If there are any additional comments anyone would like to enter 
into the record, I believe the hearing record will be held open 
for 10 days to allow others the opportunity to submit written 
testimony to be included as part of the hearing record.
    If there is no further business before the Committee, I 
again thank the members of the Committee and all of our panels 
and our witnesses, and the Committee stands adjourned.
    [Whereupon, at 1:43 p.m., the hearing was adjourned.]

    [The following information was submitted for the record:]
    <bullet>  A joint statement submitted by The Honorable 
Nancy L. Johnson, The Honorable Christopher Shays and The 
Honorable Rob Simmons; and
    <bullet>  A statement submitted by John McCarthy, Executive 
Director, Minnesota Indian Gaming Association.

    [The joint statement submitted by The Honorable Nancy L. 
Johnson, The Honorable Christopher Shays and The Honorable Rob 
Simmons, follows:]

 Statement submitted for the record by The Honorable Nancy L. Johnson, 
     The Honorable Christopher Shays, and The Honorable Rob Simmons

    Mr. Chairman and members of the Committee, thank you for allowing 
us to submit testimony today on the important subject of off-
reservation Indian gaming on restored and newly-acquired lands. This 
subject is of great importance to our constituents because several 
tribes in Connecticut are seeking to open Class III gaming facilities 
on off-reservation lands. The Schaghticoke Tribal Nation of Kent is 
seeking to build a casino in Danbury, Waterbury, or Bridgeport. The 
Golden Hill Paugussett tribe of Colchester is seeking to build a casino 
in Bridgeport. Both the Historic Eastern Pequot tribe of North 
Stonington and the two Nipmuc groups in Massachusetts are seeking to 
build casinos in Eastern Connecticut.
    During previous hearings before the Committee, we have testified on 
the seriously flawed federal recognition process. In recent decisions 
involving petitioners from Connecticut, federal regulations have been 
abrogated and existing precedent overturned in what appears to be a 
results-oriented process. Recent hearings of the House Government 
Reform Committee have revealed the substantial casino interests 
financing acknowledgment petitions in Connecticut.
    Further casino development will have a detrimental impact on the 
small cities and towns in Connecticut. Federally-recognized tribes do 
not have to adhere to local zoning laws, nor do they pay local property 
taxes or federal income taxes, thus shifting the tax burden to the 
surrounding communities. Local governance is done at the town level in 
Connecticut, leaving localities, already struggling with tight budgets, 
unable to cope with the high municipal costs that casinos create. Towns 
hosting and bordering the two existing casinos in Eastern Connecticut 
can testify to the tremendous social costs casinos bring: including 
round-the-clock casino traffic, a heavy burden on local police and 
emergency services, increased crime, and lower property values.
    On the issue of Indian gaming, local communities are at a decided 
disadvantage. Given this uneven playing field, and our experience with 
an inconsistent and unfair federal acknowledgment process, it is all 
the more urgent that federal law and regulations governing off-
reservation gaming be applied fairly and consistently.
    The Indian Gaming Regulatory Act of 1988 (IGRA) and federal 
regulations provide clear protections for local communities and state 
authorities with off-reservation gaming on trust lands acquired after 
IGRA's enactment. In order to approve Class III gaming on off-
reservation trust lands acquired post-IGRA, the Secretary is required 
to consult with state and local officials and determine, with the co-
consent of the governor of the state in question, that gaming ``would 
not be detrimental to the surrounding community.'' The detrimental 
impacts of another casino in Connecticut are manifest.
    Class III gaming by federally-recognized tribes can only be 
conducted on federal trust lands. Federal regulations require the 
Bureau of Indian Affairs to scrutinize trust applications for off-
reservation lands, giving increased weight to the concerns of local 
communities as the distance from the reservation increases. With tribal 
petitioners in Connecticut and New England seeking to build casinos far 
from their reservations and closer to major interstates, and in some 
cases crossing state lines to find more favorable gaming markets, this 
scrutiny must be vigorously applied pursuant to the regulations.
    Given the tremendous consequences of casino development in 
Connecticut, we believe it is imperative that:
    (1) federal law, federal regulations, and recognition criteria be 
applied fairly and consistently, and
    (2) local communities be given every appropriate consideration 
pursuant to the regulations.
    Thank you for considering our testimony today.
                                 ______
                                 
    [The statement submitted for the record by John McCarthy, 
Executive Director, Minnesota Indian Gaming Association, 
follows:]

    Statement submitted for the record by John McCarthy, Executive 
             Director, Minnesota Indian Gaming Association

    Good morning Chairman Pombo, Ranking Member Rahall, and members of 
the committee. My name is John McCarthy and I am the Executive Director 
of the Minnesota Indian Gaming Association. Our Association represents 
nine of the eleven federally recognized Tribes within the State of 
Minnesota. Those tribes are geographically located in rural communities 
throughout Minnesota. Our member Tribes are identified as follows:
    <bullet>  Leech Lake Band of Ojibway in northern Minnesota, located 
in proximity to the Bemidji, Walker and Grand Rapids areas.
    <bullet>  Grand Portage Band of Ojibway in the far northeastern 
corner of the State, located in proximity to Grand Marais and the 
Canadian border.
    <bullet>  Fond du Lac Band of Ojibway in northeastern Minnesota, 
located in proximity to the City of Duluth, Cloquet and Sawyer, 
Minnesota.
    <bullet>  Bois Forte Band of Ojibway in northern Minnesota, located 
in proximity to Virginia, International Falls and the Tower and Lake 
Vermillion area of the State.
    <bullet>  Mille Lacs Band of Ojibway in north central Minnesota 
located in proximity to Brainerd, Garrison Hinkley, Pine City and the 
Wisconsin border.
    <bullet>  Upper Sioux Community in southwestern Minnesota, located 
in proximity to Granite Falls and the Iowa boarder.
    <bullet>  Shakopee Mdewakanton Sioux Community in southeastern 
Minnesota, located in proximity to the Prior Lake, Savage and Shakopee 
areas.
    <bullet>  Prairie Island Sioux Community in southeastern Minnesota, 
located in proximity to Red Wing, Cannon Falls and the Wisconsin 
border.
    <bullet>  Lower Sioux Community in southwestern Minnesota, located 
in proximity to Redwood Falls and Morton Minnesota.
    All Tribal governments in Minnesota negotiated compacts with the 
State. In that process we promised the State that we would not expand 
gambling by agreeing to limit our government gambling to certain games. 
To date we have honored that promise and we have not in any way 
promoted gambling expansion within Minnesota. All of our member Tribes 
have limited their gambling operations within Reservation boundaries, 
as per our agreement with the State.
    Over the years many Tribes have been approached by outside 
investors, gaming companies, cities, counties and others, with 
proposals to open gambling operations. Minnesota Tribes have said no. 
Tribal governments take very seriously, commitments and promises that 
they have made.
    At this time I would like to give you some facts about Tribal 
Government gambling and the tremendous benefits that it has produced 
for the rural communities throughout the State.
    Tribal government gaming has spawned the growth of Reservation 
economies like no other economic development tool has been able to do. 
As Reservation economies have grown so too have the economies of near-
by rural communities.
    Since 1989 Minnesota tribes have developed Tribal gaming businesses 
that currently employ over 13,000 people. Tribal gaming is one of 
Minnesota's top twelve employers. Twelve of the eighteen Tribal gaming 
operations are the largest employer in their rural communities
    Tribal gaming in Minnesota is one of the States largest tourist 
attractions, second only to the Mall of America. In the year 2000, 
Tribal casinos attracted more than 20.7 million patrons, with about 3.7 
million of those individuals coming from out of State. Those 
individuals spent an estimated $191.2 million on food, lodging, gas and 
other purchases on and off the Reservation.
    In 2000 Tribal government gaming employed over 13,339 Minnesota 
residents. 78% of those employed were non-native employees. 22% were 
Native American. These jobs all pay a fair and decent wage as well as 
health and dental insurance and retirement benefits.
    In 2000 Tribal government gaming operations paid $249,506,000 in 
total direct annual payroll. The average wage for employees was 
$18,705. $28,662,000 was paid toward benefits and pension funds. 
$81,051,000 was paid in payroll taxes.
    In 2000 Tribal governments paid $15,901,000, to local units of 
government, in fees and services related to their gaming operations.
    From 1989 through 1999 Tribes have spent $402,717,000 on 
construction projects for Tribal government gaming.
    In 2000 and 2001, Tribal governments spent an additional 
$158,395,00 in construction dollars related to Tribal government 
gaming.
    In 2000 Tribal governments purchased $186,633,000 from Minnesota 
vendors.
    Tribal gaming has eased the burden on State and County public 
assistance programs by offering gainful employment in rural 
communities. According to State records, AFDC payments have decreased 
by 17.8% in counties with Tribal gaming. The number of Native Americans 
receiving general assistance has decreased by more than 58%. Nearly 6% 
of casino employees were receiving some form of general assistance 
prior to casino employment. An estimated 11.5% of persons employed at 
Tribal casinos were receiving unemployment assistance prior to 
employment at the casino. Nearly 22% had been out of work at least 
three months, and 15% had been out of work more than six months prior 
to casino employment.
    IGRA establishes a general policy that Indian Tribes should only 
conduct gaming on lands held in trust by the United States prior to 
passage IGRA on October 17, 1988. 25 U.S.C. Sec. 2719. Congress also 
accounted for historical circumstances such as diminished reservations, 
terminated tribes, and Indian land claims, and established reasonable 
exceptions to provide for the use of ``after acquired'' lands when 
necessary. In addition, Congress established a more general exception 
for the use of ``after acquired'' lands for gaming where the Secretary 
of the Interior--after consultation with local governments and 
neighboring Indian tribes--determines that Indian gaming on the lands 
is in the best interests of the Tribe and would not be detrimental to 
the surrounding community. The Governor of the State must then concur 
in the Secretary's decision. Of course, the Tribe must also 
successfully negotiate a compact with the State before conducting class 
III gaming on such lands.
    This process has been widely criticized as divisive among tribal 
governments. While the procedure is not ideal, we feel that as long as 
the process laid out in IGRA is followed and the necessary parties are 
consulted, that there is no need at this time to amend the Act. Our 
Association is concerned with the lack of clarity with regards to 
Section 20 of the Act. In our opinion there needs to be more specific 
language regarding the consultation process. There are no guidelines 
detailing how the consultation is to be conducted and what value will 
be placed on ``Impact to surrounding Tribes.'' It is our belief that if 
there was a clearer definition of the sub-section referring to ``The 
Secretary must also consult with the local area government and 
neighboring Indian Tribes to ensure that such acquisitions would not be 
detrimental to the surrounding community.'' 25 U.S.C. 
Sec. 2719(b)(1)(A).
    In 1995 our Association was in the middle of a very distasteful 
battle with four Wisconsin tribes over a fee to trust transfer request 
relating to a dog track in Hudson Wisconsin. We found ourselves having 
to oppose the transfer requested by the Wisconsin Tribes. The ensuing 
battle was long and left many hard feelings. We did not feel that the 
Bureau of Indian Affairs took our concerns into account and that they 
completely glossed over the financial impact that this transfer would 
have on Minnesota markets. At the time we blamed the BIA for not 
providing adequate consultation. In retrospect the problem more likely 
was a lack of clear guidelines in the language spelled out in the act.

CONCLUSIONS
    The Minnesota Indian Gaming Association, acknowledges the right of 
all Federally Indian Tribes to apply to the Secretary of Interior to 
take land into trust for gaming purposes under Section 20, outside of 
its historic reservation. We are aware that some of the past 
transactions have been controversial because those in nearby 
communities or members of neighboring Indian Tribes would be impacted 
by the acquisition. However, we also believe that all other neighboring 
Federally Recognized Tribes have an equal right as Tribal Sovereigns, 
to meaningful and fair consultation concerning such an application and 
the impact it may have on them and their people. This consultation 
should not be limited and should have clear guidelines allowing all 
parties to be heard. The neighboring boundaries should be expanded to 
include all bordering States as well as affected Tribes within that 
state. We also believe that ``remoteness'' should not in and of itself 
be a criteria for acquisition under this section.
    Mr. Chairman and members of the Committee this concludes my 
remarks. Thank you for providing me the opportunity to testify today.

                                 <all>

</pre></body></html>
